<html>
<title> - NOAA SATELLITES: WILL WEATHER FORECASTING BE PUT AT RISK?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                     NOAA SATELLITES: WILL WEATHER
                      FORECASTING BE PUT AT RISK?

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2003

                               __________

                           Serial No. 108-19

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

88-230              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
       AMY CARROLL Professional Staff Member/Chairman's Designee
                ELYSE STRATTON Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant


                            C O N T E N T S

                             July 15, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    11
    Written Statement............................................    12

Statement by Representative Mark Udall, Minority Ranking Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    14

Prepared Statement by Representative Nick Smith, Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    14

                                 Panel:

Mr. Gregory W. Withee, Assistant Administrator for National 
  Environmental Satellite Data and Information Service (NESDIS), 
  National Oceanic and Atmospheric Administration
    Oral Statement...............................................    16
    Written Statement............................................    17

Mr. Peter B. Teets, Under Secretary of the Air Force and 
  Department of Defense Executive Agent for Space
    Oral Statement...............................................    31
    Written Statement............................................    32

Mr. David A. Powner, Acting Director, Information Technology 
  Management Issues, General Accounting Office
    Oral Statement...............................................    35
    Written Statement............................................    36

Mr. Wes Bush, President, Northrop Grumman Space Technology
    Oral Statement...............................................    56
    Written Statement............................................    57

Dr. Ronald D. McPherson, Executive Director, American 
  Meteorological Society
    Oral Statement...............................................    61
    Written Statement............................................    62

Discussion
  Causes for Schedule Delays.....................................    65
  The Potential Gap in Satellite Coverage........................    67
  Monitoring the Budget Process for Gaps.........................    68
  Changes to the Baseline Process................................    70
  The Nature of Technical Failures and Contingency Planning......    70
  International Satellite Data Sharing...........................    72
  The NOAA-DOD Joint Program.....................................    75

  Appendix 1: Biographies, Financial Disclosures, and Answers to Post-
                           Hearing Questions

Mr. Gregory W. Withee, Assistant Administrator for National 
  Environmental Satellite Data and Information Service (NESDIS), 
  National Oceanic and Atmospheric Administration
    Biography....................................................    78
    Answers to Post-Hearing Questions............................    79

Mr. Peter B. Teets, Under Secretary of the Air Force and 
  Department of Defense Executive Agent for Space
    Biography....................................................    81
    Answers to Post-Hearing Questions............................    83

Mr. David A. Powner, Acting Director, Information Technology 
  Management Issues, General Accounting Office
    Biography....................................................    84

Mr. Wes Bush, President, Northrop Grumman Space Technology
    Biography....................................................    85
    Financial Disclosure.........................................    86

Dr. Ronald D. McPherson, Executive Director, American 
  Meteorological Society
    Biography....................................................    87
    Financial Disclosure.........................................    88

 
       NOAA SATELLITES: WILL WEATHER FORECASTING BE PUT AT RISK?

                              ----------                              


                         TUESDAY, JULY 15, 2003

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     NOAA Satellites: Will Weather

                      Forecasting Be Put at Risk?

                         tuesday, july 15, 2003
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday July 15, 2003 at 2:00 p.m., the House Science 
Committee's Subcommittee on Environment, Technology and Standards will 
hold a hearing to examine satellite programs at the National Oceanic 
and Atmospheric Administration (NOAA). NOAA procures and operates the 
Nation's environmental monitoring satellites, which provide raw data 
and processed data products to the National Weather Service (NWS), the 
Department of Defense (DOD), and the public for weather forecasting and 
prediction. NOAA performs these duties through its line office, the 
National Environmental Satellite, Data, and Information Service 
(NESDIS). NOAA is in the final preparation stages (and has awarded the 
prime contract) for the new National Polar-orbiting Operational 
Environmental Satellite System (NPOESS), which has a lifetime (23 
years) cost of $6.5 billion. While NOAA is the lead agency, NPOESS is a 
tri-agency effort among NOAA, the National Aeronautics and Space 
Administration (NASA), and DOD to combine and integrate the polar 
satellite needs and capabilities of all three agencies. The procurement 
cost is shared equally between NOAA and DOD. Given the tremendous cost 
and important mission of NOAA's environmental satellites, the 
Subcommittee will be providing continuous oversight of this project.
    The hearing will focus on these major concerns:

        (1) The Administration's Fiscal Year (FY) 2004 budget request 
        significantly delays when the first NPOESS satellite would be 
        ready. This could create a 21-month gap in polar satellite 
        coverage if the last satellite from the current NOAA polar 
        series fails during launch or in orbit. A loss of polar 
        satellite coverage could severely compromise three to seven day 
        weather forecasts, prediction of severe weather events, such as 
        hurricanes, and daily aviation operations.

        (2) The Committee is concerned about possible cost increases 
        in the development of NPOESS. Given the current budget climate, 
        this could cause even further delays in availability of this 
        new polar satellite program and possibly lead to a decision to 
        drop some instruments from the satellites.

        (3) Given the advanced untested technology, the new 
        satellite's sensors and ground systems may have unforeseen 
        technical difficulties, which could lead to further delay. NOAA 
        may not be paying enough attention to this possibility.

        (4) DOD may be withdrawing some of its funding support for 
        NPOESS, because DOD's current weather satellites may last 
        longer than originally anticipated. This is critical because 
        NPOESS funding is equally shared between DOD and NOAA.

    The Subcommittee plans to explore several overarching questions, 
including:

        1. The Administration's FY 2004 budget request creates a 21-
        month gap between the launching of the last satellite from the 
        current NOAA polar program (Polar-orbiting Operational 
        Environmental Satellite or POES) and when the first NPOESS 
        would be ready, but NOAA's internal satellite coverage policy 
        states that such a gap is unacceptable. Why is NOAA willing to 
        accept this potential loss of coverage?

        2. If the last POES satellite fails, to what extent would 
        three to seven day weather forecasts and prediction of severe 
        weather such as hurricanes be compromised? What would be the 
        specific ramifications of a loss of polar satellite coverage? 
        Do NOAA and DOD have a contingency plan for this potential 
        predicament?

        3. What are NOAA and DOD doing to ensure the NPOESS program 
        stays on budget and that the advanced technology requirements 
        for satellite capabilities will be met?

        4. Is DOD fully committed to the NPOESS procurement schedule?

Witnesses:

Mr. Gregory Withee, Assistant Administrator for National Environmental 
Satellite, Data, and Information Service (NESDIS), National Oceanic and 
Atmospheric Administration (NOAA). Mr. Withee represents the office 
responsible for carrying out NOAA's NPOESS obligations.

Mr. Peter Teets, Under Secretary of the Air Force and Department of 
Defense Executive Agent for Space. Mr. Teets is responsible for 
developing, coordinating and integrating plans and programs for space 
systems and the acquisition of DOD space defense acquisition programs.

Mr. David Powner, Acting Director Information Technology Management 
Issues, General Accounting Office. GAO has been following the 
development of NPOESS and is prepared to discuss its concerns with the 
program.

Mr. Wes Bush, President, Northrop Grumman Space Technology. Mr. Bush 
has general management responsibility for space technology businesses 
at Northrop Grumman, the prime contractor for NPOESS.

Dr. Ronald McPherson, Executive Director, American Meteorological 
Society. Prior to joining AMS, Dr. McPherson was director of the 
National Weather Service's National Centers for Environmental 
Prediction (NCEP).

Summary of Issues

The Administration's Fiscal Year (FY) 2004 budget creates a potential 
21-month loss of polar satellite coverage if the last POES satellite 
fails during launch or in orbit. This is against NOAA's internal 
satellite risk policy, and NOAA apparently has no contingency plan for 
this potential problem. The December 2002 plan for NPOESS called for 
the first satellite to be ready by 2008. Based on the Administration's 
FY04 budget request, the first satellite will not be ready until 2010 
or 2011. Why is this acceptable? According to NOAA there is a 4 to 10 
percent chance of launch failure and a 4 percent chance of failure in 
orbit for satellites. Thus, there is a real possibility that the last 
POES satellite could fail. This situation actually happened in the 
early 1990s when NOAA's geostationary satellite program had a satellite 
fail in orbit, and there was a delay in the availability of the new 
satellite to replace it. Additionally, at that time, the one 
geostationary satellite remaining in orbit faced a real danger of 
orbital failure. The current budget situation with NPOESS could easily 
precipitate a similar situation.

9A loss of polar satellite coverage could severely compromise three to 
seven day weather forecasts and prediction of severe weather events, 
such as hurricanes. Industries as varied as aviation, agriculture, 
construction, emergency management, and climate research would be 
drastically affected by such a loss. In aviation, three to seven day 
weather forecasts are vital for planning flight paths to avoid major 
storm systems or volcanic ash. For emergency managers, more accurate 
forecasts of the paths of events like hurricanes can save millions of 
dollars, because it can cost up to $1 million a mile to evacuate a 
coastal community for a hurricane. Finally, polar satellites provide 
long-term climate records vital for validating global climate models 
and providing seasonal forecasts for industries such as energy 
distribution and agriculture.

Given the untested technology, the new satellite's sensors and ground 
systems may have unforeseen technical difficulties and potential cost 
overruns. The last major satellite acquisition program at NOAA, GOES-
NEXT, was $1.4 billion over budget and five years behind schedule due 
to a lack of technical planning and program development delays similar 
to those that NPOESS is experiencing now. Also, while NPOESS has 
general risk reduction included in the program plan, it appears that 
NOAA has not prioritized these risks or made available its specific 
risk reduction plans for each risk. For example, the largest risk 
reduction part of NPOESS, a joint program with NASA, has already been 
delayed by six months. This program not only provides a platform for 
testing some of the new sensors that will be part of NPOESS, but also 
is a link between the last experimental Earth-observing satellite from 
NASA and the first NPOESS. If it is delayed any further, the continuity 
of climate data from these new sensors could be compromised. It is not 
clear how NOAA is addressing these concerns.

In December 2002, the contractor for NPOESS (Northrop Grumman) 
completed a detailed program plan, but when the Administration's FY04 
budget request was released in February 2003, the total FY04-07 NPOESS 
funding was reduced by $130 million. This early funding reduction has 
forced Northrop Grumman to reformulate the program plan. Since 
satellite acquisition programs consist of three components--funding, 
equipment requirements, and schedule--if one component changes, another 
must be adjusted to compensate. For example, if funding decreases, the 
schedule must be delayed or the equipment requirements must be reduced. 
Currently the FY04-adjusted NPOESS program plan only incorporates 
schedule delays, but if future funding levels continue to drop, then at 
some point satellite capabilities may be compromised. By constantly 
readjusting the program schedule, our ability to test all of the 
components of the satellite system (satellite platform, sensors and 
ground systems) at the appropriate time is sacrificed. This makes the 
overall development of NPOESS less efficient than originally planned 
and could create unforeseen technical difficulties and cost overruns.

DOD may be withdrawing some of its funding support for NPOESS, because 
DOD's current weather satellites may last longer than originally 
anticipated. NPOESS is a tri-agency effort between NOAA, NASA, and the 
Department of Defense to combine and integrate the polar satellite 
needs and capabilities of all three agencies. The procurement cost is 
shared equally between NOAA and DOD. Currently, NOAA has its POES 
satellites and DOD uses its Defense Meteorological Satellite Program 
(DMSP) satellites for polar satellite coverage. However, loss of the 
polar-satellite coverage that POES provides will not only affect the 
civilian sector, but also the military. DOD relies heavily on NOAA POES 
satellites for some of its operations. In the recent war in Iraq, the 
Air Force used data from POES for planning operations and the Navy 
routinely using POES data for its ship routing. Since NPOESS funding is 
equally shared between NOAA and DOD, it is vital DOD maintain its 
financial commitment to the program.

Background

What is NESDIS?
    The National Environmental Satellite, Data, and Information Service 
(NESDIS) acquires and operates NOAA's satellites and manages the 
processing, distribution, and archiving of their data and other 
environmental data through its National Data Centers. NOAA satellites 
are used for ``operational'' purposes, mostly for providing real-time 
data and products to the National Weather Service (NWS) and DOD, 
whereas NASA satellites are used mostly for research purposes. NOAA's 
mission requires at least two geostationary and two polar-orbiting 
satellites to be deployed in orbit at the same time to ensure full 
coverage. NESDIS also operates three National Data Centers, which 
together are the largest collection of atmospheric, geophysical, and 
oceanographic data in the world.
    The FY04 budget request for NESDIS is $838 million of which $150 
million is for regular operations, research and facilities and $687 
million is for procurement, acquisition and construction of satellites. 
In FY03 NESDIS received $710 million of which $151 million was for 
regular operations, research and facilities and $559 million was for 
procurement, acquisition and construction of satellites.
What is NPOESS?
    The National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) is a tri-agency effort between NOAA, NASA, and DOD to 
combine and integrate the polar satellite needs and capabilities of all 
three agencies. As with NOAA, DOD currently operates two polar-orbiting 
satellites mostly for weather forecasting. NPOESS will replace the four 
NOAA/DOD satellites with three that the agencies will share at a total 
cost of $6.5 billion, split evenly between NOAA and DOD. The estimated 
savings from this collaboration is $1.8 billion.
    NOAA has a policy that a backup satellite must be available at the 
time a new polar satellite is launched. Therefore, the first NPOESS 
satellite must be ready by 2008, to cover the possible launch failure 
of the last of the older generation of polar satellites. But, now it is 
more likely that the first NPOESS satellite will not be ready until 
2010. This program is a significant portion of NOAA's overall budget, 
greater than the agency spends on all its oceans and atmospheric 
research.
    NASA is providing technical help and was scheduled to fly many of 
the NPOESS sensors on a NASA satellite or airplane starting in 2005 to 
ensure the sensors work, and to allow NOAA time to view the data to 
ensure it can be incorporated into its models and made into products. 
However, that schedule is now delayed six months and it is uncertain 
how this will affect the overall NPOESS program.
    From 2002 Federal agency NPOESS planning documents, the NOAA/DOD 
FY04 request for NPOESS was expected to be $608 million and remain at 
that level for several years before declining. However, the FY04 
requests for NPOESS is only $554 million total. This decrease delays 
the availability of the first NPOESS satellite and creates a potential 
loss of polar satellite coverage if the last POES satellite fails 
during launch.
What happened in the early 1990's with GOES-NEXT?
    There are concerns about these early funding decreases and delays 
in NPOESS primarily because of major problems with the last upgraded 
satellite procurement at NOAA, GOES-NEXT. In the end this program was 
$1.4 billion over budget and five years late in launch availability. 
Due to a series of events, this delay meant that from 1989 through 
1992, NWS was forced to rely on only one GOES satellite, when normally 
it uses two GOES satellites. This meant that satellite coverage over 
the Pacific and Atlantic Ocean was compromised for that time. In 
addition, the one satellite that remained was nearing the end of its 
expected lifetime and it was a member of a series of satellites that 
had experienced extensive technical difficulties and operational 
failures. Had that satellite failed, the NWS would have been unable 
track severe weather in real time or provide continuous weather images 
of the United States. After 1992 the NWS was able to use a satellite 
from Europe to restore dual geostationary coverage until GOES-NEXT was 
available in 1994. Delays in NPOESS could result in similar problems 
with future polar-satellite coverage. Given the complexity of our 
weather models today, it is uncertain whether the U.S. could use other 
nations' satellites for polar coverage in the future.

Questions for Witnesses

Mr. Gregory Withee

        1. Why is the Administration's FY04 budget request for NPOESS 
        $70 million less than the level that was determined to be 
        necessary at the Milestone Review of NPOESS by DOD, NOAA, and 
        NASA in July 2002?

        2. The Administration's FY 2004 budget request creates a 21-
        month gap between the launching of the last NOAA Polar-orbiting 
        Operational Environmental Satellite (POES) and when the first 
        National Polar-orbiting Operational Environmental Satellite 
        System (NPOESS) satellite would be ready. If the last POES were 
        to fail on launch, it would result in a loss of polar-satellite 
        coverage. How would such a loss affect NOAA's ability to carry 
        out its mission of providing weather and climate information to 
        the Nation? What options would be available to NOAA to mitigate 
        those effects? What plan does NOAA have in place to deal with 
        this contingency?

        3. To what extent could the FY04 budget request result in a 
        reduction in the types of sensors NPOESS will carry? If funding 
        were further reduced, at what level of funding would you be 
        forced to reduce sensor capabilities or requirements? How would 
        this affect NOAA's ability to carry out its mission of 
        providing weather and climate information to the Nation?

        4. Even if NPOESS operates as planned, how does NOAA plan to 
        deal with the significant remaining technical challenges to 
        ensure the NPOESS satellite data and data products can be 
        properly maintained, archived, and distributed?

Mr. Peter Teets

        1. The Administration's FY 2004 budget request creates a 21-
        month gap between the launching of the last NOAA Polar-orbiting 
        Operational Environmental Satellite (POES) and when the first 
        National Polar-orbiting Operational Environmental Satellite 
        System (NPOESS) satellite would be ready. If the last POES were 
        to fail on launch, it would result in a loss of polar-satellite 
        coverage. How would such a loss affect DOD operations? What 
        options would be available to DOD to mitigate those effects? 
        What plan does DOD have in place to deal with this contingency?

        2. To what extent could the FY04 budget request result in a 
        reduction in the types of sensors NPOESS will carry? If funding 
        were further reduced, at what level of funding would you be 
        forced to reduce sensor capabilities or requirements? How would 
        this affect DOD operations?

        3. Even if NPOESS operates as planned, how does DOD plan to 
        deal with the significant remaining technical challenges to 
        ensure the NPOESS satellite data and data products can be 
        properly maintained, archived, and distributed?

        4. If the last Defense Meteorological Satellite Program (DMSP) 
        satellite lasts longer than anticipated, will DOD remain fully 
        committed to the current NPOESS procurement schedule?

Mr. David Powner

        1. What major concerns has GAO uncovered as it follows the 
        National Polar-orbiting Operational Environmental Satellite 
        System (NPOESS) project? Specifically, do you see any possible 
        cost overruns, schedule delays or technical difficulties with 
        sensor or ground system software development in the near 
        future? What are the implications of these potential problems 
        and what would you suggest the National Oceanic and Atmospheric 
        Administration (NOAA) and the Department of Defense (DOD) 
        should do to address these issues?

        2. Knowing that the last major satellite procurement program 
        for Geostationary Operational Environmental Satellites (GOES) 
        had technical difficulties that resulted in $1.4 billion in 
        cost-overruns and a five-year delay, has NOAA adequately 
        applied lessons learned from that incident to prevent similar 
        problems with NPOESS and the next generation of GOES 
        satellites?

        3. If there is a loss of polar satellite coverage, can other 
        satellites be moved in to accommodate the needs of the National 
        Weather Service and DOD? What is the agency contingency plan 
        for this potential loss of polar satellite coverage?

Mr. Wes Bush

        1. How will the Administration's proposed funding decrease for 
        the National Polar-orbiting Operational Environmental Satellite 
        System (NPOESS), affect your ability to follow the schedule 
        plan outlined in your contract?

        2. What technical difficulties have you encountered and what 
        challenges do you foresee in developing NPOESS, given that the 
        sensors and ground systems for NPOESS are technologically 
        advanced, new, and untested?

        3. When will the new NPOESS program plan be ready? How will it 
        address the proposed four-year $130 million budget decrease?

Dr. Ronald McPherson

        1. From 1989 through 1992, the National Weather Service was 
        forced to rely on only one Geostationary Operational 
        Environmental Satellite system (GOES) satellite, when normally 
        it would use two operational GOES satellites. What events led 
        to this precarious situation? What would have been the 
        implications if the single GOES satellite had failed, resulting 
        in a loss of geostationary satellite coverage?

        2. Is the Nation more dependent on satellite data for weather 
        forecasting now than 10 years ago? Will our dependence continue 
        to increase in the future?

        3. How is polar satellite data used in weather forecasting? 
        How will the instruments on the National Polar-orbiting 
        Operational Environmental Satellite System (NPOESS) improve our 
        ability to provide three to seven day weather forecasts and to 
        predict severe weather events?

        4. What major industries rely on three to seven day weather 
        forecasts for business decisions?

        5. If there was a loss of polar satellite coverage for 21 
        months, what effect would that have on industries that use 
        weather forecasts from polar-satellite data? What effect would 
        it have on climate data records?

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Ehlers. Good afternoon. Welcome to this 
afternoon's oversight hearing on satellite programs at the 
National Oceanic and Atmospheric Administration, better known 
as NOAA.
    While this topic may seem highly technical, it is actually 
an issue with implications for our day-to-day lives, because 
NOAA satellites provide the Nation and the world with critical 
information that makes possible our weather and climate 
forecasting. I am sure many of you have already heard my story 
about the Congressman who was opposed to all of this money we 
were spending on this issue. And when someone asked him about 
the weather, he says, ``I don't need NOAA. I have got weather 
on my TV.'' And he lost his next election. So that shows just 
how important you are to every Member of Congress.
    While many of us may take for granted the impressive 
satellite images that appear on our TV or computer screens when 
we look at weather forecasts, we must remember that the 
satellite systems that provide these images are highly complex 
and expensive. For example, NOAA's new Polar-orbiting 
Operational Environmental Satellite System, affectionately 
known as NPOESS, will cost the Federal Government $7 billion by 
the time it is completed. This represents a tremendous 
investment for an agency whose annual discretionary budget is 
$3.3 billion. One year of NPOESS funding is more than NOAA 
spends annually on all of its ocean and atmospheric research 
activities combined.
    One role of Congress is to ensure that government 
investments are being used wisely. In the case of satellites at 
NOAA, this committee has cause for concern. In the early 
1990's, NOAA was in the midst of upgrading its geostationary 
satellites. Severe technical problems, cost over-runs, and 
schedule delays resulted in that project being $1.4 billion 
over budget and five years behind schedule. The results were 
almost catastrophic. When one of the old satellites failed soon 
after launch, the Nation was forced to rely on only one 
geostationary satellite for three years, when the minimum 
requirement for complete coverage is two satellites. The one 
remaining satellite faced a real danger of failure itself. Had 
the new satellite program been on schedule, it would have been 
available to replace the failed old satellite and prevent this 
coverage problem.
    Now NOAA is embarking on a new major polar satellite 
program, NPOESS. This joint program with the Department of 
Defense will merge and upgrade the polar-satellite systems of 
NOAA and DOD. NOAA should be given credit for learning from its 
experiences in the early '90's and applying these lessons to 
NPOESS. The new polar program incorporates risk reduction 
strategies and program management plans aimed at avoiding a 
similar coverage problem.
    However, the Administration's fiscal year 2004 budget 
request for NPOESS is less than agency planning documents had 
anticipated, and creates a potential 21-month gap in polar 
satellite coverage. Also, DOD may be withdrawing some of its 
financial support for NPOESS, although I hope not. That is 
critical, because funding is shared equally between DOD and 
NOAA. At the same time, there is concern about potential 
technical difficulties in satellite sensor development that 
could lead to cost increases in the program. These schedule 
delays and potential cost increases are eerily similar to the 
problems with the geostationary satellite program that led to 
degraded coverage in the early 1990's. We do not want to repeat 
those mistakes.
    Last year, this subcommittee held a hearing about issues 
with satellite data management at NOAA. We will continue to 
work with NOAA to ensure that the data from the new sensors on 
NPOESS will fully utilized.
    Finally, although I never like to beat up witnesses, I do 
want to express my extreme disappointment that the testimony 
from NOAA did not arrive until just before the hearing, despite 
our efforts to provide them with more than sufficient time to 
answer our questions. This is a consistent problem that NOAA 
must address. And also, I must say when getting testimony late, 
that does not hold well for getting satellites up on time.
    I look forward to hearing from our witnesses to learn more 
about budget considerations and systems development for the 
next generation of polar satellites at NOAA.
    [The prepared statement of Mr. Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Good afternoon and welcome to this afternoon's oversight hearing on 
satellite programs at the National Oceanic and Atmospheric 
Administration (NOAA). While this topic may seem highly technical, it 
is actually an issue with implications for our day-to-day lives, 
because NOAA satellites provide the Nation and the world with critical 
information that makes possible our weather and climate forecasting.
    While many of us may take for granted the impressive satellite 
images that appear on our TV or computer screens when we look at 
weather forecasts, we must remember that satellite systems that provide 
these images are highly complex and expensive. For example, NOAA's new 
polar-orbiting satellite system, known as NPOESS, will cost the Federal 
Government $6.5 billion by the time it is completed. This represents a 
tremendous investment for an agency whose annual discretionary budget 
is $3.3 billion. One year of NPOESS funding is more than NOAA spends 
annually on all of its ocean and atmospheric research activities 
combined.
    One role of Congress is to insure that government investments are 
being used wisely. In the case of satellites at NOAA, this committee 
has cause for concern. In the early 1990's NOAA was in the midst of 
upgrading its geostationary satellites. Severe technical problems, cost 
overruns, and schedule delays resulted in that project being $1.4 
billion over budget and five years behind schedule. The results were 
almost catastrophic. When one of the old satellites failed soon after 
launch, the Nation was forced to rely on only one geostationary 
satellite for three years, when the minimum requirement for complete 
coverage is two satellites. The one remaining satellite faced a real 
danger of failure itself. Had the new satellite program been on 
schedule, it would have been available to replace the failed old 
satellite and prevent this coverage problem.
    Now NOAA is embarking on a new major polar satellite program, 
NPOESS. This joint program with the Department of Defense (DOD) will 
merge and upgrade the polar-satellite systems of NOAA and DOD. NOAA 
should be given credit for learning from its experiences in the early 
90's and applying those lessons to NPOESS. The new polar program 
incorporates risk reduction strategies and program management plans 
aimed at avoiding a similar coverage problem. However, the 
Administration's FY04 budget request for NPOESS is less than agency 
planning documents had anticipated, and creates a potential 21-month 
gap in polar satellite coverage. Also, DOD may be withdrawing some of 
its financial support for NPOESS, which is critical because funding is 
shared equally between DOD and NOAA. At the same time, there is concern 
about potential technical difficulties in satellite sensor development 
that could lead to cost increases in the program. These schedule delays 
and potential cost increases are eerily similar to the problems with 
the geostationary satellite program that led to degraded coverage in 
the early 1990's. We do not want to repeat those mistakes.
    Finally, last year this subcommittee held a hearing about issues 
with satellite data management at NOAA. We will continue to work with 
NOAA to ensure that the data from the new sensors on NPOESS will be 
fully utilized.
    Finally, I would like to express my extreme disappointment that the 
testimony from NOAA did not arrive until just before the hearing, 
despite our efforts to provide them with more than sufficient time to 
answer our questions. This is a consistent problem that NOAA must 
address.
    I look forward to hearing from our witnesses to learn more about 
budget considerations and systems development for the next-generation 
of polar satellites at NOAA.

    Chairman Ehlers. I now recognize Mr. Udall, a Member from 
Colorado, who is the Ranking Minority Member on the 
Environment, Technology and Standards Subcommittee, for his 
opening statement.
    Mr. Udall. Good afternoon. Thank you, Mr. Chairman, for 
convening this hearing on NOAA's satellite program. And I also 
welcome the panel. And I know a number of you have connections 
to Colorado, particularly Mr. Teets. It is nice to see you 
here.
    Since the 1960's, we have relied upon satellites to gather 
global environmental information. We rely upon this information 
to make three to five day forecasts, to track severe storms, 
and to learn more about the Earth's environment. Our satellite 
systems have worked so well that we rarely consider the 
possible impacts of a break in a flow of this information, as 
the Chairman mentioned in the case of one of our colleagues.
    A break in the flow would mean we would be without the 
primary data sources for our numerical weather prediction 
models. Our ability to make accurate forecasts would be 
impaired. And we would have diminished capacity to track the 
progress of severe storms.
    We are now approaching the end of the current satellite 
series life span. In anticipation of this, in 1994, the 
Congress initiated the National Polar-orbiting Operational 
Environmental Satellite System, or NPOESS. For the first time, 
the decision was made to integrate the satellite programs of 
NOAA and the Department of Defense into a single satellite 
system to save money and, of course, improve efficiency. Past 
experience has taught that new projects of this magnitude will 
encounter technical difficulties and that schedules will be 
adjusted to accommodate unforeseen problems. This is beginning 
to happen in the NPOESS program.
    I want to learn what steps NOAA and DOD have taken to 
consider the risks associated with this program and to address 
them. A few years from now, we do not want to find ourselves 
singing the line from that old song, ``You don't know what you 
have got until it is gone.'' A break in the continuity of 
information from the satellite programs is not acceptable. We 
must do all we can to anticipate and identify problems to deal 
with them in a manner that will ensure that the information 
needs of NOAA and DOD will continue to be met in a reliable 
fashion.
    As the Chairman mentioned, the funding levels for this 
program have changed from what was originally planned. As a 
result, the schedule for launching the first satellite has been 
extended by 21 months. I am anxious to hear what plans the 
Joint Program Office has made to ensure that we keep this 
program adequately funded and on track.
    I appreciate the willingness of our witnesses to 
participate this afternoon, and I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good afternoon. Thank you, Mr. Chairman, for convening this hearing 
on NOAA's satellite program.
    Since the 1960s we have relied upon satellites to gather global 
environmental information. We rely upon this information to make three-
to-five day forecasts, to track severe storms, and to learn more about 
the Earth's environment.
    Our satellite systems have worked so well that we rarely stop to 
consider the possible impacts of a break in the flow of this 
information. A break in the flow would mean we would be without the 
primary data sources for our numerical weather prediction models. Our 
ability to make accurate forecasts would be impaired, and we would have 
diminished capacity to track the progress of severe storms.
    We are now approaching the end of the current satellite series 
lifespan. In anticipation of this, in 1994 Congress initiated the 
National Polar-orbiting Operational Environmental Satellite System, or 
NPOESS, program. For the first time, the decision was made to integrate 
the satellite programs of NOAA and the Department of Defense into a 
single satellite system to save money and improve efficiency.
    Past experience has taught us that new projects of this magnitude 
will encounter technical difficulties and that schedules will be 
adjusted to accommodate unforeseen problems. This is beginning to 
happen in the NPOESS program. I want to learn what steps NOAA and DOD 
have taken to consider the risks associated with this program and to 
address them.
    A few years from now we do not want to find ourselves singing the 
line from that old song: ``You don't know what you've got 'til it's 
gone.'' A break in the continuity of information from the satellite 
programs is not acceptable. We must do all we can to anticipate and 
identify problems and to deal with them in a manner that will ensure 
that the information needs of NOAA and DOD will continue to be met in a 
reliable fashion.
    The funding levels for this program have changed from what was 
originally planned. As a result, the schedule for launching the first 
satellite has been extended by 21 months. I am anxious to hear what 
plans the Joint Program Office has made to ensure that we keep this 
program adequately funded and on track. I appreciate the willingness of 
our witnesses to participate this afternoon and I look forward to their 
testimony.

    Chairman Ehlers. If there is no objection, all additional 
opening statements submitted by the Subcommittee Members will 
be added to the record. Without objection, so ordered.
    [The prepared statement of Mr. Smith of Michigan follows:]

            Prepared Statement of Representative Nick Smith

    I'd like to thank Chairman Ehlers for holding this hearing today to 
examine the progress that has been made in building the new National 
Polar-orbiting Operational Environmental Satellite, Data, and 
Information System (NPOESS).
    The National Oceanic Atmospheric Administration's (NOAA) existing 
polar-orbiting satellite system is crucial for a number of American 
industries including agriculture, construction, energy distribution, 
and outdoor recreation. It is estimated that our existing accuracy 
predicting weather saves $3 billion every hurricane season by reducing 
fatalities and limiting property damage by being prepared. Overall, 
polar-orbiting satellite systems create a net economic benefit of $8.8 
billion per year.
    NPOESS will consolidate the satellite capabilities of NOAA's 
current system with what is now a separate Department of Defense (DOD) 
system. This will result in an annual savings of $1.8 billion. Still, 
developing the satellite will be expensive. A recent GAO report 
estimates that the total cost will be close to $7 billion, up from an 
initial estimate of $6.4 billion. In addition, at the current rate of 
funding, NPOESS will not be completed until 21 months after the 
original target date. As a result, we could be without crucial polar-
orbiting satellite data for a significant period of time.
    This is not entirely surprising, considering that NOAA's last major 
satellite upgrade ended up $1.4 billion over budget and five years 
behind schedule. Unforeseen technical difficulties stemming from the 
incorporation of untested technologies into the new satellite system 
were largely to blame for this during the last upgrade, and it is my 
understanding that we are doing the same thing this time around. In the 
interest of conserving tax dollars as well as insuring the continuous 
availability of vital weather-related information, I would like to see 
some of the supposed technology enhancements dropped from the current 
design plan. At the very least, we should consider the need for 
additional satellites with the existing design to allow development of 
NPOESS to proceed under a more reasonable timeframe.
    I thank all of you for coming here today to address the concerns 
that I and many of my colleagues have regarding NPOESS. I hope that we 
can have an open discussion about the direction of this project and 
look forward to working with you to insure that American tax dollars 
are spent in a responsible manner.

8 New Technologies Incorporated into NPOESS

Advanced technology microwave sounder: Will measure microwave energy 
        released and scattered by the atmosphere. Used with infrared 
        sounding data to produce daily global atmospheric temperature, 
        humidity, and pressure profiles.

Aerosol polarimetry sensor: Retrieves specific aerosol (precipitation, 
        sea spray, smog, and smoke) and cloud measures.

Conical microwave imager/sounder: Collects microwave images and data 
        needed to measure rain rate, ocean surface wind speed and 
        direction, amount of water in the clouds, soil moisture, as 
        well as temperature and humidity at different atmospheric 
        levels.

Cross-track infrared sounder: Collects measurements of the Earth's 
        radiation to determine the vertical distribution of 
        temperature, moisture, and pressure in the atmosphere.

Global positioning system occultation sensor: Measures the refraction 
        of radio wave signals from the GPS and Russia's Global 
        Navigation Satellite System to characterize the ionosphere.

Ozone mapper/profiler suite: Collects data needed to measure the amount 
        and distribution of ozone in the Earth's atmosphere.

Space environmental sensor suite: Collects data to identify, reduce, 
        and predict the effects of space weather on technological 
        systems, including satellites and radio links.

Visible/infrared imager radiometer suite: Collects images and radio 
        metric data used to provide information on the Earth's clouds, 
        atmosphere, ocean, and land surfaces.

    Chairman Ehlers. At this time, it is my pleasure to 
introduce an outstanding panel of witnesses. Mr. Gregory Withee 
is the Assistant Administrator for National Environmental 
Data--Satellite Data and Information Service within the 
National Oceanic and Atmospheric Administration, more commonly 
known by its acronym, NOAA. Mr. Peter Teets is the Under 
Secretary of the Air Force and also serves as the Department of 
Defense Executive Agent for Space. It is a very impressive 
title. Does that include the entire cosmos, Mr. Teets? Mr. 
David Powner is the Acting Director for Information Technology 
Management Issues at the General Accounting Office. Mr. Wes 
Bush is President of Northrop Grumman Space Technology. And Dr. 
Ronald McPherson is the Executive Director of the American 
Meteorological Society, which incidentally does an outstanding 
job of teaching teachers about meteorology and gets that spread 
through the classroom. And we should acknowledge that success.
    I assume our witnesses know that spoken testimony is 
limited to five minutes each. And we have the lighting system 
here--there. The green means you are within the first four 
minutes. Yellow means you are in the last minute. Red means 
that your life is in danger. So we encourage you to try to--
regardless of how lengthy or how good your written testimony 
is, we encourage you to try to give your spoken testimony 
within five minutes. Now after you complete your testimony, 
each Member of the Committee who is present will have five 
minutes to ask questions of you.
    We will start with Mr. Withee.

STATEMENT OF MR. GREGORY W. WITHEE, ASSISTANT ADMINISTRATOR FOR 
NATIONAL ENVIRONMENTAL SATELLITE DATA AND INFORMATION SERVICE, 
        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Withee. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, as Director 
of the Nation's civil operational environmental satellite 
program, which resides in NOAA, I am pleased to have the 
opportunity to testify before you today on NOAA's future 
satellite programs. Vice Admiral Conrad Lautenbacher, the 
Administrator of NOAA, is out of town today, but asked me to 
relay his strong support to this important topic regarding 
NOAA's satellite programs.
    I am also pleased to be joined by our colleagues on the 
panel. I would like to mention that NASA also plays an integral 
role in our efforts by providing important demonstrations of 
breakthrough technology and associated science and 
technological improvements.
    The Nation is already accruing substantial benefits from 
NOAA's satellite systems in terms of saving life, property, and 
environmental monitoring, and we anticipate our future systems 
will add to these benefits.
    I am pleased to report that the health of NOAA's civil 
operational environmental satellite systems is excellent. We 
are past the halfway point in our successful GOES I-M satellite 
series. And just last week, we finished negotiations that will 
ensure the first launch of the next GOES series, which we call 
-N through -P, in mid-2004. GOES is the sentinel on watch for 
severe weather for the United States, and because of that, a 
gap in coverage would be unthinkable. With the hurricanes upon 
us and Hurricane Claudette brewing in the Gulf of Mexico, I am 
sure the Subcommittee appreciates the importance of GOES 
satellites.
    To that end, I am happy to report that NOAA is already 
working on a future GOES system called GOES-R to be launched in 
2012. GOES-R will continue high-resolution weather coverage of 
the United States with improvements for our coastal services 
and climate programs, all accomplished within the cost per 
satellite year we have experienced for GOES I-M.
    Our polar satellites, POES, are also performing well. 
Currently, we have an operational satellite in the morning and 
afternoon orbit. We anticipate launch of NOAA-N in 2004 and 
NOAA N-Prime in March 2008 and the first NPOESS satellite to be 
ready for launch in late 2009. The first METOP satellite, a 
partnership between NOAA and an organization in Europe called 
EUMETSAT, will launch in 2005 and will save the U.S. taxpayer 
over half a billion dollars.
    Over the 40 years in the satellite business with 
unanticipated failures and delays in GOES, which you mentioned, 
Mr. Chairman, POES, and DMSP, strategic long-range planning is 
the key to delivering uninterrupted satellite data to our 
users. The planning of our future satellite series GOES-R and 
NPOESS is based on past experience and the most up-to-date 
information available. We have solid, rigorous planning and 
risk-reduction programs, which include the end-to-end NPOESS 
Preparatory Project, we call that NPP, mission with NASA and 
associated product generation, distribution, archive, and 
access.
    I am aware that the Subcommittee is interested in the 21-
month gap between POES and NPOESS and the potential impacts to 
weather forecasting if N-Prime fails. In the event N-Prime is 
lost to the launch of NPOESS, NOAA would rely on the only 
available satellite at the time, which would be, we hope, the 
European METOP satellite, which is in the morning orbit, as the 
sole available operational satellite that could meet NOAA's 
operational satellite data requirements. Of course, NOAA would 
continue to assess the capability of any orbiting spacecraft at 
the time and use the best available data, if possible.
    The Department of Defense, Commerce, and NASA have jointly 
invested over $1 billion toward the development of the NPOESS 
sensors and spacecraft. Each of the center's suites were very 
carefully developed by the NPOESS program to satisfy validated 
requirements for all of the partners and users. At this point, 
there would be no cost savings to be realized by reducing the 
number of sensors without adversely affecting the quality and 
timeliness of data to the user, and I note, would also cause 
costly delays in satellite redesign. With already reduced 
budget profiles, the NPOESS program has attempted to preserve 
key sensor risk reduction activities, such as NPP, as close to 
the original plan as possible while moving the NPOESS launch 
stage further into the future. Among the NPOESS partners, we at 
NOAA have started to address the challenges of data utilization 
and data access and archive to ensure that the data are used 
operationally on the first day of availability.
    In conclusion, NOAA joins our partners today to reiterate 
our full commitment to NPOESS and GOES-R. We are excited about 
developing these cost-effective satellites to meet validated 
user requirements for environmental data. And we anticipate 
substantial benefits to the Nation from these investments.
    I see I am out of time, so I want to apologize on behalf of 
NOAA for getting the testimony in late, but hope that you think 
that the testimony before you and my oral remarks are useful. 
And thank you, Mr. Chairman, for this opportunity to testify on 
this extremely important matter. I would be happy to take 
questions.
    [The prepared statement of Mr. Withee follows:]

                Prepared Statement of Gregory W. Withee

    Thank you, Mr. Chairman and Members of the Committee, for the 
opportunity to testify before you regarding National Oceanic and 
Atmospheric Administration's (NOAA) satellite, data and information 
services. Vice Admiral Conrad C. Lautenbacher is unable to attend this 
hearing today due to prior commitments. I am Gregory Withee, Assistant 
Administrator for NOAA's Satellite and Information Services and am 
responsible for end-to-end management of NOAA's satellite, data and 
information programs.
    NOAA's satellite program is well on its way to addressing the 
exciting challenge of incorporating new technologies to improve the 
capabilities of our operational satellite systems to better serve the 
American people. My testimony today will review the steps we are taking 
and the lessons learned over the past 43 years as the Nation's 
operational civil space agency. It will lay out our plans for satellite 
data continuity as we move to the first National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) spacecraft, the 
follow-on to the NOAA Polar-orbiting Operational Environmental 
Satellite (POES). The first NPOESS satellite (C-1) will be available 
for launch in 2009 and will continue our polar satellite data series, 
as well as provide important continuity for select National Aeronautics 
and Space Administration (NASA) research missions and climate 
activities. I will also address our plans for the next series of 
Geostationary Operational Environmental Satellites (GOES)--GOES-R--with 
a planned launch date of 2012.
    While these dates seem very far in the future, our experience 
developing, launching and operating environmental satellites dictates 
that early planning, accompanied by rigorous risk-reduction activities, 
is essential. Equally important is the thorough preparation of the end-
user to accept, use and benefit from the full economic and scientific 
value of these data streams, and the establishment of a comprehensive 
scientific data stewardship program that includes long-term access and 
archive infrastructure.
    This subcommittee has been a strong advocate of our programs, and 
we look forward to continuing the dialogue to keep you informed of our 
progress.

NOAA's Satellite, Data and Information Program

    Since the 1960s, when the United States launched its first civil 
polar-orbiting weather satellite (1960) and its first civil 
geostationary weather satellite (1966), the importance of data from 
these satellite systems has grown far beyond any planning assumptions 
made during their conception in the 1950's. Today, NOAA's satellites 
support all of NOAA's critical missions; numerous civil and military 
activities within Federal, State and local government agencies; 
academic endeavors; the private sector activities; the public; and 
international communities. NOAA's satellites are critical for all 
sectors of the U.S. economy, and are now considered environmental 
versus just weather satellites.
    NOAA's mandate is to provide to its customers and users--without 
interruption--satellite data from its geostationary and polar-orbiting 
systems. As we move to the next generation of satellites, our 
operational mission requires that GOES-R and NPOESS are available to 
ensure continuous global satellite coverage essential to ensure the 
health and safety of our citizens. Additionally, these satellites 
provide data critical to unlocking the secrets of nature which are 
fundamental to our ability to reduce the uncertainties in important 
environmentally related decisions associated with long-term forecasts 
and global climate change.
    NOAA's policy implements this mandate through a carefully planned 
and balanced requirements-based acquisition strategy which is detailed 
in the annual President's Budget Request. These budget requests include 
the annual funding required to enable NOAA to manage the technology and 
schedule risk inherent in these challenging satellite programs.

Requirements-based Mission Planning

    NOAA uses a formal satellite requirements management process to 
identify, collect and assess validated environmental satellite 
observation requirements and allocate these requirements to specific 
observational systems. These requirements include satellite-based 
observations of all regions of the Earth's atmosphere; the Earth's 
oceans, coasts, and inland waters; observations of the Earth's land 
masses, including the mapping of high-resolution geospatial 
characteristics; and observations of the sun and near-Earth space 
environment.
    This process provides important input into budget, planning, and 
management systems, and allows tracking of requirements from agency 
missions through to system allocations. As such, this process and its 
requirements documents represent the balance achieved among user needs, 
system technical capabilities and program affordability constraints. 
The credibility of the requirements process lies in the ability of this 
planning document to fulfill user needs within cost and schedule. This 
process has been used to develop the instrument and sensor suite on the 
GOES-R and NPOESS satellites.
    The GOES-R Program Requirements Document (PRD) represents twelve 
agencies/groups needs from the U.S. civil, U.S. military, European and 
climate communities. The specific segment level documents to address 
all specifications for the end-to-end GOES-R system will be generated 
from the PRD.
    For NPOESS, the Department of Defense (DOD) requirements process 
was used by the partner agencies (NOAA, DOD, and NASA) to develop an 
Integrated Operational Requirements Document (IORD). All three agencies 
worked with their user and customers throughout the Federal, State and 
local governments, academia, and industry to develop inputs into the 
mission and sensor performance requirements. The original IORD was 
approved by all agencies in 1996 and updated in December 2001. All 
sensors are traceable to specific requirement for one or all of the 
partner agencies. In many cases, a single sensor is required to meet 
different but equally important requirements of all three agencies and 
their customers and users.

Scientific Data Stewardship of NOAA's Archives

    The concept of end-to-end management starts with the requirements 
process and ends with the access and archive of these data. NOAA 
continues to keep its data access and archive facilities at its NOAA 
National Data Center current with the latest technology to facilitate 
user access to its archived data.

NOAA Satellites and Information FY 2004 President's Budget Request

    All aspects of the $837.5 million in the FY 2004 President's Budget 
Request have been carefully developed to ensure continuation of our 
existing operational programs, allow seamless transition to future 
satellite and data management activities, and satellite data 
continuity. Our partners--NASA and DOD--have worked with us to help 
manage the risk, schedule and funding estimates required to support the 
activities necessary to develop and launch the satellites and build the 
ground systems needed to maintain data continuity. The FY 2004 budget 
request will allow us to continue essential activities in support of 
GOES, POES, NPOESS, critical support for command and control of the 
spacecraft, product processing and distribution, and data management 
including access and archive functions.

NOAA Geostationary Program

    The FY 2004 President's Budget Request includes $277.55 million 
NOAA's GOES program. Of that amount, $0.6 million to support GOES I-M 
activities; $172.23 million to continue development of GOES N series 
satellites and ground systems; and $104.7 million to support GOES-R 
preliminary design and risk reduction activities.
    NOAA is responsible for the end-to-end aspects of the GOES program. 
NOAA's constellation of two operational GOES satellites and one on-
orbit spare now provide continuous coverage of the Western Hemisphere, 
seeing as far east as the western tip of Africa and as far west as the 
eastern tip of New Guinea. These geostationary sentinels provide 
critical data to weather forecasters, and detect and track severe 
weather, such as tornadoes, hurricanes, flash floods, blizzards and 
other hazards (to include volcanic ash plumes and wildland fires). In 
addition, GOES data collection system (GOES DCS) platforms provide 
communication data relay capabilities for scientific surface platforms 
such as automated observing stations, ocean buoys, stream gauges, tide 
gauges, and rain gauges. The system relays environmental information 
such as river flooding, snow melt, ocean temperature, and wind 
measurements to forecasters and emergency managers. GOES also monitors 
space weather events such as radiation and geomagnetic storms though 
the Space Environment Monitoring sensors.
    NOAA has a requirement to maintain two operational GOES satellites, 
one at 75 degrees West longitude (GOES-East) and another at 135 degrees 
West longitude (GOES-West). In order to ensure that a two GOES 
constellation is continuously available, an on-orbit stored spare is 
required. NOAA launches a replacement satellite once the on-orbit spare 
is placed into operation. NOAA also requires that a satellite be ready 
for launch within a year of the previous satellite launch to back-up a 
launch failure. The placement of the operational satellites ensures 
continuous satellite coverage of U.S. interests on the East Coast, its 
territories in the Caribbean Basin and continental U.S., and West 
Coast, Hawaii, and U.S. territories in the Pacific.
    This constellation is based on over 40 years of experience and our 
understanding of satellite and launch performance and incorporates the 
lessons learned from past future development.
    First, launch of the satellite is the most vulnerable part of the 
entire mission from production to operational use. NOAA maintains an 
on-orbit spare, so it can recover quickly from a launch failure. This 
approach allows NOAA to replan another launch campaign, thus avoiding 
an extended outage in our on-orbit two operational satellite 
constellation. This was not possible when GOES failed on launch in 
1986, resulting in one-satellite geostationary coverage for many years.
    Second, having an on-orbit spare allows rapid replacement on 
failure of an operational satellite and ensures ``no loss'' of coverage 
or data for users in the event of a failure of one of the GOES 
operational satellites. By activation of the on-orbit spare, NOAA can 
restore full instrument operations and data within 7 days of failure of 
the previous satellite, and provide continuous data during the 
approximately 30-45 days it takes to move the spacecraft from the 
storage location to the operational location, as either GOES-East or 
GOES-West. Key users--NOAA's National Weather Service, Department of 
Defense, Federal Emergency Management Agency/Department of Homeland 
Security, State and local emergency managers, Federal Aviation 
Administration--demand uninterrupted access to satellite data to 
support their mission-critical activities.
    Third, NOAA can perform systematic on-orbit post-launch testing of 
the spacecraft and instruments to ensure that instruments are 
performing according to specifications and will meet customer and user 
requirements. This on-orbit testing is a more complete evaluation of 
performance than is achievable on the ground. The approach of 
systematic on-orbit testing prior to putting a satellite into on-orbit 
storage also allows a more thorough investigation of, and if necessary, 
appropriate corrective action of anomalies without the pressures of 
meeting an operations schedule. A prime example of NOAA's recovering of 
potentially failed assets was GOES-10 and its failed solar-array drive 
in the forward direction. Creative engineering solutions allowed GOES-
10 to become our operational West satellite in July 1998 which 
continues to the present.
    Finally, having an on-orbit space can avoid launch pad conflicts. 
Due to limited launch facilities and NOAA's use of commercial launch 
services, if NOAA were to experience a failure during launch, it would 
take 12-18 months for the earliest possible launch of a replacement 
satellite because of existing commercial launch pad schedules. 
Commercial launch schedules maintain a rolling firm launch manifest of 
12-18 months into the future. By Congressional directive, commercial 
launch services for NOAA programs require a rigorous process before 
NOAA could ``bump'' another commercial customer off the manifest. 
NOAA's launch policy avoids having to address this situation. Only 
under a multiple failure scenario would NOAA ever consider bumping 
another customer.

The GOES I-M Experience

    In 1983, a decision was made to competitively procure follow-on 
satellites (GOES I-M) in the GOES program. Incremental changes to 
requirements were deemed achievable, with the only major advancement 
being a new requirement for full-time atmospheric sounding to monitor 
evolving temperature and moisture structure of the atmosphere to meet 
validated NOAA's National Weather Service requirements. This new 
requirement drove a design change in the basic spacecraft platform 
requiring full time Earth pointing versus the previous spin stabilized 
platform design. The satellite contract called for a launch 
availability in 1989. This need date was originally anticipated to 
protect against a GOES-G or GOES-H launch failure.
    The new technology had no risk reduction program associated with it 
on the basis that instruments of this type had been flown in polar 
orbit, making the transition to geostationary orbit reasonably 
straightforward. It also assumed that the body stabilized technology 
had been proven sufficiently on geostationary commercial communication 
satellites.
    The instrument and spacecraft development were found to be much 
more technically complex than originally thought, once the design was 
finalized. Changes in thermal characteristics between the polar and the 
geostationary orbit were not fully understood, and the original design 
for the instruments was found, in tests, not to work. On the 
spacecraft, stabilization for meteorological instruments was far more 
challenging than for a commercial communications platform. These 
problems led to almost five additional years of design effort and a 
billion dollar overrun.
    Since GOES I-M Series had no end-to-end system architecture, no 
risk reduction was planned for algorithm development and data 
assimilation into numerical models. Therefore, the forecasters had no 
advance data, prior to launch, with which to learn and train and NOAA's 
National Weather Service required the better part of a year to make the 
image data operational, and almost four years to make the sounder data 
operational in forecast offices.
    With the failure of one on-orbit GOES and a failure in 1986, by 
1989 (the intended launch date of GOES-I), only one GOES satellite 
separated the United States from being completely unable to provide 
high temporal resolution monitoring of hurricanes at an early stage, 
monitor severe weather wherever it occurred, and miss important 
sounding information for short-term weather forecasts and warnings. 
This situation continued until GOES-I was launched in 1994.

GOES-R Planning

    In response to validated user requirements for improved 
geostationary spatial and temporal observations, NOAA has started 
planning activities for the GOES-R series which is anticipated to 
launch its first satellite by 2012. History and experience have shown 
that it takes 10 years to develop a new satellite series. NOAA and our 
partner NASA have learned that environmental sensors for geostationary 
orbit are difficult to develop and build, and need the full 10 years 
for development, even with the excellent research provided through NASA 
or DOD. The GOES I-M and GOES-N series instrument technologies were 
first developed in the 1970's/80's. While they have served the Nation 
well, our customers' and users' validated requirements for data are 
beyond the capability that these heritage instruments can provide.
    NOAA has incorporated the experiences of GOES I-M into GOES-R 
planning with the inclusion of rigorous and comprehensive concept, 
design, and risk reduction phases which includes an end-to-end system 
with its associated product generation, distribution, and archive and 
access. GOES-R is scheduled for readiness to back up the development of 
the last GOES-N series launch in 2012.
    GOES-R will, for the first time, offer further benefits for other 
observations such as coastal and lightning data, provide improvements 
in spectral coverage (number of instrument channels), temporal coverage 
(how fast the satellite scans the Earth), spatial resolution (how sharp 
the images are horizontally for images and vertically for temperature 
and moisture profiles), and radiometric accuracy (how true are the 
temperatures measured). These improvements translate to product 
improvements such as three-hour temperature forecasts (25 percent 
accuracy improvement) and Atmospheric Instability forecasts (90 percent 
improvement in two-hour ahead Convective Weather watch area) which in 
turn are important to utility, transportation, agriculture, recreation, 
and other industries, and are vital to protecting lives and property in 
the event of severe weather. Preliminary estimates place the 
incremental benefits of the improvements from the GOES-R series of 
satellites at more than $4 billion over the life of the program. These 
benefits are in addition to the baseline benefits that the current GOES 
satellites provide.
    In order to ensure a smooth transition from the GOES-N to the GOES-
R series, NOAA needs to have all phases of a sound acquisition 
development in place: Phase A (Concept Definition); Phase B (Design and 
Risk Reduction); Phase C/D (System Production/Implementation). In the 
case of GOES I-M, the Phases A and B efforts were omitted. The result 
of skipping these key functions resulted in a five-year slip in the 
program with significant cost overruns.
    To address alternative approaches to end-to-end solutions for GOES-
R, NOAA is releasing to industry a Broad Agency Announcement to look at 
technology advancements in the following four areas: spacecraft; 
command, control, and communications; product generation, distribution, 
archive and access; and end-to-end systems integration. This will 
afford NOAA the opportunity to dialogue with industry to entertain 
their best and brightest ideas to minimize risk during GOES-R 
development.
    Full funding of the FY 2004 GOES-R budget request of $104.7 million 
is needed to continue these activities and strengthen the overall risk 
reduction program to ensure that NOAA is developing the most 
appropriate system to meet our operational requirements and program 
funding constraints, and that NOAA will have retired sufficient risk to 
ensure that the GOES-R system is delivered on time to support the 
continuity of the essential GOES mission.

NOAA's Polar-orbiting Satellite Program

    The FY 2004 President's Budget Request includes $391.1 million 
NOAA's polar-orbiting satellite program. Of that amount, $114.4 million 
is requested for POES satellites (NOAA K-N' series) and ground systems; 
and $276.7 million for NOAA's portion of NPOESS.
a) Polar-orbiting Operational Environmental Satellites (POES)
    The POES mission is to provide an uninterrupted flow of global 
environmental information in support of operational requirements. The 
POES mission is comprised of two satellites, one in a morning orbit, 
and one in an afternoon orbit, to collect global environmental data, 
including the 3-D measurement of multiple parameters, which are 
critical for accurate forecasts beyond three days. In addition, they 
are important for establishing long-term global data sets for climate 
(stratospheric ozone, oceanic, vegetation, global warming) monitoring, 
change detection, and prediction. Data sparse areas such as the world's 
oceans are also observed primarily by NOAA POES. Like GOES, POES data 
collection platforms provide services such as search and rescue, and 
relay of tide, buoy, flood, and tsunami data from global and remote 
locations. POES sensors also make observations that support timely 
forecast of space weather events.
    NOAA has established a POES program policy that a spacecraft and 
launch vehicle be available on or before the date of the launch of the 
preceding spacecraft. This helps protect against coverage gaps caused 
by a launch failure, early on-orbit failure of the satellite after 
launch, and sets a need-date for the next satellite to be produced.
    In the scenario of NOAA N' failure and lack of access to timely 
backup, DOD, research, and international satellite data, significant 
impact to protection of life and property and climate monitoring 
services are possible. Potential impacts include degradation of hazard 
monitoring such as volcanoes, especially at high latitudes; breaks in 
the climate record which degrade the long-term climate record; loss of 
the ability to generate ozone and ultraviolet (UV) analyzes and 
forecasts used for public heath; and decreased forecast accuracy in 
global models, estimated to be 1-4 percent in Northern Hemisphere and 
3-25 percent in the Southern Hemisphere.
    The annual President's Budget Request is based on the anticipated 
need-date of the satellites. However, depending on launch success, and 
operational satellite life, these need dates may shift. Nominally, the 
time between call-up and the actual replacement of a POES is 180 days.
    The normal replacement of a POES takes place whenever the flow of 
operational scientific and related instrument engineering data from 
designated critical satellite instruments is either interrupted or 
degraded significantly. In practice, any decision to launch a 
replacement satellite requires the consideration of several additional 
factors, such as: availability of older POES spacecraft in the orbit 
with functioning instrument(s) that can provide data continuity on an 
interim basis; operational condition of in-orbit NOAA POES spacecraft, 
in particular are other spacecraft or instruments displaying 
indications of early failure; availability of launch vehicles and 
spacecraft-to-launch vehicle integration facilities; the possibility of 
conflicts in access to launch pads and launch support facilities; the 
possibility of conflicts in availability of skilled personnel for 
launch preparations and other critical activities; ability of the 
ground system to support the launch, operations, and data processing 
and distribution for the replacement satellite.

b. National Polar-orbiting Operational Environmental Satellite System 
        (NPOESS)
    In May 1994, the President directed the convergence of the 
Department of Commerce/NOAA POES program and DOD's Defense 
Meteorological Satellite Program (DMSP). These two programs have joined 
to become the NPOESS which will satisfy both civil and national 
security operational requirements. In addition, NASA, through its Earth 
Observing System (EOS) efforts, offers new remote-sensing and 
spacecraft technologies that are being incorporated to improve the 
capabilities of the NPOESS.
    The tri-agency NPOESS Integrated Program Office (IPO) and NPOESS 
contractor has established a design and production schedule to derive 
the maximum benefit from the risk-reduction missions of the NPOESS 
Preparatory Project (NPP) and the Windsat/Coriolis mission for critical 
risk reduction for the NPOESS C-1 satellite. The schedule will also 
provide a bridge between the transition from NOAA POES and DOD DMSP 
satellites, while providing continuity of select NASA EOS missions.

NPOESS FY 2004 Budget Request

    The FY 2004 President's Budget Request for NPOESS is $544.4 
million, of which DOC/NOAA's portion is $276.7 million, and DOD's 
portion is $267.7 million. This will support continued development of 
NPOESS, including the risk reduction missions, Windsat/Coriolis and 
NPP.
    In the letter of invitation to testify at this hearing, the 
Subcommittee asked for a response to the $70 million reduction from the 
funding requirements included in the FY 2003 estimates. The FY 2004 
President's Budget Request reflects the Administration's program needs 
for continued development of the NPOESS Program. IPO has directed the 
NPOESS contractor to conduct a replan, which resulted in deferred 
procurement of sensors and non-recurring engineering for NPP and the 
NPOESS satellites. Adjustments to the satellite launch schedule are 
reflected in the President's Budget Request.
    Full funding of the total DOC and DOD NPOESS FY 2004 President's 
Budget Request is imperative to keep the program on its revised 
schedule.

NPOESS Risk Reduction Missions

    The WindSat/Coriolis satellite, which was launched on January 6, 
2003, is serving as risk reduction for the NPOESS Conical Scanning 
Microwave Imager/Sounder (CMIS). CMIS will measure ocean surface wind 
direction from space using polarimetic passive microwave technology, 
which requires a sensor with the capability to sense passive microwave 
emissions that are on the order of one-tenth as strong as the signals 
used by presently operational passive microwave sensors. This has not 
been done before from space and constitutes the highest technical risk 
associated with NPOESS.
    The NPP satellite scheduled for launch in October 2006 will 
significantly reduce NPOESS program risks by demonstrating on-orbit 
sensor functionality and allowing scientists to develop NPOESS 
algorithms using data collected by actual sensors on-orbit instead of 
having to approximate data through synthetic generation as is usually 
done for new sensors. History demonstrates that the risk associated 
with advances in algorithm developments is dominated by how accurately 
the data used to develop the algorithms resemble the data that will be 
collected by the sensor on-orbit. This rationale applies to the 
following NPOESS sensors and their associated algorithms.

        <bullet> Cross Track Infrared Sounder--3 environmental data 
        records (EDR)

        <bullet> Visible/Infrared Radiometer Suite--23 EDR

        <bullet> Advanced Technology Microwave Sounder--3 EDR

        <bullet> Ozone Mapping and Profiling Suite--1 EDR

    NPP will also demonstrate proper functioning of the NPOESS Command 
and Control System.

Transition Between POES and NPOESS Satellites

    The Subcommittee's letter of invitation also expressed interest in 
the transition between POES and NPOESS, specifically an estimated 21-
month gap between the launch of NOAA N' and the availability of NPOESS 
C-1.
    As a polar-orbiting satellite program, the NPOESS satellite 
availability strategy is similar to that noted earlier for NOAA POES 
with the additional constraints of required overlap with NPP for cross 
calibration and meeting the DOD early morning spacecraft requirement. 
Under the IORD, the first NPOESS satellite (C-1) is required to back up 
NOAA N' (the last of the NOAA POES series) or DMSP F20. While the 
replan has delayed the availability of the first NPOESS satellite by as 
much as 21 months, there is no projected gap in coverage, as long as 
the NOAA N and N' satellites are successfully launched, and are meeting 
operational lifetimes.
    NOAA continues to monitor the status of the instruments on its 
operational POES to maximize the capability of those spacecraft. Our 
transition planning calls for the launch of the NOAA N (June 2004) and 
NOAA N ' (March 2008) into the afternoon orbit and the use of the 
European Organization for the Exploitation of Meteorological Satellites 
(EUMETSAT) METOP polar satellite to fill the morning orbit requirement.
    With respect to the Subcommittee's interest in contingency planning 
in the event of the failure of NOAA N', NOAA is working closely with 
EUMETSAT to ensure launch of the first METOP satellite in 2005 which 
will assume the morning orbit responsibilities. In the event there is a 
loss of NOAA N' prior to the launch of NPOESS C-1, NOAA would rely on 
the METOP satellite in the morning orbit.
    For the afternoon orbits, NOAA would reassess the capability of 
older spacecraft that have been taken out of operational service and 
use the best available data. NOAA would also assess the utility of all 
available satellite data from DOD's DMSP, NASA EOS satellites, NPP 
missions, and foreign sources.

Status of the NPOESS Program Sensors

    The Subcommittee has expressed an interest in any cost-savings that 
may be accrued from reducing the NPOESS sensors and impact this would 
have on meeting operational requirements.
    The NPOESS Program Office, in consultation with the NPOESS Program 
Executive Committee, reviewed the status of the program, the FY 2003 
Appropriations, FY 2004 budget request against the operational 
requirements in the IORD and satellite schedule. They determined that 
there will be no changes to the technical content of the program, 
specifically the number and types of sensors and their performance, the 
number of satellites, number of weather centrals. The NPOESS Program 
recommended, and the Committee approved, adjustments to the schedule to 
accommodate the available funds. The basis of the recommendation was 
that no single sensor, even if totally deleted, would provide 
significant reduction in the overall program cost. Additionally, the 
impact to the customer of the loss of data and services if sensors were 
reduced would be incalculable. Appendix 1 contains a list of the NPOESS 
sensor suite.
    For illustrative purposes, the following is a review of the impact 
of deleting the Visible/Infrared Imaging Radiometer Suite (VIIRS) and 
the Conically-scanned Microwave Imager Sounder (CMIS) from the NPOESS 
sensor suite. VIIRS is designed to meet NOAA and DOD operational 
requirements and to continue the NASA EOS Moderate Resolution Imaging 
Spectroradiometer (MODIS) data to meet the climate community imagery 
requirements, provide continuity of the Sea-viewing, Wide-Field-of-view 
Sensor (SeaWiFS) instrument for ocean color, and provide enhancement on 
heritage NOAA POES and DMSP sensors. SeaWiFS data continuity is a 
critical requirement for the ocean sciences community.
    CMIS is used to image the Earth's surface through clouds, which is 
especially important for sea and lake ice, for ocean surface wind speed 
and direction, and for soil moisture measurements (a key performance 
parameter from the DOD and useful for civilian agricultural and flood 
warning applications). The development costs of the VIIRS visible and 
infrared imager and the CMIS are approximately $180 million for each 
sensor suite. This amount includes three VIIRS sensors (NPOESS 
Preparatory Project, NPOESS C-1 and C-2), two CMIS sensors (NPOESS C-1 
and C-2), and all the algorithms and software for both. Development of 
the sensors is far enough along that there would be no program cost 
savings from reducing the number or type of sensors from the NPOESS 
Program. In fact, deleting the VIIRS sensor eliminates all the imaging 
capability from NPP, C-1 and C-2. This would negate two thirds of the 
EDRs on NPOESS and result in NPOESS' inability to meet IORD performance 
requirements.
    During the assessment to converge DMSP and POES into NPOESS, NOAA 
and DOD conducted cost benefit analyses and it was estimated that the 
program will realize cost avoidance of $1.3 billion over its life. 
Therefore, we have already realized a major cost benefit from 
effectively reducing the number of instruments in orbit. If further 
budget adjustments require that select sensors are dropped, NOAA would 
not be able to meet the mission requirements directed in the IORD.
    NOAA would be affected more than DOD, since NOAA does have unique 
sensors such as Total Solar Irradiance Sensor (TSIS) and Earth 
Radiation Budget Sensor (ERBS) that do not meet DOD requirements, but 
do meet NASA and NOAA climate and scientific mission requirements. 
Removing any of the ``critical'' sensors, VIIRS, Cross-track Infrared 
and Microwave Sounding Suite (CrIS), Advanced Technology Microwave 
Sounder (ATMS), or CMIS, would result in violation of the key 
performance parameters of the IORD, which, according to DOD acquisition 
rules, could result in cancellation of the program. Since these sensors 
provide critical data for numerical forecasting to NOAA and the weather 
and climate community, the impacts would be significant and 
unacceptable.
    Further, the near-term impact of the reduced funding results in 
loss of efficiency at the contractor facility, and instability in 
production schedules. The impact to the customer and user is an 
increased uncertainty whether they should develop programs based on the 
availability of NPOESS data. It also leads to inefficiencies in our 
customers' and users' readiness plans to invest in the critical 
information technology (IT) infrastructure required to facilitate use 
of NPP and NPOESS the data on ``Day One of Its Availability.''

NOAA's Preparations for NPOESS and GOES-R Data Streams

    A discussion of NOAA's satellites and its preparation for future 
systems must also include the concept of end-to-end utilization of 
satellite data. As discussed at last year's hearing before this 
subcommittee, NOAA is committed to ensuring that the data from NPP, 
NPOESS, and GOES-R will be incorporated into operations on the first 
day of its availability, and the academic community, industry, and 
other users will be able to access climate-quality data from NOAA's 
archive.
    The President's FY 2004 budget request contains $91.2 million to 
support our Environmental Observing Services. Within these amounts are 
activities designed to support current operations as well as prepare 
NOAA to utilize NPOESS and GOES-R satellite data on ``Day One of Its 
Availability.'' A sampling of these activities include:
Use of Precursor NPOESS Sensors
    NOAA has started to use and incorporate data from NASA EOS research 
instruments that are NPOESS precursor sensors (both sounders and 
imagers) into NOAA operations on a limited and experimental basis. As 
such, NOAA's National Weather Service, NOAA Oceans and Coasts, NOAA 
Research and other users are beginning to become familiar with the 
increased volume, variety, and complexity of the data. Indeed, already 
we have seen improvements in operations from these data and expect to 
realize further improvements as operators realize the full potential of 
the available data and make greater use of them.
    NOAA has been systematically working on upgrading and enhancing 
current product development, processing and distribution capabilities 
to begin acquiring and exploiting in near real-time data from MODIS and 
Advanced Infrared Sounder (AIRS) on the NASA EOS Missions Terra and 
Aqua missions to directly support NOAA's operational missions that 
require remotely sensed data. Because the MODIS instrument is very 
similar to the VIIRS and the AIRS instrument is similar to CrIS that 
will be flown on the NPP mission and on the operational NPOESS 
spacecraft, these early NOAA efforts are critical to reduce the risk 
and gain experience with similar instruments; data handling, 
processing, storage, and communication of high volume data sets; and 
allow the users to gain early, pre-operational experience with NPP and 
NPOESS-like data sets, well before the first operational NPOESS 
spacecraft is launched.
    Similar efforts are being pursued to build the capability to handle 
and process data from the future CMIS that will be flown on NPOESS to 
measure, among other parameters, the ocean surface vector wind field. 
Current efforts at NOAA (and the Navy) address the operational/tactical 
use of ocean surface vector winds from active scatterometer missions 
(e.g., SeaWINDS). Beginning with the launch of the joint DOD/DOC 
Windsat/Coriolis mission (a NPOESS risk reduction flight for the CMIS 
instrument), NOAA's processing capabilities for SeaWINDS will be 
transitioned to processing and utilizing data from the WindSat/Coriolis 
mission, in preparation for the first launch of NPOESS. Additional 
development work that is required to prepare for the NPOESS era will be 
performed in close cooperation with IPO and through the Joint Center 
for Satellite Data Assimilation, further described below.
Use of Surrogate Data Sources
    NOAA actively assesses the utility of non-NOAA data to fill its 
mission. NOAA purchases data from Orbital Imaging to fulfill NOAA's 
operational requirement for ocean color data. NOAA also uses data from 
the joint NASA-European Space Agency's altimetry mission. These two 
cases are examples where NOAA has utilized alternate risk reduction 
activities to assess the utility of currently available data streams to 
support NOAA's missions prior to transitioning these capabilities onto 
NPOESS satellites.
Collaboration With the Science Community
    In response to recommendations from the Chairman and this 
subcommittee at last year's hearing, we continue to actively seek 
collaborative partnerships with Universities and the broader academic 
community to address meeting the need for science or climate research 
quality data from NPOESS and GOES-R missions. NOAA is harnessing the 
best and brightest minds to work with us. Highlights include:

        <bullet> Establishment of the Cooperative Institute for 
        Oceanographic Satellite Studies (CIOSS) with the College of 
        Oceanic and Atmospheric Sciences (COAS) at Oregon State 
        University. COAS is rated among the top five oceanographic 
        institutions in the Nation by the National Research Council. 
        This partnership between COAS and NESDIS builds on COAS' 
        recognized leadership in the fields of oceanographic remote-
        sensing and coastal ocean research.

        <bullet> Continued relationships with the Cooperative Remote 
        Sensing Science and Technology Centers (CREST) located at the 
        City University of New York (CUNY). CREST is a partnership 
        among NOAA, CUNY, Hampton University, University of Puerto Rico 
        at Mayaguez, University of Maryland at Baltimore County, Bowie 
        State University, and Columbia University. In addition to 
        training future remote-sensing scientists, students within the 
        CREST consortium have already started rotations within NESDIS's 
        science programs in Wisconsin and Maryland.

        <bullet> Continued partnerships with University Corporation 
        for Atmospheric Research (UCAR) and the National Center for 
        Atmospheric Research (NCAR) in Boulder, Colorado.

        <bullet> NOAA continues to harness the knowledge through 
        existing collaborations at the Massachusetts Institute of 
        Technology, University of Maryland, University of Wisconsin, 
        University of Colorado, Colorado State University, and other 
        academic institutions.

    NOAA's Science Advisory Board (SAB) is considering the 
establishment of an NPOESS Science Panel to assist in these efforts.
    Not only do these opportunities fertilize NOAA's scientific 
programs, they create a demand for young scientists to enter fields 
that are critical to NOAA's future to build a workforce with which NOAA 
can initiate personnel succession planning.

Satellite Data Assimilation--Joint Center for Satellite Data 
        Assimilation (JCSDA)
    The FY 2004 President's Budget Request includes $3.35 million to 
support activities with JCSDA. NOAA appreciates the strong support this 
subcommittee has provided for JCSDA. JCSDA, initially a partnership 
between NOAA and NASA, has been expanded to include DOD, and is 
addressing the development of common algorithms that will be used by 
all the NPOESS customers.
    The goal of JCSDA is to make better use of all sources of satellite 
data in operations including preparing for, assimilating, and using 
data from NPOESS sensors. This will ensure that operational users are 
ready and eager to use NPOESS data on day one of its availability. We 
already have some positive results from these efforts, such as a better 
way to use satellite data to locate hurricane centers, but we need to 
continue this work with the brightest minds in our government and 
universities. Accomplishments of JCSDA in the past year include: 
committed partnership among NOAA Line Offices (NOAA's National Weather 
Service, NOAA Research, and NOAA Satellites and Information), DOD (U.S. 
Air Force and U.S. Navy), NASA, and the academic community; 
incorporation of EOS AIRS data into NOAA's National Weather Service 
models; upgraded communications lines between NASA and NOAA in order to 
move data to operations processing centers at NOAA; improved computing 
capacity.
    JCSDA will also play a critical role in GOES-R risk reduction 
activities.

Information Technology Reviews
    The NPOESS partners and NPOESS contractor continue to undertake 
rigorous reviews of IT infrastructure and capacity to support NPOESS 
data assimilation at the NPOESS operational centers. We recognize and 
constantly monitor IT advances to ensure that we are harnessing the 
best technology available to address the challenges before us in the 
most cost-effective way. As noted above, the ability to develop the 
appropriate IT infrastructure to ensure that ground and processing 
systems are ready in time for NPP and NPOESS depends on available 
funding.

Partnerships With Other Space Agencies
    In addition to NASA, DOD, academia, and industry, NOAA continues to 
develop and nurture critical partnerships with foreign space agencies 
in Japan, China, India, and Europe, (such as France, Italy and Russia). 
These partnerships allow us to leverage select data from these 
satellite systems at tremendous cost savings to the U.S. taxpayer by 
not flying duplicative satellites and sensors on NOAA spacecraft.
User Training and Education, and Public Outreach
    NOAA continues to work with UCAR, the American Meteorological 
Society (AMS), DOD and other partners to develop and implement teaching 
modules for operational users regarding applications of NOAA satellite 
data in the classroom and through distance-learning such as E-learning. 
NPOESS and GOES-R will use these avenues to ensure that operators are 
ready and able to use satellite data from those systems when they 
become available. NOAA anticipates that advances in IT and E-learning 
will provide opportunities to increase training in the future. NOAA has 
also sponsored a number of national and international user workshops 
and meetings to discuss the NPOESS and GOES-R programs.

NOAA's Satellite Data Access and Archive

    The NOAA National Data Centers--located in Maryland, Colorado, 
North Carolina and Mississippi--routinely incorporate the latest 
technologies to facilitate rapid and easy user access to the data, 
products, and information under NOAA's stewardship. The President's FY 
2004 budget request of $59.074 million for NOAA data centers and 
information services continues the work to ensure that these invaluable 
data are available for many generations.
    The IT revolution is changing the expectations and demands that 
customers have for access and use of observations, data, information, 
products, and services. Customers are now able to transfer and process 
vast quantities of data and expect easy and efficient web-based access 
and search capabilities via the worldwide web and broadband Internet. 
Entrepreneurs in the application of information and intellectual 
property are finding numerous innovative applications for NOAA data and 
information. This in turn, is driving the NOAA data centers to provide 
more rapid access, more timely and improved quality assurance and 
quality control of these data. The objective NOAA ``quality assurance'' 
stamp is critical to private industry and decision-makers who require 
confidence in the data when considering capital investments and annual 
business plans, as well as long-term policies.
    In anticipation of the increases in data from NASA EOS, NPP, 
NPOESS, and GOES and the demand for access to these data on the first 
day of availability, NOAA has requested $3.6 million in the FY 2004 
budget request to continue to develop the Comprehensive Large Array-
data Stewardship System (CLASS) and an additional $3.0 million to 
incorporate the NASA EOS data into the CLASS infrastructure.
    CLASS is NOAA's integrated enterprise archive architecture and 
management system that will provide rapid access and long-term 
scientific stewardship of large volumes of satellite, as well as 
airborne and in-situ (surface: land and ocean), environmental data, 
operational products, and respond to on-line users' requests. Full 
funding of these data management activities will help us to prepare for 
NPOESS and GOES-R data archiving challenges. CLASS is a critical 
foundation for the scientific data stewardship of NOAA's vast archive, 
a national treasure and resource. The CLASS program is NOAA's principal 
avenue to meeting the challenges of rapid advances in information 
technologies and a much more informed and demanding customer.
    We are at a critical juncture in the development of CLASS in order 
to meet user requirements for NPP and NPOESS. NOAA received $2.9 
million in appropriations of the $6.6 million requested in FY 2003 
President's Budget Request to develop CLASS and provide the initial 
capability to include EOS Archive data into the CLASS infrastructure. 
Full funding of the FY 2004 budget request will allow NOAA to develop 
the enterprise architecture to ensure the stewardship (access and 
archive) for the NPP data and to meet the critical requirement of the 
climate research community.
    In conclusion, Mr. Chairman and members of the Subcommittee, NOAA 
is pleased to have had the opportunity to provide you an update on the 
GOES-R and NPOESS, and our data management programs. We are actively 
managing the scheduling and technology risks associated with these 
systems, and look forward to working with the Congress and the 
Administration to minimize the funding risks. Support of the FY 2004 
budget request is imperative to successful development, launch, and 
operation of the next generation of satellites. The validated, 
requirements-based data from these systems will vastly improve the 
health and safety of the people, the U.S. economy, and our global 
environment. A key element to our strategy is partnering with other 
agencies, such as NASA and DOD, the space industry, our international 
partners, and academia. These partnerships have proved to be wise 
investments for NOAA and the Nation. We have also greatly appreciated 
the continued support and interest expressed by this subcommittee.
    Mr. Chairman and Subcommittee Members, this concludes my testimony. 
I would be happy to answer any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ehlers. Thank you.
    Mr. Teets.

  STATEMENT OF MR. PETER B. TEETS, UNDER SECRETARY OF THE AIR 
   FORCE AND DEPARTMENT OF DEFENSE EXECUTIVE AGENT FOR SPACE

    Mr. Teets. Yes. Good afternoon, Mr. Chairman, and thank you 
for giving me the opportunity to appear before you today.
    I have been pleased to develop an association with Mr. Greg 
Withee as well as Admiral Lautenbacher in regard to our 
partnership in bringing online the NPOESS program. It is an 
important program to the Department of Defense and to our 
United States Air Force.
    You probably are aware that in both Operation Enduring 
Freedom and Operation Iraqi Freedom, our ability to do accurate 
weather forecasting on a global basis has been an important 
element in our success. And so we within the Department of 
Defense fully recognize the importance of continuous and 
excellent weather forecasting ability globally. NPOESS offers 
us the promise of improved weather forecasting and improved 
prediction of weather conditions worldwide. And it is for that 
reason that we think of NPOESS as a very high priority within 
the Department of Defense.
    The first NPOESS satellite is scheduled now for launch in 
late 2009 or early 2010, depending upon which orbit will be 
required to receive it. But in the meantime, we within the 
Department of Defense have five current satellites, DMSP, the 
Defense Meteorological Satellite Program, satellites numbers 
16, 17, 18, 19, and 20, that are waiting to be launched in this 
interim period. Our assessment is that, with reasonable 
confidence, we believe we will have a continuous capability to 
predict weather worldwide to serve military needs.
    But we are, indeed, careful about recognizing the fact that 
NPOESS is a significant development program. One of the items 
that I was interested in a year and a half ago when I first 
came on board this job, was to understand who the program 
manager for NPOESS would be and was pleased to learn that it 
was John Cunningham. John is a very highly capable, competent 
program manager who has a lot of scar tissue and a lot of 
development experience in managing significant satellite 
development jobs. John is assisted by Colonel Frank Hinnant, 
another true professional.
    And I have enjoyed, over the course of this last year, the 
partnership developed between NOAA and our Air Force as well as 
NASA. Mr. Fred Gregory, Greg Withee, Admiral Lautenbacher, and 
I have met on several occasions. As a matter of fact, we were 
together and worked through together the source selection of 
the prime contractor to build the NPOESS's first satellite. 
That contractor is Northrop Grumman Space Technology, and you 
will hear from Mr. Wes Bush in that regard later today. But I 
was very pleased, as I say, to participate in that source 
selection, and one of the things we looked for were the 
structure of a program that would have appropriate risk 
reduction activity underway.
    Our view is that the program planned by the NPOESS program 
management team, working in conjunction with Northrop Grumman, 
have put in place a program that we can have high confidence 
in. And so I believe that we have the budget that we must stay 
to. We must continue to see that it is filled out on a yearly 
basis between now and the end of this decade in a way that 
allows us to confidently launch NPOESS in the time frame 
proposed.
    And with that, Mr. Chairman, I would conclude my opening 
remarks and be pleased to take any questions you might have.
    [The prepared statement of Mr. Teets follows:]

                  Prepared Statement of Peter B. Teets

INTRODUCTION

    I am honored to appear before you today to address this committee 
on a program critical to our nation, the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS). I am also pleased 
to be joined today by one of my partners in the NPOESS program, Mr. 
Gregory Withee, Assistant Administrator for Satellite and Information 
Services, National Oceanic and Atmospheric Administration (NOAA).
    In my testimony to the House Armed Services Committee Strategic 
Forces Subcommittee on March 19, 2003, I described some of the actions 
that we in the defense space community are taking to ensure that 
America's military forces have the finest space-based capabilities in 
the world. Since then, Operation IRAQI FREEDOM confirmed how important 
American dominance of space is to the successful conduct of military 
operations. A major pillar of this dominance has been our unparalleled 
ability to exploit weather and environmental data gathered from space, 
allowing our servicemen and women to fight and win in a wide range of 
weather conditions. In my testimony today, I will highlight the steps 
we in DOD are taking to ensure this high quality environmental data 
remains available to the warfighter--as well as civilian users--in the 
future.

CURRENT STATUS

    Presidential direction established the NPOESS program in 1994 in 
order to combine the Department of Defense's Defense Meteorological 
Satellite Program (DMSP) and the Department of Commerce's Polar-
orbiting Operational Environmental Satellite (POES) systems. We are 
executing the NPOESS program towards a first launch no earlier than 
November 2009, with Full Operational Capability in 2013. In order to 
meet the program's advanced technology infusion goals, we are also 
proud to have the National Aeronautics and Space Administration (NASA) 
onboard as a partner in our efforts. The NPOESS program office 
established within NOAA includes representatives from all three 
organizations.

NPOESS MANAGEMENT

    As a joint program, NPOESS is overseen by an Executive Committee 
comprised of myself, Vice Admiral (Ret) Conrad C. Lautenbacher, Jr., 
the Under Secretary of Commerce for Oceans and Atmosphere and the 
Administrator of the National Oceanic and Atmospheric Administration, 
and Mr. Frederick Gregory, the Deputy Administrator of NASA. We have 
met three times in the last year to review the program's status, and I 
believe I speak for all of us in saying that NPOESS continues to be an 
excellent model of interagency space program cooperation.
    The DOD and the Air Force are in the process of implementing 
recommendations from the Congressionally-directed Commission to Assess 
National Security Space Management. A major recommendation of the 
Commission was to designate the Air Force, and specifically the Under 
Secretary, as the DOD Executive Agent for Space, with oversight of DOD 
space acquisition efforts. Recently, the DOD has made this designation 
official, although I have been acting in this capacity for quite some 
time. I have spent much of my time in my current position emphasizing 
the importance of getting our space acquisition programs on track. 
Space programs--and specifically, military space programs--are complex 
systems with numerous unique characteristics, and as such, bring 
extraordinary acquisition challenges. As the DOD Executive Agent for 
Space, I am in a position to cut across traditional bureaucratic lines, 
and work with all interested parties, DOD and civil agencies, in 
improving the way we do business, ensuring that we do not repeat past 
mistakes in our future acquisitions.
    A significant improvement we are making is in the implementation of 
a new acquisition policy tailored to the unique requirements of space 
systems. NPOESS is the first program to use the new DOD space 
acquisition policy and I am very satisfied with the results so far. A 
senior NASA expert led an independent review of the program's technical 
risks, and a combined Air Force and DOD cost agency team (a forerunner 
of a dedicated National Security Space Cost Assessment Team) is 
currently reviewing the program's proposed budget to ensure it is 
adequately funded.

PROGRAM REQUIREMENTS

    As many of us in DOD have learned from difficult experience, 
achieving consensus on program requirements at the earliest possible 
point is essential to the success of any complex acquisition program. 
This is especially true with space systems, where the majority of our 
efforts and money are spent well before our systems ever get to orbit. 
For NPOESS, a robust requirements definition and validation process 
that includes all partners, modeled on the DOD process, was developed 
and to date has worked effectively. NPOESS requirements from all three 
agencies have been vetted through this disciplined process, and were 
validated by the Interagency Joint Agency Requirements Council. I am 
pleased to report that the system we are building meets the core set of 
requirements agreed upon by all of the partners.

ENHANCED SENSOR CAPABILITIES

    With respect to those requirements, NPOESS is making significant 
progress in developing new sensors to give our user communities the 
capabilities they need. The NPOESS satellite will be designed to fly up 
to 14 sensors--five sensors are developmental, and the other nine 
sensors are heritage. While these new sensors face some development 
challenges, the wisdom of starting the NPOESS sensor development 
earlier than the satellite development is clearly evident as we proceed 
to resolve these challenges. Four of the five developmental sensors 
have passed their Critical Design Review, a major milestone in their 
acquisition. The final sensor will reach this point in August 2003. The 
early sensor development start is giving us the time we need to 
demonstrate prototype sensors.
    The NPOESS program and the DOD, through the Navy Research 
Laboratory and the Space Test Program, successfully launched the 
Windsat/CORIOLIS satellite in January of this year. Windsat/CORIOLIS 
has completed a preliminary demonstration of one of the greatest 
technological advances that NPOESS will bring: the ability to determine 
ocean wind speed passively from space. We have plans to demonstrate 
determining wind direction from space in the coming months. This 
information is essential for Navy air and fleet operations, and is also 
needed by civil weather agencies for their forecasts. We have also 
begun work on four flight units for the NPOESS Preparatory Project 
(NPP), scheduled for launch no earlier than October 2006, as an end-to-
end risk reduction experiment for NPOESS. These demonstrations will 
yield a better understanding of the issues, so that we can make any 
necessary technical adjustments to the NPOESS program.
    The tri-agency partnership is in close cooperation in the 
development of these innovative capabilities. For example, NPOESS is 
now designed to carry an aerosol polarimeter sensor. This sensor 
measures reflected visible and infrared energy from multiple angles and 
can be used to determine the shape and origin of suspended vapors. This 
is a useful measurement in better understanding the climate, and is of 
importance to the NOAA community. I will tell you that this knowledge 
is also important for effective use of laser guided weapons and 
efficient collection by our Intelligence, Surveillance, and 
Reconnaissance (ISR) capabilities. NASA is planning to demonstrate this 
sensor's capability and performance on an early flight opportunity.

DATA PROCESSING SUCCESSES

    The NPOESS program is also focused on reducing the time it takes to 
obtain environmental data, an important issue to all of our users. The 
best data in the world is of little use if it does not get to the right 
person at the right time. Today's weather satellites store their data 
on tape recorders and play it back down to ground stations. By the time 
the data is processed and distributed, it is between two and three 
hours old, which can be an eternity in wartime or during a weather 
emergency. NPOESS will reduce the amount of time that elapses between 
data collection and data delivery to the user by delivering over 95 
percent of its data in less than 28 minutes; over half the data can be 
delivered in less than 15 minutes. This is over three to four times 
faster than current satellites' architectures, allowing more accurate 
and timely forecasting for all users.
    These advanced capabilities would be of little use to anyone 
without the ability to efficiently process the received data. The 
NPOESS architecture contains a node to process raw data to be forwarded 
to our DOD strategic data centers. The program office will also provide 
the software necessary for ship or ground-based remote terminals to 
receive and process NPOESS data. Each DOD component is providing its 
own remote terminals for stand-alone operations. Building on our joint 
heritage, NOAA will continue to be responsible for archiving NPOESS 
data. Data archiving should be no different than it is today, except 
there will be more data available on a more timely basis. The NPOESS 
Preparatory Project will prove out many of these concepts.
    A team of NOAA, Air Force, and Navy scientists and managers are 
dedicated to solving our processing challenges in order to ensure that 
all the partners will be able to use data from the NPOESS advanced 
sensors soon after they are launched. In demonstrating improved 
processing capabilities, NOAA and NASA have had great success with the 
NASA Advanced IR Sounder (AIRS) on the Aqua satellite. In addition, the 
National Weather Service is beginning to use the data from this 
experimental sensor, fully three years before the availability of the 
first NPOESS advanced IR sensor on the NPP satellite, and over six 
years before the first operational NPOESS satellite. The DOD is very 
interested in building upon the successes that our civil partners have 
had in the practical demonstration of improved environmental data 
similar to what will be delivered by NPOESS.

NPOESS FUNDING CHALLENGES

    The DOD FY 2004 President's Budget Request of $267.7 million will 
fund NPOESS activities in support of a no earlier than October 2006 
launch of the NPP satellite and a no earlier than November 2009 launch 
of the first NPOESS satellite, but budget instability still exists. I 
would like to say that NPOESS is in perfect shape, but that is not the 
case. As a jointly funded program, NPOESS has struggled to maintain 
budget stability in the past, and is undergoing a replan, which delays 
the first satellite availability by as much as 21 months from earlier 
projections. Prior to the approval of the replan, the NPOESS program 
office reviewed various sensors alternatives, which included:

        <bullet> maintaining the current sensor suite at the expense 
        of schedule, or

        <bullet> reducing the sensor suite to maintain the schedule.

    The review determined that there is no effective way to reduce 
sensor capabilities without additional impacts to cost and schedule. 
Furthermore, they found that all of the currently planned sensors are 
required to satisfy the full complement of mission requirements. Given 
those constraints, the replan, which delays the first satellite 
availability by as much as 21 months, was approved.
    Even given the replan, the DOD will likely have sufficient DMSP 
satellites to ensure a seamless operational transition to NPOESS. 
However, the issue of the DOD's reliance on an on-time NPOESS delivery, 
which will support the maximum performance of our emerging weapons 
systems, remains. Thus, in many ways, NPOESS is a strategic 
partnership, both in funding and in requirements.
    The risk of coverage gaps to our civil partners during the POES to 
NPOESS transition period appears much greater. NOAA has only two 
remaining POES satellites, which are currently scheduled for launch in 
2004 and 2008. If either of the two remaining POES satellites suffers a 
failure, NOAA's weather forecasting and climate monitoring mission will 
suffer. The DOD takes advantage of POES and geostationary weather 
satellites, such as Geostationary Operational Environmental Satellites 
(GOES), for its weather predictions. The loss of POES, or any one of 
these sources of information, would degrade our weather prediction 
abilities. However, the Department could meet its minimum reporting 
requirement. The DOD also augments sounding data from DMSP Flight 16 
and beyond with data from the POES satellites in our numerical weather 
prediction models. The loss of this data would also degrade our weather 
prediction accuracy. The DOD is in the preliminary stages of exploring 
courses of action to address these contingencies.

CONCLUSION

    The environment has a tremendous impact on U.S. military 
capability. Just as an oft-stated goal of the U.S. military has been to 
``own the night,'' we must be prepared to fight and prevail in all 
types of weather. Advanced environmental monitoring capabilities can 
ensure that we choose the right weapons for the right weather for the 
right target. We demonstrated in Iraq and Afghanistan that our forces 
can fight and win in bad weather, but we know we can-and must-do 
better. NPOESS will be a vital component in our future space 
capabilities, a key force-multiplier for the entire warfighting 
spectrum. From a warfighter's perspective, the data from NPOESS will 
allow the identification of aerosols which can impact the operation of 
optical and laser guided precision guided munitions, it will provide 
information on soil moisture to improve the traffic flow of ground 
forces, it will measure sea temperature and collect icing data for 
naval operations, and finally, it will report on scintillation which is 
critical to navigation and accuracy of GPS guided munitions.
    Our cooperation with NASA and the Department of Commerce's NOAA is 
breaking new ground in program acquisition. It is critical that we 
remain true to the NPOESS vision outlined in the Presidential direction 
and the interagency agreements that established the program. The DOD 
remains fully committed to NPOESS. I look forward to working with the 
Congress and this Committee to deliver the capabilities of this 
important program for the good of the Nation.

    Chairman Ehlers. Thank you.
    Mr. Powner.

STATEMENT OF MR. DAVID A. POWNER, ACTING DIRECTOR, INFORMATION 
    TECHNOLOGY MANAGEMENT ISSUES, GENERAL ACCOUNTING OFFICE

    Mr. Powner. Chairman Ehlers, Ranking Member Udall, and 
Representative Smith, we appreciate the opportunity to testify 
on NPOESS, a planned $7 billion satellite system that is to 
merge two separate polar-orbiting satellite programs managed by 
NOAA and DOD. Since we last testified before you one year ago, 
progress has been made on this program.
    However, despite the progress, the program is currently 
faced with several risks that must be effectively addressed to 
keep this program on track and to ensure continuity of critical 
weather data. This afternoon, I will summarize two key 
programmatic and technical risks confronting NPOESS: first, 
schedule delays and resulting potential gaps in satellite 
coverage; second, issues with key sensor development. In 
addition, I will discuss potential cost increases that will 
likely result from delays in the program and efforts to address 
these risks.
    First regarding schedule delays and resulting potential 
gaps in satellite coverage, when the NPOESS development 
contract was awarded, the schedule for launching the satellites 
was driven by a requirement that they be available as a backup 
should the final launch of the POES and DMSP programs fail. Now 
POES and DMSP are managed by NOAA and DOD respectively. What 
this meant was that the first NPOESS satellite be available to 
backup the final POES satellite launch in March of 2008.
    However, program officials now tell us that as a result of 
changes in funding, the first NPOESS satellite will not be 
available for launch until December 2009. This is 21 months 
after it is needed to back up the final POES satellite. This 
means that should the final POES launch fail in March of 2008, 
there would be no backup satellites ready for launch, and there 
could be a gap in satellite coverage, especially since the 
operational satellites would be reaching the end of their 
useful lives.
    The second risk area concerns key sensor development 
efforts that have experienced cost increases, schedule delays, 
and performance shortfalls. The cost estimates for each of the 
four critical sensors have increased with increases ranging 
from $60 million to $200 million. Further, while all of them 
are still expected to be completed before they are needed, many 
have slipped to the end of their schedule buffers, meaning that 
there is no additional time should additional problems arise. 
Additionally, program officials are working to address 
performance issues on two of the four critical sensors.
    To the program's credit, it has been resolving sensor 
performance issues for the last several months. Earlier this 
year, all four critical sensors were at medium to high risk in 
performance related areas. The program will likely continue to 
identify additional sensor issues, some of which will require 
additional costs and more time to address.
    Mr. Chairman, efforts to address these programmatic and 
technical risks may result in increased costs to the overall 
program. However, the potential cost increases are currently 
unknown. The program office is working to develop a new cost 
estimate and schedule baseline for the NPOESS program and hopes 
to complete it by next month. This rebaselining is to result in 
a major contract renegotiation.
    In summary, today's polar-orbiting weather satellite 
program is essential to a variety of civilian and military 
operations, ranging from weather warnings and forecasts to 
specialized weather products. This new satellite system is 
considered critical to the United States' ability to maintain 
continuity of data required for weather forecasting, climate 
monitoring, and critical military operations. Effectively 
managing key programmatic and technical risks will be essential 
to limiting the potential gap in coverage. Should this 
potential gap grow, the data needed for weather forecasts and 
climate monitoring would be put at further risk. Additionally, 
the extent of the potential overall program cost increases 
should be known by next month.
    This concludes my statement. I would be pleased to respond 
to any questions you or other Members of the Subcommittee may 
have.
    [The prepared statement of Mr. Powner follows:]

                 Prepared Statement of David A. Powner

Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to join in today's hearing to discuss 
our work on the planned National Polar-orbiting Operational 
Environmental Satellite System (NPOESS). At your request, we will 
provide an overview of our nation's current polar-orbiting 
environmental satellite program and the planned NPOESS program. We will 
also discuss key risks to the successful and timely deployment of 
NPOESS.
    In brief, today's polar-orbiting environmental satellite program is 
a complex infrastructure encompassing two satellite systems, supporting 
ground stations, and four central data processing centers that provide 
general weather information and specialized environmental products to a 
variety of users, including weather forecasters, military strategists, 
and the public. NPOESS is planned to merge the two satellite systems 
into a single state-of-the-art environment monitoring satellite system. 
This new satellite system, currently estimated to cost about $7 
billion, is considered critical to the United States' ability to 
maintain the continuity of data required for weather forecasting and 
global climate monitoring through the year 2018.
    However, the NPOESS program faces key programmatic and technical 
risks that may affect the successful and timely deployment of the 
system. Specifically, changing funding streams and revised schedules 
have delayed the expected launch date of the first NPOESS satellite by 
21 months. Thus, the first NPOESS satellite will not be ready in time 
to back up the final POES satellite, resulting in a potential gap in 
satellite coverage should that satellite fail. Specifically, if the 
final POES launch fails and if existing satellites are unable to 
continue operations beyond their expected lifespans, the continuity of 
weather data needed for weather forecasts and climate monitoring will 
be put at risk. In addition, concerns with the development of key 
NPOESS components, including critical sensors and the data processing 
system, could cause additional delays in the satellite launch date.
    The program office is working to address the changes in funding 
levels and schedule, and to make plans for addressing specific risks. 
Further, it is working to develop a new cost and schedule baseline for 
the NPOESS program by August 2003.
    This statement builds on work we have done on environmental 
satellite programs over the last several years.\1\ An overview of the 
approach we used to perform this work--our objectives, scope, and 
methodology--is provided in Appendix I.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Polar-orbiting Environmental 
Satellites: Status, Plans, and Future Data Management Challenges, GAO-
02-684T (Washington, D.C.: July 24, 2002); National Oceanic and 
Atmospheric Administration: National Weather Service Modernization and 
Weather Satellite Program, GAO/T-AIMD-00-86 (Washington, D.C.: Mar. 29, 
2000); and Weather Satellites: Planning for the Geostationary Satellite 
Program Needs More Attention, GAO-AIMD-97-37 (Washington, D.C.: Mar. 
13, 1997).
---------------------------------------------------------------------------

Existing Polar Satellite Infrastructure

    Since the 1960s, the United States has operated two separate 
operational polar-orbiting meteorological satellite systems. These 
systems are known as the Polar-orbiting Operational Environmental 
Satellites (POES), managed by the National Oceanic and Atmospheric 
Administration's (NOAA) National Environmental Satellite, Data, and 
Information Service (NESDIS), and the Defense Meteorological Satellite 
Program (DMSP), managed by the Department of Defense (DOD). These 
satellites obtain environmental data that are processed to provide 
graphical weather images and specialized weather products, and that are 
the predominant input to numerical weather prediction models--all used 
by weather forecasters, the military, and the public. Polar satellites 
also provide data used to monitor environmental phenomena, such as 
ozone depletion and drought conditions, as well as data sets that are 
used by researchers for a variety of studies, such as climate 
monitoring.
    Unlike geostationary satellites, which maintain a fixed position 
above the earth, polar-orbiting satellites constantly circle the earth 
in an almost north-south orbit, providing global coverage of conditions 
that affect the weather and climate. Each satellite makes about 14 
orbits a day. As the earth rotates beneath it, each satellite views the 
entire earth's surface twice a day. Today, there are two operational 
POES satellites and two operational DMSP satellites that are positioned 
so that they can observe the earth in early morning, mid-morning, and 
early afternoon polar orbits. Together, they ensure that for any region 
of the earth, the data provided to users are generally no more than 6 
hours old. Figure 1 illustrates the current operational polar satellite 
configuration. Besides the four operational satellites, there are five 
older satellites in orbit that still collect some data and are 
available to provide some limited backup to the operational satellites 
should they degrade or fail. In the future, both NOAA and DOD plan to 
continue to launch additional POES and DMSP satellites every few years, 
with final launches scheduled for 2008 and 2010, respectively.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Each of the polar satellites carries a suite of sensors designed to 
detect environmental data either reflected or emitted from the earth, 
the atmosphere, and space. The satellites store these data and then 
transmit the data to NOAA and Air Force ground stations when the 
satellites pass overhead. The ground stations then relay the data via 
communications satellites to the appropriate meteorological centers for 
processing.
    Under a shared processing agreement among the four processing 
centers--NESDIS,\2\ the Air Force Weather Agency, Navy's Fleet 
Numerical Meteorology and Oceanography Center, and the Naval 
Oceanographic Office--different centers are responsible for producing 
and distributing different environmental data sets, specialized weather 
and oceanographic products, and weather prediction model outputs via a 
shared network. Each of the four processing centers is also responsible 
for distributing the data to its respective users. For the DOD centers, 
the users include regional meteorology and oceanography centers as well 
as meteorology and oceanography staff on military bases. NESDIS 
forwards the data to NOAA's National Weather Service for distribution 
and use by forecasters. The processing centers also use the Internet to 
distribute data to the general public. NESDIS is responsible for the 
long-term archiving of data and derived products from POES and DMSP.
---------------------------------------------------------------------------
    \2\ Within NOAH, NESDIS processes the satellite data, and the 
National Centers for Environmental Prediction (NCEP), a component of 
NOAA's National Weather Service, runs the models. For simplicity, we 
refer to the combined NESDIS/NCEP processing center as the NESDIS 
processing center.
---------------------------------------------------------------------------
    In addition to the infrastructure supporting satellite data 
processing noted above, properly equipped field terminals that are 
within a direct line of sight of the satellites can receive real-time 
data directly from the polar-orbiting satellites. There are an 
estimated 150 such field terminals operated by the U.S. government, 
many by DOD. Field terminals can be taken into areas with little or no 
data communications infrastructure--such as on a battlefield or ship--
and enable the receipt of weather data directly from the polar-orbiting 
satellites. These terminals have their own software and processing 
capability to decode and display a subset of the satellite data to the 
user. Figure 2 depicts a generic data relay pattern from the polar-
orbiting satellites to the data processing centers and field terminals.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Polar Satellite Data, Products, and Uses

    Polar satellites gather a broad range of data that are transformed 
into a variety of products for many different uses. When first 
received, satellite data are considered raw data.\3\ To make them 
usable, the processing centers format the data so that they are time-
sequenced and include earth location and calibration information. After 
formatting, these data are called raw data records. The centers further 
process these raw data records into data sets, called sensor data 
records and temperature data records. These data records are then used 
to derive weather products called environmental data records (EDR). 
EDRs range from atmospheric products detailing cloud coverage, 
temperature, humidity, and ozone distribution; to land surface products 
showing snow cover, vegetation, and land use; to ocean products 
depicting sea surface temperatures, sea ice, and wave height; to 
characterizations of the space environment. Combinations of these data 
records (raw, sensor, temperature, and environmental data records) are 
also used to derive more sophisticated products, including outputs from 
numerical weather models and assessments of climate trends. Figure 3 is 
a simplified depiction of the various stages of data processing.
---------------------------------------------------------------------------
    \3\ NOAA uses different nomenclature for its data processing 
stages: raw data are known as level 0 data; raw data records are known 
as level 1a data; sensor data records and temperature data records are 
known as level 1b data; and environmental data records are known as 
level 2 data.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    EDRs can be either images or quantitative data products. Image EDRs 
provide graphical depictions of the weather and are used to observe 
meteorological and oceanographic phenomena to track operationally 
significant events (such as tropical storms, volcanic ash,\4\ and 
icebergs), and to provide quality assurance for weather prediction 
models.
---------------------------------------------------------------------------
    \4\ Volcanic ash presents a hazard to aviation because of its 
potential to damage engines.
---------------------------------------------------------------------------
    The following figures demonstrate polar-orbiting satellite images. 
Figure 4 is an image from a DMSP satellite showing an infrared picture 
taken over the west Atlantic Ocean. Figure 5 is a POES image of 
Hurricane Floyd, which struck the southern Atlantic coastline in 1999. 
Figure 6 is a polar-satellite image used to detect volcanic ash clouds, 
in particular the ash cloud resulting from the eruption of Mount Etna 
in 2001. Figure 7 shows the location of icebergs near Antarctica in 
February 2002.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Quantitative EDRs are specialized weather products that can be used 
to assess the environment and climate or to derive other products. 
These EDRs can also be depicted graphically. Figures 8 and 9 are 
graphic depictions of quantitative data on sea surface temperature and 
ozone measurements, respectively. An example of a product that was 
derived from EDRs is provided in figure 10. This product shows how long 
a person could survive in the ocean--information used in military as 
well as search and rescue operations--and was based on sea surface 
temperature EDRs from polar-orbiting satellites.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Another use of quantitative satellite data is in numerical weather 
prediction models. Based predominantly on observations from polar-
orbiting satellites and supplemented by data from other sources such as 
geostationary satellites, radar, weather balloons, and surface 
observing systems, numerical weather prediction models are used in 
producing hourly, daily, weekly, and monthly forecasts of atmospheric, 
land, and ocean conditions. These models require quantitative satellite 
data to update their analysis of weather and to produce new forecasts. 
Table 1 provides examples of models run by the processing centers. 
Figure 11 depicts the output of one common model.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    All this information--satellite data, imagery, derived products, 
and model output--is used in mapping and monitoring changes in weather, 
climate, the ocean, and the environment. These data and products are 
provided to weather forecasters for use in issuing weather forecasts 
and warnings to the public and to support our nation's aviation, 
agriculture, and maritime communities. Also, weather data and products 
are used by climatologists and meteorologists to monitor the 
environment. Within the military, these data and products allow 
military planners and tactical users to focus on anticipating and 
exploiting atmospheric and space environmental conditions. For example, 
Air Force Weather Agency officials told us that accurate wind and 
temperature forecasts are critical to any decision to launch an 
aircraft that will need mid-flight refueling. In addition to these 
operational uses of satellite data, there is also a substantial need 
for polar satellite data for research. According to experts in climate 
research, the research community requires long-term, consistent sets of 
satellite data collected sequentially, usually at fixed intervals of 
time, in order to study many critical climate processes. Examples of 
research topics include long-term trends in temperature, precipitation, 
and snow cover.

The National Polar-orbiting Operational Environmental Satellite System

    Given the expectation that merging the POES and DMSP programs would 
reduce duplication and result in sizable cost savings, a May 1994 
Presidential Decision Directive required NOAA and DOD to converge the 
two satellite programs into a single satellite program capable of 
satisfying both civilian and military requirements. The converged 
program is called the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS), and it is considered critical to the United 
States' ability to maintain the continuity of data required for weather 
forecasting and global climate monitoring. To manage this program, DOD, 
NOAA, and the National Aeronautics and Space Administration (NASA) have 
formed a tri-agency Integrated Program Office, located within NOAA.
    Within the program office, each agency has the lead on certain 
activities. NOAA has overall responsibility for the converged system, 
as well as satellite operations; DOD has the lead on the acquisition; 
and NASA has primary responsibility for facilitating the development 
and incorporation of new technologies into the converged system. NOAA 
and DOD share the costs of funding NPOESS, while NASA funds specific 
technology projects and studies.

NPOESS Overview

    NPOESS is a major system acquisition estimated to cost almost $7 
billion over the 24-year period from the inception of the program in 
1995 through 2018.\5\ The program is to provide satellite development, 
satellite launch and operation, and integrated data processing. These 
deliverables are grouped into four main categories: (1) the launch 
segment, which includes the launch vehicle and supporting equipment, 
(2) the space segment, which includes the satellites and sensors, (3) 
the interface data processing segment, which includes the data 
processing system to be located at the four processing centers, and (4) 
the command, control, and communications segment, which includes the 
equipment and services needed to track and control satellites.
---------------------------------------------------------------------------
    \5\ 
---------------------------------------------------------------------------
    Program acquisition plans call for the procurement and launch of 
six NPOESS satellites over the life of the program and the integration 
of 14 instruments, comprised of 12 environmental sensors and 2 
subsystems. Together, the sensors are to receive and transmit data on 
atmospheric, cloud cover, environmental, climate, oceanographic, and 
solar-geophysical observations. The subsystems are to support non-
environmental search and rescue efforts and environmental data 
collection activities. According to the Integrated Program Office, 8 of 
the 14 planned NPOESS instruments involve new technology development, 
whereas 6 others are based on existing technologies. The planned 
instruments and the state of technology on each are listed in Table 2.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Unlike the current polar satellite program, in which the four 
centers use different approaches to process raw data into the 
environmental data records that they are responsible for, the NPOESS 
integrated data processing system--to be located at the four centers--
is expected to provide a standard system to produce these data sets and 
products. The four processing centers will continue to use these data 
sets to produce other derived products, as well as for input to their 
numerical prediction models.
    NPOESS is planned to produce 55 environmental data records (EDRs), 
including atmospheric vertical temperature profile, sea surface 
temperature, cloud base height, ocean wave characteristics, and ozone 
profile. Some of these EDRs are comparable to existing products, 
whereas others are new. The user community designated six of these data 
products--supported by four sensors\6\--as key EDRs, and noted that 
failure to provide them would cause the system to be reevaluated or the 
program to be terminated.
---------------------------------------------------------------------------
    \6\ The four sensors supporting key EDRs are (1) the advanced 
technology microwave sounder, (2) the conical microwave imager/sounder, 
(3) the cross-track infrared sounder, and (4) the visible/infrared 
imager radiometer suite.
---------------------------------------------------------------------------

Acquisition Strategy

    The NPOESS acquisition program consists of three key phases: the 
concept and technology development phase, which lasted from roughly 
1995 to early 1997; the program definition and risk reduction phase, 
which began in early 1997 and ended in August 2002; and the engineering 
and manufacturing development and production phase, which began in 
August 2002 and is expected to continue through the life of the 
program. The concept and technology development phase began with the 
decision to converge the POES and DMSP satellites and included early 
planning for the NPOESS acquisition. This phase included the successful 
convergence of the command and control of existing DMSP and POES 
satellites at NOAA's satellite operations center.
    The program definition and risk reduction phase involved both 
system-level and sensor-level initiatives. At the system level, the 
program office awarded contracts to two competing prime contractors to 
prepare for NPOESS system performance responsibility. These contractors 
developed unique approaches to meeting requirements, designing system 
architectures, and developing initiatives to reduce sensor development 
and integration risks. These contractors competed for the development 
and production contract. At the sensor level, the program office 
awarded contracts to develop five sensors.\7\ This phase ended when the 
development and production contract was awarded. At that point, the 
winning contractor was expected to assume overall responsibility for 
managing continued sensor development.
---------------------------------------------------------------------------
    \7\ The five sensors include (1) the conical microwave imager/
sounder, (2) the cross-track infrared sounder, (3) the global 
positioning system occultation sensor, (4) the ozone mapper/profiler 
suite, and (5) the visible/infrared imager radiometer suite.
---------------------------------------------------------------------------
    The final phase, engineering and manufacturing development and 
production, began when the development and production contract was 
awarded to TRW in August 2002. At that time, TRW assumed system 
performance responsibility for the overall program. This responsibility 
includes all aspects of design, development, integration, assembly, 
test and evaluation, operations, and on-orbit support. Shortly after 
the contract was awarded, Northrop Grumman Space Technology purchased 
TRW and became the prime contractor on the NPOESS project.

Risk Reduction Activities Are Underway

    In May 1997, the Integrated Program Office assessed the technical, 
schedule, and cost risks of key elements of the NPOESS program, 
including (1) overall system integration, (2) the launch segment, (3) 
the space segment, (4) the interface data processing segment, and (5) 
the command, control, and communications segment. As a result of this 
assessment, the program office determined that three elements had high 
risk components: the interface data processing segment, the space 
segment, and the overall system integration. Specifically, the 
interface data processing segment and overall system integration were 
assessed as high risk in all three areas (technical, cost, and 
schedule), whereas the space segment was assessed to be high risk in 
the technical and cost areas, and moderate risk in the schedule area. 
The launch segment and the command, control, and communications segment 
were determined to present low or moderate risks. The program office 
expected to reduce its high risk components to low and moderate risks 
by the time the development and production contract was awarded, and to 
have all risk levels reduced to low before the first launch. Table 3 
displays the results of the 1997 risk assessment as well as the program 
office's estimated risk levels by August 2002 and by first launch.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In order to meet its goals of reducing program risks, the program 
office developed and implemented multiple risk reduction initiatives. 
One risk reduction initiative specifically targeted the space segment 
risks by initiating the development of key sensor technologies in 
advance of the satellite system itself. Because environmental sensors 
have historically taken 8 years to develop, the program office began 
developing six of the eight sensors with more advanced technologies 
early. In the late 1990s, the program office awarded contracts for the 
development, analysis, simulation, and prototype fabrication of five of 
these sensors.\8\ In addition, NASA awarded a contract for the early 
development of one other sensor.\9\ Responsibility for delivering these 
sensors was transferred from the program office to the prime contractor 
when the NPOESS contract was awarded in August 2002.\10\
---------------------------------------------------------------------------
    \8\ The five program office-initiated sensors include (1) the 
conical microwave imager/sounder, (2) the cross-track infrared sounder, 
(3) the global positioning system occultation sensor, (4) the ozone 
mapper/profiler suite, and (5) the visible/infrared imager radiometer 
suite.
    \9\ NASA contracted for the advanced technology microwave sounder 
sensor.
    \10\ In the case of the advanced technology microwave sounder 
sensor, NASA is responsible for developing the initial sensor while the 
NPOESS prime contractor is responsible for subsequent production of 
these sensors.
---------------------------------------------------------------------------
    Another major risk reduction initiative expected to address risks 
in three of the four segments with identified risks is called the 
NPOESS Preparatory Project (NPP).\11\ NPP is a planned demonstration 
satellite to be launched in 2006, several years before the first NPOESS 
satellite launch in 2009. It is scheduled to host three of the four 
critical NPOESS sensors (the visible/infrared imager radiometer suite, 
the cross-track infrared sounder, and the advanced technology microwave 
sounder), as well as two other non-critical sensors. Further, NPP will 
provide the program office and the processing centers an early 
opportunity to work with the sensors, ground control, and data 
processing systems. Specifically, this satellite is expected to 
demonstrate about half of the NPOESS EDRs and about 93 percent of its 
data processing load.
---------------------------------------------------------------------------
    \11\ NPP will not address risks in the launch segment.
---------------------------------------------------------------------------
    Since our statement last year,\12\ the Integrated Program Office 
has made further progress on NPOESS. Specifically, it awarded the 
contract for the overall program and is monitoring and managing 
contract deliverables, including products that will be tested on NPP. 
The program office is also continuing to work on various other risk 
reduction activities, including learning from experiences with sensors 
on existing platforms, including NASA research satellites, the WINDSAT/
Coriolis weather satellite, and the NPOESS airborne sounding testbed.
---------------------------------------------------------------------------
    \12\ GAO-02-684T.
---------------------------------------------------------------------------

NPOESS Faces Key Programmatic and Technical Risks

    While the program office has made progress both on the acquisition 
and risk reduction activities, the NPOESS program faces key 
programmatic and technical risks that may affect the successful and 
timely deployment of the system. Specifically, changing funding streams 
and revised schedules have delayed the expected launch date of the 
first NPOESS satellite, and concerns with the development of key 
sensors and the data processing system may cause additional delays in 
the satellite launch date. These planned and potential schedule delays 
could affect the continuity of weather data. Addressing these risks may 
result in increased costs for the overall program. In attempting to 
address these risks, the program office is working to develop a new 
cost and schedule baseline for the NPOESS program, which it hopes to 
complete by August 2003.

NPOESS Funding and Schedule Are Changing

    When the NPOESS development contract was awarded, program office 
officials identified an anticipated schedule and funding stream for the 
program. The schedule for launching the satellites was driven by a 
requirement that the satellites be available to back up the final POES 
and DMSP satellites should anything go wrong during these satellites' 
planned launches. In general, program officials anticipate that roughly 
1 out of every 10 satellites will fail either during launch or during 
early operations after launch.
    Key program milestones included (1) launching NPP by May 2006 in 
order to allow time to learn from that risk reduction effort, (2) 
having the first NPOESS satellite available to back up the final POES 
satellite launch in March 2008, and (3) having the second NPOESS 
satellite available to back up the final DMSP satellite launch in 
October 2009. If the NPOESS satellites were not needed to back up the 
final predecessor satellites, their anticipated launch dates would have 
been April 2009 and June 2011, respectively.
    However, a DOD program official reported that between 2001 and 
2002, the agency experienced delays in launching a DMSP satellite, 
causing delays in the expected launch dates of another DMSP satellite. 
In late 2002, DOD shifted the expected launch date for the final DMSP 
satellite from 2009 to 2010. As a result, DOD reduced funding for 
NPOESS by about $65 million between fiscal years 2004 and 2007. 
According to NPOESS program officials, because NOAA is required to 
provide no more funding than DOD does, this change triggered a 
corresponding reduction in funding by NOAA for those years. As a result 
of the reduced funding, program office officials were forced to make 
difficult decisions about what to focus on first. The program office 
decided to keep NPP as close to its original schedule as possible 
because of its importance to the eventual NPOESS development, and to 
shift some of the NPOESS deliverables to later years. This shift will 
affect the NPOESS deployment schedule. Table 4 compares the program 
office's current estimates for key milestones, given current funding 
levels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As a result of the changes in funding between 2003 and 2007, 
project office officials estimate that the first NPOESS satellite will 
be available for launch 21 months after it is needed to back up the 
final POES satellite. This means that should the final POES launch fail 
in March 2008, there would be no backup satellite ready for launch. 
Unless the existing operational satellite is able to continue 
operations beyond its expected lifespan, there could be a gap in 
satellite coverage. Figure 12 depicts the schedule delay.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We have reported on concerns about gaps in satellite coverage in 
the past. In the early 1990s, the development of the second generation 
of NOAA's geostationary satellites experienced severe technical 
problems, cost overruns, and schedule delays, resulting in a 5-year 
schedule slip in the launch of the first satellite; this schedule slip 
left NOAA in danger of temporarily losing geostationary satellite data 
coverage--although no gap in coverage actually occurred.\13\ In 2000, 
we reported that geostationary satellite data coverage was again at 
risk because of a delay in a satellite launch due to a problem with the 
engine of its launch vehicle.\14\ At that time, existing satellites 
were able to maintain coverage until the new satellite was launched 
over a year later--although one satellite had exceeded its expected 
lifespan and was using several backup systems in cases where primary 
systems had failed. DOD experienced the loss of DMSP satellite coverage 
in the 1970s, which led to increased recognition of the importance of 
polar-orbiting satellites and of the impact of the loss of satellite 
data.
---------------------------------------------------------------------------
    \13\ GAO/AIMD-97-37.
    \14\ GAO/T-AIMD-00-86.
---------------------------------------------------------------------------

Key Sensor Development Efforts Are Experiencing Cost Increases, 
                    Schedule Delays, and Performance Shortfalls

    In addition to the schedule issues facing the NPOESS program, 
concerns have arisen regarding key components. Although the program 
office reduced some of the risks inherent in developing new 
technologies by initiating the development of these sensors early, 
individual sensor development efforts have experienced cost increases, 
schedule delays, and performance shortfalls. The cost estimates for all 
four critical sensors (the ones that are to support the most critical 
NPOESS EDRs) have increased, due in part to including items that were 
not included in the original estimates, and in part to addressing 
technical issues.\15\ These increases range from approximately $60 
million to $200 million. Further, while all the sensors are still 
expected to be completed within schedule, many have slipped to the end 
of their schedule buffers--meaning that no additional time is available 
should other problems arise. Details on the status and changes in cost 
and schedule of four critical sensors are provided in Table 5. The 
timely development of three of these sensors (the visible/infrared 
imager radiometer suite, the cross-track infrared sounder, and the 
advanced technology microwave sounder) is especially critical, because 
these sensors are to be demonstrated on the NPP satellite, currently 
scheduled for launch in October 2006.
---------------------------------------------------------------------------
    \15\ Program officials noted that the more recent cost estimates 
include items that were not included in the original estimates, such as 
system engineering, integration, and testing; overhead costs; on-orbit 
support; and additional units of one of the sensors, as well as costs 
to address technical issues.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Critical sensors are also falling short of achieving the required 
levels of performance. As part of a review in early 2003, the program 
officials determined that all four critical sensors were at medium to 
high risk of shortfalls in performance. Program officials recently 
reported that since the time of that review, the concerns that led to 
those risk designations have been addressed, which contributed to the 
schedule delays and cost increases noted above. We have not evaluated 
the closure of these risk items. However, program officials acknowledge 
that there are still performance issues on two critical sensors which 
they are working to address. Specifically, officials reported that they 
are working to fix a problem with the radio frequency interference on 
the conical microwave imager/sounder. Also, the program office is 
working with NASA to fix problems with electrostatic discharge 
procedures and misalignment of key components on the advanced 
technology microwave sounder. Further, the program office will likely 
continue to identify additional performance issues as the sensors are 
developed and tested. Officials anticipate that there could be cost 
increases and schedule delays associated with addressing performance 
issues.
    Program officials reported that these and other sensor problems are 
not unexpected; previous experience with such problems was what 
motivated them to begin developing the sensors early. However, 
officials acknowledge that continued problems could affect the sensors' 
delivery dates and potentially delay the NPP launch. Any delay in that 
launch date could affect the overall NPOESS program because the success 
of the program depends on learning lessons in data processing and 
system integration from the NPP satellite.

Level of Effort and Time Needed to Develop the Interface Data 
                    Processing System for NPP and NPOESS Is Not Known

    The interface data processing system is a ground-based system that 
is to process the sensors' data so that they are usable by the data 
processing centers and the broader community of environmental data 
users. The development of this system is critical for both NPP and 
NPOESS. When used with NPP, the data processing system is expected to 
produce 26 of the 55 EDRs that NPOESS will provide, processing 
approximately 93 percent of the planned volume of NPOESS data. Further, 
the central processing centers will be able to work with these EDRs to 
begin developing their own specialized products with NPP data. These 
activities will allow system users to work through any problems well in 
advance of when the NPOESS data are needed. We reported last year that 
the volumes of data that NPOESS will provide present immense challenges 
to the centers' infrastructures and to their scientific capability to 
use these additional data effectively in weather products and 
models.\16\ We also noted that the centers need time to incorporate 
these new data into their products and models. Using the data 
processing system in conjunction with NPP will allow them to begin to 
do so.
---------------------------------------------------------------------------
    \16\ GAO-02-684T.
---------------------------------------------------------------------------
    While the data processing segment is currently on schedule, program 
officials acknowledge the potential for future schedule delays. 
Specifically, an initial version of the data processing system is on 
track to be delivered at the end of July, and a later version is being 
planned. However, the data processing system faces potential risks that 
could affect the availability of NPP and in turn NPOESS. Specifically, 
program officials reported that there is a risk that the roughly 32 
months allocated for developing the remaining software and delivering, 
installing, and verifying the system at two central processing centers 
will not be sufficient. A significant portion of the data processing 
system software involves converting scientific algorithms for 
operational use, but program officials noted that there is still 
uncertainty in how much time and effort it will take to complete this 
conversion. Any significant delays could cause the potential coverage 
gap between the launches of the final POES and first NPOESS satellites 
to grow even larger.

NPOESS Program Office Is Working to Address Risks

    Program officials are working to address the changes in funding 
levels and schedule, and to make plans for addressing specific sensor 
and data processing system risks. They acknowledge that delays in the 
program and efforts to address risks on key components could increase 
the overall cost of the program, which could result on the loss of some 
or all of the promised cost savings from converging the two separate 
satellite systems. However, estimates on these cost increases are still 
being determined. The program office is working to develop a new cost 
and schedule baseline based on the fiscal year 2004 President's budget 
for the NPOESS program. Officials noted that this rebaselining effort 
will involve a major contract renegotiation. Program officials reported 
that they hope to complete the new program baseline by August 2003.

    In summary, today's polar-orbiting weather satellite program is 
essential to a variety of civilian and military operations, ranging 
from weather warnings and forecasts to specialized weather products. 
NPOESS is expected to merge today's two separate satellite systems into 
a single state-of-the-art weather and environmental monitoring 
satellite system to support all military and civilian users, as well as 
the public. This new satellite system is considered critical to the 
United States' ability to maintain the continuity of data required for 
weather forecasting and global climate monitoring through the year 
2018, and the first satellite was expected to be ready to act as a 
backup should the launch of the final satellites in the predecessor 
POES and DMSP programs fail.
    The NPOESS program office has made progress over the last years in 
trying to reduce project risks by developing critical sensors early and 
by planning the NPOESS Preparatory Project to demonstrate key sensors 
and the data processing system well before the first NPOESS launch. 
However, the NPOESS program faces key programmatic and technical risks 
that may affect the successful and timely deployment of the system. 
Specifically, changing funding streams and revised schedules have 
delayed the expected launch date of the first NPOESS satellite, and 
concerns with the development of key sensors and the data processing 
system may cause additional delays in the satellite launch date. These 
factors could affect the continuity of weather data needed for weather 
forecasts and climate monitoring.

    This concludes my statement. I would be pleased to respond to any 
questions that you or other Members of the Subcommittee may have at 
this time.

Contact and Acknowledgements

    If you have any questions regarding this testimony, please contact 
David Powner at (202) 512-9286 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d4d524a53584f597d5a5c52135a524b13">[email&#160;protected]</a> 
Individuals making key contributions to this testimony include Barbara 
Collier, John Dale, Ramnik Dhaliwal, Colleen Phillips, and Cynthia 
Scott.

Appendix I

                   Objectives, Scope, and Methodology

    Our objectives were to provide an overview of our nation's current 
polar-orbiting weather satellite program and the planned National 
Polar-orbiting Operational Environmental Satellite System (NPOESS) 
program and to identify key risks to the successful and timely 
deployment of NPOESS.
    To provide an overview of the Nation's current and future polar-
orbiting weather satellite system programs, we relied on prior GAO 
reviews of the satellite programs of the National Oceanic and 
Atmospheric Administration (NOAA) and the Department of Defense (DOD). 
We reviewed documents from NOAA, DOD, and the National Aeronautics and 
Space Administration (NASA) that describe the purpose and origin of the 
polar satellite program and the status of the NPOESS program. We also 
interviewed Integrated Program Office and NASA officials to determine 
the program's background, status, and plans.
    To identify key risks to the successful and timely deployment of 
NPOESS, we assessed the NPOESS acquisition status and program risk 
reduction efforts to understand how the program office plans to manage 
the acquisition and mitigate the risks to successful NPOESS 
implementation. We reviewed descriptions of the NPOESS sensors and 
interviewed officials at the Integrated Program Office, NASA, and DOD 
to determine the status of key sensors, program segments, and risk 
reduction activities. We also reviewed documents and interviewed 
program office on plans to address NPOESS challenges.
    NOAA, DOD, and NASA officials generally agreed with the facts as 
presented in this statement and provided some technical corrections, 
which we have incorporated. We performed our work at the NPOESS 
Integrated Program Office, NASA headquarters, and DOD offices, all 
located in the Washington, D.C. metropolitan area. Our work was 
performed between April and July 2003 in accordance with generally 
accepted government auditing standards.

    (310445)

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ehlers. Thank you.
    Mr. Bush.

 STATEMENT OF MR. WES BUSH, PRESIDENT, NORTHRUP GRUMMAN SPACE 
                           TECHNOLOGY

    Mr. Bush. Chairman Ehlers, Members of the Subcommittee, I 
am pleased to appear before you today to discuss NPOESS, a 
program for which Northrop Grumman is the prime contractor. I 
would like to thank you for holding this hearing on a subject 
of such extreme national importance.
    Let me begin with a brief report on the program progress. 
Northrop Grumman is developing NPOESS under a contract awarded 
in August 2002 by the NPOESS Integrated Program Office, or IPO. 
We are responsible for overall system design, integration, and 
performance. In addition, as part of the NPOESS Preparatory 
Project, or NPP, we are providing three development sensors: 
command, control, ground-based communications and data 
processing, and on-orbit operations and support. When this 
program reaches its peak development, we will have more than 70 
subcontracts with work being done in 17 states. More than 1,500 
people currently support this contract.
    The NPOESS program has benefited from a three-year program 
definition and risk reduction phase during which the IPO 
established five new sensor development contracts to retire 
risks associated with new technology developments. This phase 
provided the IPO and its contractors an important head start in 
high-risk reduction and program planning and enabled us to 
analyze and plan program execution schedules that optimized the 
program workflow. We were also able to coordinate concurrent 
development opportunities between NPOESS and NPP.
    In February 2003, the IPO informed us of proposed funding 
cuts for the NPOESS program. These included a fiscal year 2003 
reduction of $14 million and planned cuts in the 
Administration's budget of $70 million in fiscal year 2004 and 
$60 million in following years. To address these budget 
reductions, we assisted the IPO in conducting trade studies and 
evaluating the options. Following these studies, the IPO 
directed us to reschedule the NPOESS space segment activities 
to dates later in the future in order to avoid reducing 
performance requirements and to preserve the NPP launch 
schedule. We are currently executing our contract and 
development activities while at the same time working on 
program replan to address funding reductions.
    Budget instability and the subsequent actions required in 
adjusting to new funding levels impact the program in several 
ways. First, they adversely impact the efficiencies created in 
the program baseline plan. The original imposed program 
baseline included the establishment of budget allocations for 
32,000 tasks for the entire team. We will have to readdress all 
of those decisions in developing a new plan. In addition, we 
and our subcontractors are having put staffing plans on hold, 
reassigning people to other programs, or in some cases for some 
of our subcontractors, losing them to other companies. For 
example, reducing the Boeing Satellite System subcontract for 
the Conical Scanning Microwave Imager and Sounder instrument 
resulted in a staffing decrease from 150 people down to 50, 
which diminishes the efficiency of this instrument development. 
The shift in the IPO's space segment work also delays the 
availability of the first NPOESS satellite by 21 months, 
reducing the cost efficient overlap between NPOESS and the NPP 
development activities.
    Lastly, replanning and delaying program implementation is 
costly. The replanning effort consumes about six months to 
evaluate the options and to negotiate a contractor vision with 
the IPO. The contractor team, including our subcontractors, 
have spent nearly $11 million just to develop the change 
proposals and convert them into contractual form.
    We are currently working on a replan change proposal that 
we will submit to the IPO in August of this year that meets the 
reduced funding profile. This plan will deliver full mission 
capability, including the systems needed to support the NPP 
program, but it will be characterized by schedule delays in the 
development and delivery of the NPOESS space segment.
    I would like to emphasize Northrop Grumman's capabilities 
in the development and deployment of advanced technologies for 
NPOESS. Northrop Grumman Space Technology has extensive 
experience since the very beginning of the space industry, 
integrating large, complex space programs that introduce new 
and evolving technologies. We have built many of the Nation's 
most sophisticated national security space systems as well as 
world-class civil space systems, many that were authorized by 
your Science Committee, including the Compton Gamma Ray 
Observatory, the Chandra X-ray Observatory, and the Earth 
Observing System's Aqua and Aura spacecraft. We have proven 
processes and procedures in place to address new technology 
development efforts and apply our system engineering expertise. 
We understand the system integration challenges. We have plans 
in place to address them, and our proven processes give us the 
confidence that we would be successful in meeting these 
challenges.
    In summary, Northrop Grumman's biggest concern is executing 
the NPOESS contract with budget stability. The current 
reductions set us back on our program schedule and introduced 
inefficiencies to the program. However, we stand committed to 
provide the very best program performance within the funding 
profile that we are given.
    Thank you very much. This concludes my remarks.
    [The prepared statement of Mr. Bush follows:]

                     Prepared Statement of Wes Bush

INTRODUCTION

    Mr. Chairman, Members of the Subcommittee, my name is Wes Bush and 
I am pleased to appear before you today to discuss the National Polar-
Orbiting Operational Environmental Satellite System (NPOESS). I am 
President of Northrop Grumman's Space Technology (NGST) sector. 
Northrop Grumman Corporation is a $25 billion global defense company 
headquartered in Los Angeles, California. We provide technologically 
advanced, innovative products, services and solutions to defense, 
government and commercial customers. I would like to thank you for 
holding this hearing on a subject of such extreme national importance.
    NPOESS is composed of satellites, a ground control system and a 
data processing and dissemination network. The system will provide 
regional and global meteorological data; oceanographic, environmental, 
climatic, and space environmental information; surface data collection; 
and search and rescue capabilities.
    NPOESS merges the existing polar systems from the Department of 
Commerce (DOC), the Polar-orbiting Operational Environmental Satellite 
(POES), and the Department of Defense (DOD), the Defense Meteorological 
Satellite Program (DMSP) into the next generation system that will meet 
operational requirements to 2020. The consolidation achieves 
significant economies and exploits newly available technologies 
necessary to meet civil and military environmental sensing requirements 
in a single national system.

NPOESS Prime Contractor Responsibilities

    Northrop Grumman is now developing NPOESS under a contract awarded 
August 23, 2002, by the NPOESS Integrated Program Office (IPO), which 
is jointly funded by the DOC and DOD with participation from NASA. 
Northrop Grumman is the prime contractor, responsible for overall 
system design, integration and performance, as well as development of 
the space segment. Raytheon, our teammate, is responsible for command 
and control, mission data processing and system engineering support. In 
addition, as part of the NPOESS Preparatory Project (NPP), a NASA 
contract which will provide science continuity for NASA's Earth 
Observing System (EOS) and risk reduction for NPOESS, we are 
responsible for providing three development sensors; ground-based 
command, control, communications and processing; and on-orbit 
operations and support. When this program reaches its peak in 
development, we will have more than 70 subcontracts, with work being 
done in 17 states. More than 1,500 people currently support this 
contract.
    When Northrop Grumman was awarded the NPOESS contract, we began an 
extensive baseline process and worked with the IPO to transition the 
development sensors from government contracts to Northrop Grumman 
subcontracts. The baseline process involved building a detailed program 
plan that consolidated 40 schedules into one single, integrated master 
schedule and established budget allocations for 32,000 tasks for the 
entire team. The IPO performed an intensive audit, and on February 14, 
2003, NPOESS successfully completed the Integrated Baseline Review with 
a fully executable program.
    Shortly thereafter, Northrop Grumman became aware of the 
Administration's FY04 and out-years' Budgets and FY03 Congressional 
budget reductions that directly impacted the baseline for NPOESS. These 
reductions necessitated a complete replan of the program that we are 
now developing with the IPO.

Current NPOESS Progress

    We are currently executing our contract and development activities 
and are proceeding despite the budget constraints, although to a 
different schedule. Working closely with the IPO, our strategy is to 
preserve the NPP launch schedule while minimizing impacts to NPOESS. 
This requires that we continue our work to deliver the NPP sensors, the 
data processing system, and the command, control and communications 
systems. We have successfully completed the critical designs for NPP 
sensor suites, including the Visible/Infrared Imager Radiometer Suite 
(VIIRS) and Ozone Mapping and Profiler Suite (OMPS). We plan to hold 
the critical design review for the Cross-track Infrared Sounder (CrIS) 
in 5 weeks. We have also built engineering development units for all of 
these sensors, and each is in various stages of test and evaluation. We 
have ordered long-lead flight components for these sensors, and are 
planning to build the flight units based on lessons learned from the 
engineering development units. We are also making progress in 
accordance with our plan in the design of the ground hardware and 
software. We have procured high-speed computers, set up the software 
development facility, and have begun coding and testing software for 
command, control, communications and data processing.
    We have also initiated validation, by simulation, of algorithms 
that work in conjunction with sensor hardware to produce the 
environmental data records, which are the ultimate product of the 
system. These algorithms will be converted to operational software to 
reside within the data processing system. The first three algorithms 
have been delivered and are undergoing test. This work must continue 
without interruption to support a successful NPP launch in the last 
quarter of 2006.
    In addition to our work with NPP, we have also begun the detailed 
design of the more extensive NPOESS system. This involves the 
development, procurement, and design integration for 11 more sensor 
types onto operational spacecraft platforms that fly in three different 
orbits. It requires more algorithms for data processing, more extensive 
command and control, and a global communications network to support a 
3-satellite constellation, which makes up the NPOESS final orbital 
configuration.

NPOESS FUNDING IMPACTS

    Funding reductions in the Administration's FY04 Budget ($70M) along 
with out-year reductions ($60M) and the reduction in FY03 funding 
($14M) for NPOESS from the original contracted baseline have caused us 
to shift work to the future in the overall program schedule. These 
reductions have resulted in loss of efficiency and have created 
significant cost impacts on the program.
    There are three interrelated factors that govern our plan in 
executing the NPOESS program: requirements, budget and schedule. If one 
factor changes, it causes one or both of the other factors to change. 
Given the funding reductions, we faced the option of reducing 
performance requirements or changing the schedule, which in this case 
meant delaying either the NPP launch or the date when the first NPOESS 
satellite could be available to backup the POES N' launch, or both. 
After assisting the IPO with trade studies and evaluating the options, 
the IPO directed us to avoid reducing performance requirements and to 
reschedule the NPOESS Space Segment design, development, integration 
and test activities to dates later in the future. The IPO and NASA also 
decided to limit the slip of the NPP launch to 5 months to minimize any 
science continuity impacts with the EOS program. The shift in NPOESS 
Space Segment work resulted in delaying the availability of the first 
NPOESS satellite, which had been identified as a backup to POES N'. The 
first NPOESS satellite, per the replan, will be ready for launch 
February 2010, which occurs 21 months later than in the baseline plan.

Efficiency and Cost Impacts

    The primary impact of the budget reductions is overall efficiency 
and increased cost for the execution of NPOESS. At establishment of the 
program baseline in February 2003, the IPO verified, through an 
extensive program audit, that we had an executable program. When the 
IPO informed us of the potential funding reductions, we stopped 
executing the staffing plan for the program, and in certain areas we 
reduced staffing, with their consent.
    The budget reductions disrupted the program plan that we carefully 
developed over 3 years. The replanning effort consumes about six months 
to evaluate the options, establish a new baseline strategy with the 
IPO, develop a contract change proposal, negotiate contract changes 
with the affected subcontractors, and negotiate a contract revision 
with the IPO. This work isn't free; the contractor team, including our 
subcontractors, has spent nearly $11M just developing new proposals to 
put the replan changes into contractual form. The concurrent replan and 
program execution efforts also reduce our efficiency by diverting key 
personnel away from managing and executing the program plan to 
replanning the program to the new funding levels. There are many 
changes to our master schedule and budget allocations, which lead to 
re-negotiations and reduced efficiencies.
    In addition, Northrop Grumman dramatically slowed the majority of 
the space segment work for the first NPOESS spacecraft, which froze our 
staffing level at 220 people instead of our baseline plan of 330. 
Before the funding reductions, we were adding people to the program to 
work specific tasks. When we were directed to take appropriate measures 
to perform contract work within a newly constrained funding profile, we 
initiated a staffing freeze in some areas, and staffing reductions in 
other areas, as did our subcontractors. The people affected by the 
staffing freeze and reductions were reassigned to other programs or 
chose to leave their companies. Many of these people will not be 
available to the program at the time their tasks resurface in the 
future, resulting in loss of learning and expertise that, in the 
baseline plan, were in the state of readiness to serve NPOESS.
    We initiated few subcontracts and reduced the effort in other 
ongoing subcontracts. For example, we reduced the Boeing Satellites 
Systems subcontract for the Conical Scanning Microwave Imager/Sounder 
(CMIS) instrument, triggering a staffing reduction from 150 people to 
50 people, which decreased the efficiency of this instrument 
development by introducing gaps in work flow, and increased its cost as 
a consequence of lost knowledge and stretched tasks. Our baseline plan 
called for work by 14 subcontractors in FY03; we deferred the 
activation of 6 subcontracts and adversely impacted 8 ongoing 
subcontracts. Our baseline plan involved 58 subcontractors in FY05; in 
our replan we anticipate delaying the activation of 18 subcontracts and 
adversely impacting 40 other subcontracts by introducing schedule 
stretches and gaps in workflow.
    The delay of the launch date for an NPOESS backup to POES N' also 
reduces the cost-efficient overlap between NPP and NPOESS development 
activities, resulting in a loss of the efficiency we had incorporated 
into our baseline plan.
    In summary, the Congressional FY03 action and the Administration's 
proposed funding decrease for NPOESS have created challenges for our 
management team, but with collaboration and guidance from the IPO, we 
immediately launched a significant effort to adjust our baseline plan 
and limit our spending to new funding constraints. We are fully 
committed to execute NPOESS within the new funding constraints. We are 
making significant development progress on the program. We are 
confident that we will continue to meet future key milestone dates and 
deliver our contractual requirements.

DEVELOPING TECHNOLOGICALLY ADVANCED CAPABILITIES

    Northrop Grumman Space Technology has been developing space systems 
since the dawn of the space industry and has extensive experience 
integrating large, complex space programs that introduce new and 
evolved technologies. We have built many of the nation's most 
sophisticated national security space systems, as well as world-class 
civil space systems that were authorized by your House Science 
Committee, including the Compton Gamma Ray Observatory, the Chandra X-
ray Observatory and the Earth Observing System's Aqua and Aura 
spacecraft. We have proven processes and procedures in place to 
properly address new development efforts and to solve technical 
difficulties and challenges. The stable system requirements for NPOESS 
continue to enhance our ability to methodically reduce risk and execute 
on the program.

Risk Reduction Activities

    Many risk reduction activities have already occurred and more are 
planned for the future to support the NPOESS program. There are several 
risks that must be retired against sensors, ground systems, spacecraft, 
user-interface and overall systems integration. Northrop Grumman is 
working closely with the IPO, subcontractors and the user community to 
successfully conduct risk mitigation activities throughout the NPOESS 
program. However, Northrop Grumman's biggest concern in executing the 
NPOESS contract is not technical risk, but rather budget instability.
    NPOESS is unique in a programmatic sense. Prior to the award of the 
NPOESS Prime contract, the IPO initiated a Program Definition and Risk 
Reduction phase, which included the selection of contractors for five 
new sensors. The IPO established these sensor development contracts to 
retire risks associated with new technology developments. The NPOESS 
program benefited tremendously by the IPO's early sensor risk reduction 
activities. Additionally, this phase of the program fundamentally 
affected our program execution plan by starting design work early and 
by having the preliminary design review as part of the proposal. 
Because of this process, we had already started staffing the program 
for execution, so funding reductions did not just delay program 
initiation, they stopped a substantial amount of on-going program work.
    Within the context described above, one technical challenge we face 
is the final risk retirement for the new sensor developments. 
Fortunately, we are able to bring NGST's technical capabilities and 
proven processes to bear as the sensors proceed through the various 
maturity stages of their development. For example, the three NPP 
sensors that Northrop Grumman will provide to NASA have progressed in 
their design to the point where engineering development units have been 
built and are in various stages of test and evaluation. As these 
sensors move from design to flight fabrication, we are addressing 
typical production and re-design tasks such as detector yield, 
packaging integrity, and modulated instrument background interference. 
Northrop Grumman is drawing on domain knowledge across our corporation 
to assist the NPOESS sensor subcontractor teams to effectively resolve 
these challenges as they arise.

NPOESS System Integration

    Northrop Grumman is working with its subcontractors and the IPO to 
ensure the proper, future integration of sensors, algorithms and entire 
program segments. For sensors, this involves the integration of sensor 
hardware to our satellites. We typically evaluate important technical 
design features such as data bus interfaces, mechanical interfaces, 
weight distributions, power consumption, thermal radiation, 
electromagnetic interference, fields-of-view, cleanliness requirements, 
and many others. We are addressing each of these, resolving and 
documenting them in sensor-spacecraft interface control documents. We 
benefit significantly in this area from the recent completion of the 
same activities on the NASA EOS Aqua satellite, which carries many 
instruments similar to those that will be on NPOESS. In this area, we 
are well up the learning curve. The integration of the system 
algorithms into the NPOESS Interface Data Processor (IDP) Segment is 
equally important. Northrop Grumman is performing independent 
simulations and analyses to confirm the quality of each data product 
the sensor system will provide. This information assists sensor 
subcontractors to evaluate and balance, in a ``best value'' sense, 
design, requirements, and specifications options as they complete their 
development. The overall integration between all the segments of the 
system is also important: the space segment; the command, control and 
communications segment; the IDP Segment; the Field Terminal Segment; 
and the Launch Support Segment.

Integrating NPOESS with the User Community

    The integration of the entire NPOESS system with the user community 
involves incorporation of the NPOESS Concept of Operations within the 
Government Concept of Operations for environmental systems; the 
physical/electrical interfaces into the four weather centrals, the 
physical, electrical, and operational interfaces into the mission 
management centers; and the interfaces into various government data 
archive facilities. We understand these system integration challenges, 
have plans in place to address them, and proven processes give us the 
confidence that we will be successful meeting these challenges.

NEW NPOESS PROGRAM PLAN

    Northrop Grumman will submit a replan change proposal in August 
2003 based on the current funding profile. We will provide a plan that 
delivers full mission capability including our support for the 
development activities of the NPP program. But it will be a plan that 
is characterized by schedule delays in the development and delivery of 
the NPOESS Space Segment.

CONCLUSION

    I want to clearly reinforce that NPOESS program schedule, 
efficiency and cost are adversely affected by funding reductions. 
Northrop Grumman's biggest concern in executing the NPOESS contract is 
not technical difficulty and risks, but rather budget instability. The 
budget reductions have impacted the program plan that we carefully 
developed over 3 years. They disrupt staffing plans, subcontract 
negotiations and other efforts that ripple through the entire 
subcontractor team. Any future reductions would generate similar 
adverse impact. While the reductions have been a setback, our replan 
will enable us to execute an outstanding NPOESS program that meets our 
nation's needs for environmental data. We stand committed to provide 
the very best program performance, within the funding profile we're 
given.

    Chairman Ehlers. Thank you.
    Dr. McPherson.

   STATEMENT OF DR. RONALD D. McPHERSON, EXECUTIVE DIRECTOR, 
                AMERICAN METEOROLOGICAL SOCIETY

    Dr. McPherson. Thank you, Mr. Chairman, Mr. Udall, Members 
of the Committee.
    I am here today as a user of polar-orbiting satellite data, 
not associated with the project or the operation of the 
satellites, but as a user. For 30 years of my career, I was 
associated with the National Centers for Environmental 
Prediction, which is that part of NOAA where data from 
satellites meets numerical weather prediction models.
    So I have--I was asked to address five questions, all of 
which--or most of which involve the polar-orbiters. You have my 
written statement, which addresses them all, but in the five 
minutes that I have now, I would like to summarize and discuss 
two main impacts of a potential gap, should a gap in the 
availability of polar-orbital data come about.
    First, polar-orbital data have made a very significant 
contribution to the climate record. We are now at a time when 
decision-makers in government are asking that uncertainties in 
climate change science be reduced. A gap in the availability of 
polar-orbited data will not reduce the uncertainties in that 
climate record; it will create a disruption.
    Secondly, polar-orbited data made possible the extension of 
useful weather forecasts from three days in the 1960's to seven 
days now, with the expectation of being able to go out to 10 
days with daily forecasts in the--within the next couple of 
years. Polar-orbiting data, sounding data from the polar-
orbiting satellites made that possible. If there is a gap in 
the availability of polar-orbiting data, the impact of that 
absence of data on the forecast of three to seven days will be 
very severe.
    We have made enormous progress in weather forecasting over 
the last 30 years. If I could have the first slide there.
    [Slide.]
    This index, Mr. Chairman, shows in blue the increase in the 
skill index in the 36-hour forecast and in the red, in the 72-
hour forecast over the period of time starting in 1955. And I 
am going to take that off, because I don't want your eyes to 
glaze over too quickly looking at that.
    Measures like that are useful to meteorologists but to 
almost no one else. I find it much easier, and much more 
useful, to stand in supermarket checkout lines and eavesdrop on 
conversations that I hear, listening very carefully for those 
that are related to weather. And I can tell you that in the 
1970's, one never heard a discussion in the supermarket 
checkout line of a decision being based on a weather forecast. 
One sometimes heard scurrilous comments about the weather 
forecast for that day that didn't work out, but never a 
decision.
    And by the middle of the 1990's, such conversations, I can 
testify, were quite commonplace. I remember one in particular 
in January 1996 in which a woman--this was a Monday. The 
Weather Service had just issued a forecast for heavy snow in 
the mid-Atlantic region for that Friday. She was saying that 
she had reservations to go to Cancun on Friday, but had decided 
to move her reservations up to Thursday. Quite--discussions 
like that are quite commonplace.
    [Slide.]
    If there is a gap in the availability of polar data, 
headlines like this, which was from 1993, ``A Wonderfully Well-
forecast Snowstorm That Affected the Parade in Boston,'' would 
be replaced by ones which look like, oops, sorry--ones which 
look like this----
    [Slide.]
    --which was the spring forecast for here, heavy snowstorm 
two years ago, the storm before the calm actually turned out to 
be a very good forecast in New England, but not here. And what 
is more to some, we would have more of this sort of thing.
    [Slide.]
    Cartoons.
    Mr. Chairman, we--this country, hooked or not--whether we 
know it or not, we are hooked on modern successful weather 
forecasts made possible by polar-orbited data. If that is 
interrupted, the impact will be very serious.
    Thank you very much.
    [The prepared statement of Dr. McPherson follows:]

               Prepared Statement of Ronald D. McPherson

    Chairman Ehlers, Mr. Udall, distinguished Members of the Committee: 
I am pleased to have the opportunity to testify before your 
Subcommittee on this very important topic. I speak to you today from 
the vantage point of long-time involvement with the polar orbiting 
meteorological satellite program, as a user of atmospheric observations 
from polar orbiting satellites. During my nearly 40-year career with 
the National Weather Service, much of my interest and energy was 
devoted to developing and improving the performance of computer-based 
weather forecasting models, and in particular to enhancing the 
effectiveness with which satellite data are used in those models. From 
1990 until 1998, I was the Director of the National Centers for 
Environmental Prediction (NCEP), that component of NOAA's National 
Weather Service responsible for the operations of the computer-based 
models that serve as the basis for virtually all weather forecasts in 
the United States. Since 1999, I have served as the Executive Director 
of the American Meteorological Society, the scientific and professional 
association of more than 11,000 scientists and practitioners in the 
atmospheric and related oceanic and hydrologic sciences and services.
    I was asked to address five questions, having mostly to do with the 
prospect of a potential interruption in the availability of atmospheric 
observations from polar orbiting satellites as we transition from POES 
to NPOESS, and indeed the polar satellite program is the main focus of 
this statement. Nevertheless, it may be useful to briefly discuss a 
previous circumstance in which the meteorological enterprise was in the 
precarious position of possibly losing data from NOAA's geostationary 
satellite program.
    The advent of geostationary satellites providing real-time images 
of global weather patterns has profoundly changed society's notions 
about global weather. Those images on local, national, and 
international television of immense cloud systems that span whole 
continents and sometimes cross hemispheres provide clear visual 
evidence of the connectivity of today's weather along the west coast 
with next weekend's weather in the mid-Atlantic region.
    In the mid-1980s, a series of unfortunate policy and budget 
decisions and a satellite launch failure left the U.S. with a single 
geostationary satellite for almost six years, from January 1989 through 
January 1995. I was Deputy Director of the National Weather Service 
during a portion of that time. We dealt with that situation by shifting 
the one active U.S. geostationary satellite back and forth seasonally: 
during hurricane season, it covered the Atlantic, Gulf of Mexico and 
Caribbean, and during the winter it was positioned over the eastern 
Pacific to give coverage to the west coast for winter storms. We also 
``borrowed'' an older, less capable geostationary satellite from the 
Europeans to help with coverage.
    We made it through that difficult period without disastrous 
consequences. But if we had lost the single functioning geostationary 
satellite during that period, the National Weather Service's ability to 
warn citizens of tropical storms and large complexes of severe 
thunderstorms would have been very seriously compromised. The 
extraordinary importance of the satellite imagery to communicate 
serious weather problems to the public through television would have 
been lost.
    Geostationary satellites are most valuable for real time monitoring 
of weather hazards such as hurricanes and severe thunderstorm systems. 
By contrast, polar orbiting satellites bearing instruments that sense 
quantities related to atmospheric temperature structure are most 
valuable as input to computer based forecast models; indeed, when these 
data became available, global weather predictions became practical. By 
the mid 1970s, improvements in modeling, computing capability, and 
accuracy of the polar orbiter data led to the operational production of 
global atmospheric predictions. There followed a period of steady 
improvement in the accuracy and range of weather forecasts in the U.S. 
and in developed and some developing countries around the world that 
continues today. It is worth noting that data from polar orbiters have 
contributed enormously to the development of the global climate record 
over the last 30 years. For example, in the IPCC (2001) report, 29 
likelihood statements were made regarding observed climate trends, and 
17 were based on data from NOAA's polar orbiting satellites.
    By the mid-1980s, the skill of the three-day forecast was 
equivalent to that of the one-and-a-half day forecast 15 years earlier, 
and by 1990, skillful daily forecasts were being issued for five days 
in advance. Currently, the numerical forecast models provide skillful 
predictions out to seven or eight days, based largely on global 
observations provided by polar satellites. This progress depended on 
improvements in observing technology, advances in available 
supercomputers, research and development in understanding and modeling 
of the atmosphere, and in learning how to effectively use the 
observations from polar orbiting satellites.
    The improvement in weather forecasting can be amply demonstrated by 
various, objective, statistical measures used by meteorologists. These 
measures are helpful to meteorologists, but are not very useful for 
laypersons. A more understandable, if less scientific, indicator is 
eavesdropping on conversations in the supermarket checkout lane. In the 
mid-1970s one would never hear ordinary citizens discussing their 
personal decisions based on a weather forecast beyond tomorrow, and 
rarely (and skeptically) on tomorrow's forecast. But by the mid 1990s, 
such conversations were quite common. In January 1996, for example, I 
overheard a shopper on Monday basing her winter vacation plans for 
Friday on a five-day forecast of heavy snow. She had airline 
reservations on Friday for a trip to Cancun, but on the basis of that 
forecast, changed her reservations to Thursday. It proved to be a good 
decision.
    At least as important, a significant number of institutions in 
weather- and climate-sensitive economic sectors in the mid-1980s began 
to realize that weather forecasts out to five days in advance had 
achieved sufficient accuracy that business decision making processes 
could usefully factor them in, with due recognition of the predictions' 
inherent uncertainty. It is difficult to quantify this growth in the 
use of weather forecasts in business decisions, but it has led to a 
demonstrable and significant growth in the private weather information-
provider industry. It is now estimated that between two and four 
trillion dollars of the U.S. economy is sensitive to weather and 
climate. A sound and continually improving prediction capability is 
essential to the efficiency of those weather and climate sensitive 
sectors.
    Largely because of factors not related directly to weather and 
climate, we as a society are even more sensitive to weather and climate 
than was the case even ten years ago. For example:

        <bullet> ``Just-in-time'' shipping. A Master of a container 
        vessel that operates in and out of Baltimore harbor begins to 
        make plans for docking when the ship is still two to three days 
        out, in order to make sure that the delivery vehicles. . 
        .trucks and railroads. . .will be available, for there is no 
        warehouse: his vessel is the warehouse, and the longer it is 
        unnecessarily at dock, the less revenue it generates for its 
        owners. Thus the Master needs an accurate three-day forecast of 
        wind, temperature, precipitation, and water level for Baltimore 
        harbor.

        <bullet> Energy deregulation. Prior to deregulation, electric 
        utilities maintained excess generating capacity to be able to 
        handle sharp, unexpected increases in demand, such as might be 
        generated by an unexpected cold front passage in winter or a 
        predicted sea breeze that failed to cool off a coastal city in 
        summer. Now, it is uneconomical to maintain unused capacity; 
        instead, a utility that has a need purchases energy from 
        another utility, for fairly low prices if far enough in advance 
        but at spectacular prices on short notice. Thus, an accurate 
        forecast of temperature shifts several days in advance can make 
        a very large financial difference.

        <bullet> Commercial aviation. In the last ten years, three to 
        seven day forecasts of major winter storms have permitted 
        airlines to anticipate airport closures and move their aircraft 
        out of the path of the storm, thus making recovery of normal 
        operations after the storm more efficient.

        <bullet> Highway and utility line maintenance. Skillful three 
        to seven day forecasts allow local highway maintenance 
        authorities and utility companies to plan their response to an 
        incipient winter storm by pre-positioning crews, equipment, and 
        materiel.

    The instruments on NPOESS are technologically advanced compared to 
the current generation of polar orbiters. Perhaps one of the most 
important for three to seven day forecasts is the microwave sounder, 
data from which are relatively unaffected by clouds. Major 
international forecasting centers such as NOAA's NCEP have already 
begun to use observations from the research version of the new sounder 
that will be flown on NPOESS, and significant improvements in 
experimental forecasts have resulted. At NCEP, preparation for NPOESS 
depends crucially on the Joint Center for Satellite Data Assimilation, 
a joint activity of NOAA, NASA, DOD and NSF. Although under-funded in 
my view, the JCSDA houses research and development efforts essential to 
the effective use of NPOESS data.
    The microwave sounders are also very important for climate 
monitoring and assessment. One of the questions currently being debated 
has to do with evidence that temperatures at the Earth's surface, 
averaged over the globe, have been increasing, and many scientists 
attribute this in significant degree to the increase in atmospheric 
carbon dioxide due to fossil fuels. In the atmosphere above the Earth's 
surface, however, temperatures have not changed in the same way, 
leading to considerable uncertainty in the scientific and policy debate 
over global warming. The microwave sounders on NPOESS will provide 
continuity in the record of upper air temperature structure essential 
to resolving the debate on the basis of sound evidence.
    Thus, the prospect of a reduction in the availability of polar 
orbiter observations is dismaying; not so much from the standpoint of 
warnings of immediate weather hazards, but from the inevitable 
degradation of three to seven day forecasts and our ability to further 
extend them to ten days and beyond, as well as from the standpoint of 
the disruption of the climate record. The NPOESS orbiter that would be 
delayed is the first one that would carry the important microwave 
sounder mentioned above. The impact of an interruption in the 
availability of microwave data on the climate record would be severe 
and would greatly increase the uncertainty of the climate record at a 
time when decision-makers are demanding that climate scientists 
decrease the uncertainty.
    The quality of weather forecasts would not likely revert to that of 
30 years ago, for major improvements have been made in other aspects of 
the forecast process. Nevertheless, I believe that there be a serious 
decline in the accuracy and reliability of forecasts over the U.S. The 
impact would be felt by the industries noted above that have learned to 
depend on accurate three to seven day forecasts: transportation, 
energy, agriculture, construction, recreation, etc. And this would be 
felt not only in the U.S. but also worldwide, as all of the weather 
forecast centers in the world depend on observations from polar orbiter 
satellites. All of these sectors would be less efficient, and in some 
cases much more vulnerable.
    As a final note, NPOESS will not do everything that is needed, and 
additional technological advances will be necessary for further 
improvements in weather forecast accuracy, as well as for monitoring 
and assessing climate trends For example, wind profiles over the 
world's oceans are badly needed, but cost-feasible technology is not 
yet available. When such technology becomes available, though, it will 
undoubtedly be deployed on polar orbiting satellites. Thank you very 
much for the opportunity to participate in this hearing and to comment 
on this very important issue.

                               Discussion

    Chairman Ehlers. And thank you. I have to commend all of 
the speakers. They stayed within the five minutes or very 
nearly. I also appreciate your concern about having our eyes 
glaze over, but I would say never underestimate the ability of 
Congressmen to camouflage glazed eyes.
    We appreciate the testimony and it has been very good. At 
this point, we will open our first round of questions. And the 
Chair recognizes himself for five minutes.
    Just a quick comment on decisions. I make a lot of 
decisions every week based on weather forecasts. And my wife 
thinks I am crazy at times, but I watch the weekly planner on 
The Weather Channel every time I travel either to Washington or 
back to Michigan to decide whether to take a raincoat or a top 
coat or neither or sunscreen or what have you. And I think more 
and more people are doing precisely that.

                       Causes for Schedule Delays

    The question for Mr. Powner and Mr. Bush. With the--you 
both talked about some of the consequences of delays. Now my 
first question is what is the reason for the delays. Are these 
delays--are the reasons technical or financial? Is it because 
the Administration doesn't budget sufficient funding each year 
or are you encountering technical obstacles that are creating 
problems with delays? We will let Mr. Powner have a chance 
first.
    Mr. Powner. Mr. Chairman, according to the program office, 
the schedule delays are currently attributed to budget 
shortfalls. Although I think it will be interesting to look at 
the current rebaselining that is about to come out next month 
and what are the various reasons for the new rebaselining and 
what are the costs associated with that. Clearly, as part of 
our review, we identified a number of sensors that had slipped 
to the end of their schedules and experienced cost increases. 
According to the program office, a lot of those schedule slips 
and cost increases were within anticipated schedule buffers. So 
supposedly, that has all be subsumed in the program to date, 
and the official word from the program office is that it is due 
to the funding delays.
    Chairman Ehlers. Mr. Bush?
    Mr. Bush. Yeah, I might comment. In February of this year, 
just before we were aware of the schedule delays, we conducted 
an executability review with the IPO relative to the baseline 
schedule that we commenced the program with upon contract award 
back in August. The conclusion of that executability review, 
this is the IPO's conclusion as expressed to us, was full 
confidence that we had an executable program plan. The 
replanning work that we are doing today is solely associated 
with the changes in the funding now that we were notified of 
earlier this year. Those are the changes that I mentioned 
before, the $14 million in fiscal year 2003, $70 million in 
fiscal year 2004, and some $60 million in the following years. 
So that is the specific reason for the replanning activity.
    Chairman Ehlers. Mr. Powner, isn't it true that attempting 
to save money by delaying its expenditure actually is costing 
us more?
    Mr. Powner. That is true. There is definitely some truth to 
that, although we are also concerned about some of the 
technical challenges. And when we hear that schedule and cost 
buffers are being used this early in the program, there is a 
concern going forward, because we still have plenty of time 
left in this program going forward.
    Chairman Ehlers. Do you have any estimate of what the 
additional cost would be due to the delays?
    Mr. Powner. We don't have detailed cost information on the 
potential cost and increases. I can tell you that collectively 
when we looked at the sensor cost increases, the four critical 
sensors, there was a cost increase of about $475 million 
associated with those four sensors. There are many reasons for 
those additional cost increases that clearly is laid out in our 
written statement, but how that will equate to the overall 
program cost increases that likely will come out with the 
rebaselining and the contract renegotiation is unclear right 
now.
    Chairman Ehlers. Mr. Withee, your testimony sounded quite 
optimistic, but what about the delays? In your testimony, you 
stated it is NOAA's policy for polar satellites that a backup 
must be available at the time of launch of a new satellite. 
However, the fiscal year 2004 budget request, even if fully 
funded, would create a 21-month gap between when the last POES 
is launched and when the first NPOESS is available. Given that 
your program officials state there is a one in ten chance that 
a satellite will fail either during launch or early operational 
stages, do you consider a 21-month gap acceptable? I mean, that 
is a 10 percent chance. Are you willing to gamble on a 10 
percent chance?
    Mr. Withee. Well, you quite rightly, Mr. Chairman, pointed 
out that our policy in NOAA, as we sit here today, is to have a 
replacement satellite ready when we launch a satellite. So when 
our last polar satellite, N-Prime, is launched, we would like 
to have, on the ground, ready to go, an NPOESS, which is a 
replacement satellite, first on the ground and ready to go. 
That is our policy. We now find ourselves in a situation where 
we can't implement that policy. We find ourselves with this 21-
month gap.
    We are concerned. We recognize the situation in the 
government in terms of the limitation of resources and are 
doing everything we can to try to reduce the gap and also to 
live within the gap. As you know, we do have severe weather 
problems in the north, particularly a polar program covers 
areas where the geostationary program does not, and 
particularly those are higher latitude programs. So severe 
weather, for your state, sir, and northward up in Alaska are 
going to be affected. We worry about that. We try to find 
replacement candidates the best we can. We are forecasting 
those now, but this is a seven-year forecast, so it is hard to 
predict what satellites would be available. We are concerned. 
We are also concerned for our climate community as well, 
because we need data continuity.

                The Potential Gap in Satellite Coverage

    Chairman Ehlers. The fiscal year 2004 budget request 
results in a 21-month gap, but you are still doing replan for 
this. Can we slip even further than 20 months--21 months, the 
way this is developing?
    Mr. Withee. I would hope the budgets would remain intact 
such that in the future for 2005 and beyond that we would not 
slip beyond that 21 months. We in NOAA have been very strong 
about that. We are working those budgets now, of course, with 
our people in the Department of Commerce and OMB, and that is 
not yet done yet. But we are doing everything we can to avoid 
further slip, and I think our partners might have a comment on 
that, but they are working with us.
    Chairman Ehlers. Yeah, just really that the August replan 
might end up showing an even further slip. I don't--Mr. Powner 
and Mr. Teets, do you want to comment on either of these 
questions?
    Mr. Teets. Yes, sir. I would offer a comment or two. I do 
think that, as Mr. Bush indicated, that the schedule slipping 
and the reprogramming activity that is going on right now is 
the result of a budget change. And one of the real challenges 
that we who are involved in the space world face is the fact 
that in terms of programming and planning for future satellite 
launches, it is difficult to predict how long current 
satellites will live on orbit. That is to say there is no 
certainty as to the time when POES-N or POES-N-Prime will 
actually fail on orbit. And so there--I recognize NOAA's policy 
here of wanting to have a satellite ready at the time of the 
last satellite launch in order to hedge against a launch 
failure, but I would also say that we have learned over time 
that no satellite should be launched before its need date. And 
as a result, I would say that we have found, again, over time, 
that satellites are living longer than are originally 
predicted. And so my own view of the replan and the take away 
from the activity ongoing is that we are taking a reasonable 
level of risk. I would call it a low risk that we will face a 
literal gap in polar weather prediction capability.
    And I can assure you that my comments in my opening 
statement are very genuine. The Department of Defense needs 
these weather forecasts. We need them to win this global war on 
terrorism. And we think that the reprogramming that is going on 
now will create a program that is executable. I believe that 
John Cunningham has taken a mature view of recreating a program 
within some constrained budget limitations that still allows 
him to have adequate management reserve to handle problems in 
the program as they occur. And I am in support of what we are 
working together with our partners here at NOAA, and with NASA 
participation as well, in creating this revised program.
    Chairman Ehlers. If the $130 million were restored, would 
you be able to get back on schedule or not or even if a 
fraction of it were?
    Mr. Withee. In terms of numbers, we would have to get back 
to you with the accurate numbers. But money, at this point, on 
that order, will help us get back to minimize the gap from 21 
months to approximately 12 months. There is, though, a point, 
which we have passed. We cannot restore all of the schedule and 
lost time because of the very problems that have been mentioned 
earlier and the physical limitation in time in trying to get 
some of these things put together. So on the one hand, that 
would help, on the other hand, as I have said, if that doesn't 
happen, we will do everything we can to help minimize the gap, 
within our ability, and also minimize the impact of the gap.
    Chairman Ehlers. I have exceeded my time limit, and out of 
courtesy for my Ranking Member, I will give him extra time, 
too, if he wishes. So it is my pleasure to recognize----

                 Monitoring the Budget Process for Gaps

    Mr. Udall. Thank you, Mr. Chairman. And those were all very 
well directed questions in helping us understand the situation 
we face. My friend in--the Chairman mentioned that you should 
never underestimate the ability of a Member of Congress to 
camouflage glazed eyes. One of our former colleagues said, ``If 
you can fake sincerity in this business, you have got it 
made.'' He is doing a pretty good job here right now, because 
he is serving as the Governor of New Mexico, not to mention any 
names. But when I plan to watch The Weather Channel, my wife 
says, ``Why don't you just go outside and look at what the 
weather is doing?'' And so I am going to use the weekly planner 
tactic the next time I find myself watching The Weather 
Channel.
    But more seriously, I am going to direct my first question 
to Mr. Withee and Mr. Teets, and Mr. Bush; you did part of my 
question. When he described, Mr. Bush, your--developing an 
initial baseline, you worked, I think, from about September of 
2002 until February of 2003. And the fiscal year 2003 
appropriations process concluded at about the same time in 
February. And the fiscal year 2004 budget was presented about 
two weeks earlier. So it appears to me that we all went through 
this baseline exercise for about five months, and then it 
arrived dead, DOA, if you will. And can you explain how that is 
possible? And then as a follow-up, I wanted to talk about how 
we could make sure that this--we didn't find ourselves in that 
same situation, perhaps, in the fiscal year 2005 process. So I 
would direct it to Mr. Withee and Mr. Teets, but Mr. Bush, if 
you wanted to respond after those two, I would appreciate it as 
well.
    Mr. Withee. I understand you want to explain the process of 
what we went through or how it is possible to do what?
    Mr. Udall. Yeah, how we ended up going through that 
process, well intended and in-depth process, for the original 
baseline exercise and then when we, and I use ``we'' in the 
broadest sense, we--because we were all involved, the Congress, 
you, and the Administration, when that baseline arrived here, 
within days or even within days before it arrived, it was not 
relevant anymore. It was not a useful tool for us, so I imagine 
that was frustrating to everybody involved. But I am just 
curious to get an insight on how that could have happened and 
how we would apply that into this next cycle for the fiscal 
year 2005 cycle.
    Mr. Withee. Yes, sir, that was a rugged exercise to go 
through. And as was testified by Mr. Bush, these exercises are 
not only costly in time, but they take resources to put 
together both on the government side and on the contracting 
side. Timing is everything in this business, and timing of that 
adjustment to our budget versus the timing of trying to get the 
program planned was just the wrong timing.
    Mr. Udall. Um-hum.
    Mr. Withee. And I could say it will probably never happen 
again, but you never know about this business. Once we get in 
and are settled down here, and we intend to do that this year, 
then we hope we won't have many more cost adjustments to look 
at. And that is the best--it is--for acquiring satellites, you 
need cost, schedule, and performance. You need to know about 
those three things. If we can keep the cost fairly----
    Mr. Udall. Um-hum.
    Mr. Withee [continuing]. Fixed, we can get these 
performance factors under control, and I must say that I 
monitor this with John Cunningham every week, and we are 
getting these sensor problems that were discussed under 
control. That is normal in a program. The instruments are very 
hard things to build, at the beginning, you are pushing the 
envelope on physical principles and trying to get things done 
cheaply and getting the right materials in there. And we are 
beyond that. In two of those four instruments, we have those 
under control and we have the cost parameters going back to 
normal and the schedule parameters going back to normal. We 
need to do that with the other two, and we need to keep those 
cost envelopes coming just as the present budget has put them 
forward to Congress.
    Thank you.
    Mr. Teets. My view, sir, is that the December 2009 launch 
date is achievable with the restructured program, but I do 
believe that any additional out year cuts would jeopardize that 
one more time. And I don't think we can afford another schedule 
slip. I think the December 2009 time frame is a mark in the 
sand that we need to keep. And I can assure you that we will be 
trying very hard to maintain budget stability.
    Mr. Udall. Mr. Bush, did you care to comment or----
    Mr. Bush. Yeah, I would add only the perspective that it 
wasn't just in August when we were awarded the contract that we 
began the planning exercise. The IPO office conducted a three-
year risk reduction phase in advance of awarding the contract. 
And as a part of that activity, we were creating this very 
detailed, fairly complex program schedule of these 32,000 
milestones that I was referencing in my testimony. And what was 
put in place upon contract award was to converge our detailed 
program plan with the detailed program plans of the sensor 
contractors, which had been also undergoing this risk reduction 
phase. So we converged these 40 or so different major schedules 
into a single, large, integrated master schedule that we used 
to conduct a program of this nature.
    Mr. Udall. Um-hum.
    Mr. Bush. And it is the replanning of that activity that we 
commenced upon, understanding the change in the funding 
profile.

                    Changes to the Baseline Process

    Mr. Udall. Is it fair to say you had to start from a 
standstill and you started on that particular date and you 
moved ahead and the appropriations process here overlapped your 
work in such a way that, in the end, it was dead on arrival? 
But you now have a better sense of how this is unfolding and--
so in the future we at least have more potential to avoid 
another----
    Mr. Bush. Yeah, we have----
    Mr. Udall [continuing]. Dead on arrival product?
    Mr. Bush. Yes, we have a very detailed understanding of the 
program resulting from having actually worked on it now for 
over three years as a part of the risk reduction activities. 
And so to make the point that Mr. Withee and Mr. Teets have 
made, our understanding of the program has enabled us to create 
a very high confidence rebaselining to give us very high 
confidence on--in regards to executability with respect to a 
2009 launch.

       The Nature of Technical Failures and Contingency Planning

    Mr. Udall. I am going to take advantage of the Chairman's 
offer to direct a little more time my way and ask one more 
question and direct it at Mr. Withee and Mr. Teets. I know it 
has been continuously planning, and if we, in fact, got to a 
position where we didn't have all of the new satellites up, but 
we have got some of the old satellites still performing, how 
does that unfold? What measures do we have in place? Or what 
steps could we take to respond to that kind of situation? And 
if you would, just to educate me, at least, when a satellite--
when you say a satellite fails, it is generally not the 
satellite itself, it would be one or more of the sensors, and 
you don't necessarily have an indication of that or do you? It 
is not like a light bulb just goes out and then it is gone? You 
have no recourse at that point.
    Mr. Teets. I guess I will be first here to answer this one. 
Typically speaking, perhaps one of the instruments might fail, 
and that would essentially be a dim light bulb then----
    Mr. Udall. Uh-huh.
    Mr. Teets [continuing]. For a while, and it becomes 
something of a judgment call as to when you want to take a 
satellite out of full service. Sometimes there are hard 
failures, which is like a light bulb going entirely out all at 
once.
    Mr. Udall. Um-hum.
    Mr. Teets. But the thought that I was trying to give to you 
is that there is not a certainty in knowing how long these 
satellites will live. There is some reasonable estimate, based 
on past history, based upon the particular state and time it 
was built and the conditions under which it was launched and so 
on and so forth that drive those lengths of life. I can tell 
you that, as I mentioned in my testimony earlier, from the 
Department of Defense's point of view, we do have five 
satellites that have not yet been launched. The next DMSP, 
Defense Meteorological Satellite Program satellite will be 
launched in September of this year. And then depending upon 
it--how long it is until we experience another failure in one 
of our three orbiting platforms, that will drive when we will 
launch vehicle 17.
    Mr. Udall. Um-hum.
    Mr. Teets. Vehicle 17 is currently scheduled to be launched 
next year. But if we get longer life out of those assets that 
are on orbit, that could delay a little bit. And so what we are 
trying to do is put forth a reasonable risk profile to schedule 
these kinds of launches. And I can assure you that we are 
anxious to have NPOESS C-1 on orbit. It will give us something 
on the order of 20 times the amount of data that we are getting 
out of our DMSP satellite.
    Mr. Udall. Um-hum.
    Mr. Teets. It will give us 22 colors, where we get two 
colors out of DMSP.
    Mr. Udall. Um-hum.
    Mr. Teets. So it is a vastly improved satellite that will 
give us better capability than we have ever had. And so we are 
anxious to have it, and we want to fund for it accordingly. In 
terms of our budgeting process, we will be going through the 
2005 budgeting process here. Well, we are in the midst of it 
right now. And I can assure you that my objective is to make 
certain that we have the necessary resources to be able to have 
this NPOESS capability in December of 2009.
    Mr. Udall. I think----
    Mr. Withee. Certainly, you have hit on a very strong point 
in any operational satellite program, and that is you have to 
do contingency analysis constantly your mission is continuous 
supply of satellite and other operational data. And so we spend 
a lot of time trying to wrestle with the question that you 
asked. First of all, Under Secretary Teets has said you can get 
failures of many different types, and NOAA has had them all. 
NOAA-13, some people have told me because of the number, failed 
in two weeks, hard, lights out. Never heard from it again. It 
is still up there, perfectly good satellite, we think, with one 
possible problem, a fusion of one of the parts. That can 
happen. And that means you have to adjust your ideas of how 
long satellites last.
    I might remark that four of the dates of N and N-Prime that 
we have been talking about, the March 2008, those have been 
adjusted in the last three years to reflect longer lifetimes. 
And so, instead of a two-year lifetime, which was contracted 
for by the corporation that built them, we have extended that 
24 months to 45 months. And that is the basis of our 
calculations, which we call--it is a 50 percent need date. 
Expect a 50 percent probability that in March 2008 we are going 
to need a satellite, and that is what we tend to live with, 
about 50 percent. So we don't think we are too conservative but 
on the other hand, we are not going to wait--we are not going 
to project those need dates out until the 90 percent 
probability, that would be way out further than that.
    Thirdly, in terms of contingency, it is not just working 
with reliability of satellites, but it is using other sensors 
from other satellites. If we have parts from some of our older 
satellites that are still working, we keep track of them. We 
keep our satellites on, and we are prepared to use those. That 
is sort of luck of the draw, but at any time we have two or 
three satellites with sensors that are working. We can not, 
though, use just any sensors. For example, the Defense 
Meteorological Satellite Program, while similar to NOAA's 
satellite program, is different. The mission is different.
    Mr. Udall. Um-hum.
    Mr. Withee. The sensors are different. And we can not plug 
those sensors into our own algorithms and produce weather 
forecasts. For example, the DMSP does not have an infrared 
sounder at all, and the sounder is the instrument which makes 
long-term forecasts realizable.
    Mr. Udall. I want to thank you for your testimony and thank 
the Chairman for his indulgence in providing me with some 
additional time.
    Chairman Ehlers. Thank you.
    Mr. Smith from Michigan.

                  International Satellite Data Sharing

    Mr. Smith of Michigan. Mr. Powner, good to have you here. I 
guess they had not--the paper this morning, the Washington 
Post, was--we were going to go in debt $450 billion this year. 
And so the question is is this technology such that we should 
be borrowing the money from what our kids--our grandkids 
haven't even made yet to pay for the technology, newest 
technology today. And so one of my questions is how much does 
the U.S. rely on polar satellites from other nations, such as 
Europe and Asia? And how much do they rely on us? And do we 
charge anyone for this data that we provide? If not, should we? 
Should that be some kind of a consideration? And if we lose 
U.S. polar satellite coverage, how much of that gap can be 
filled in by the weather satellites of other nations? And Mr. 
Withee and Mr. Teets probably to--I would direct that to.
    Mr. Withee. Thank you.
    Mr. Smith of Michigan. You are welcome.
    Mr. Withee. I will start with an answer on behalf of NOAA. 
We think these satellites are very important and integral to 
our missions, not just weather, which is where we started, but 
now climate and ocean and hazards are becoming really important 
parts of the satellite functions. So when you want to express 
how much is enough, you have to evaluate that total benefit. 
And we have studies underway. We would be happy to forward them 
to you on the cost benefit of these satellites that we are 
talking about.\1\
---------------------------------------------------------------------------
    \1\ The U.S. taxpayer will realize approximately $1.3 billion in 
savings by converging NOAA POES and DOD's DMSP into a single U.S. 
polar-orbiting system that will satisfy both civil and military needs.
---------------------------------------------------------------------------
    Mr. Smith of Michigan. How much of a benefit is it to them? 
I am just trying to get the point across that we have got to be 
very conscious of every dollar that we spend. So my main 
question is are we so generous that we provide this information 
to the world and is it reasonable to consider charging some of 
the users for this information, whether it is users in this 
country or whether it is users in the rest of the world?
    Mr. Withee. In the satellite world, we have an 
international Committee on Earth-Observing Satellites, CEOS. I 
am the chair of that for the international committee. And the 
whole raison d'etre for that committee is to provide a basis 
for planning, coordination, and sharing data. And I can 
assure----
    Mr. Smith of Michigan. How about sharing the cost?
    Mr. Withee. We feel that sharing data is tantamount to 
sharing costs. If Europe builds a program, we get the data from 
it; I mentioned EUMETSAT. We have a firm partnership in both 
our geostationary and polar series. And as I say, their future 
polar program is defraying a half billion dollars of U.S. 
costs----
    Mr. Smith of Michigan. I don't know how to--my question--
but just assume that you have a pie that represents all of the 
weather data that is accumulated. How much of that pie is paid 
for by the United States?
    Mr. Withee. It is less than 50 percent.
    Mr. Smith of Michigan. Less than 50 percent. And who would 
be the main contributors to the other 50 percent?
    Mr. Withee. Europe and Japan.
    Mr. Smith of Michigan. And how much--if we lose our polar 
satellite the 22 months ahead of time, how much can their 
facilities accommodate that potential gap or lag?
    Mr. Withee. In the case of the polar program, as I said, 
the Europeans will fly a satellite in the morning. We will use 
that data, because that will be what we have in our models, and 
there will be a partial mitigation of our gap in coverage. So 
the Europeans will help us.
    Mr. Smith of Michigan. Mr. Teets, your comments?
    Mr. Teets. Yes, our Defense Meteorological Satellite 
Program satellites do have different sensors on board than the 
NOAA satellites. Our sensors are largely designed in order to 
accurately see cloud cover on a global basis. And we make our 
data available to NOAA and to NASA for their use on a 
government-to-government basis. We don't make our data 
available to other parties, unless it comes out in a form of 
weather forecasting coming out of NOAA. And so I would simply 
say that we don't depend on other countries' satellite 
information to serve our needs nor do we disseminate our data 
to other countries.
    Mr. Smith of Michigan. Do you--is there--do you classify 
any of the information?
    Mr. Teets. Some of the information is classified, but--
having to do with timing of orbit and this sort of thing, but 
the information that we provide to NOAA and to NASA is not 
classified.
    Mr. Smith of Michigan. What is the new U.S. and European 
space organization agreement that Space News reported and 
does--what does that mean in terms of NPOESS as far as the 
future? Apparently an expanded agreement of sharing?
    Mr. Withee. Yes, there were two agreements signed. The 
organization is called EUMETSAT. There is a representative in 
the audience today. And the agreements were, one, to share our 
geostationary data. That is the data that is both above Europe 
and above the U.S., which I might say was used in the campaign 
that we have gone through in Iraq. And secondly, that there is 
a polar orbiter agreement, which is the one I have been 
referring to, which says when they launch their first polar 
satellite, called METOP, that those data will be shared and 
will be available to the U.S. throughout the U.S. government 
and the commercial world for use here in the United States by 
all parties. So we think it is a very good agreement, and that 
is what it was all about.
    Mr. Smith of Michigan. Thank you, Mr. Chairman. Gentlemen, 
thank you for being here.
    Chairman Ehlers. The gentleman's time has expired.
    We will recognize the gentleman from Minnesota, Mr. 
Gutknecht.
    Mr. Gutknecht. Well, let me just say, Mr. Chairman, I thank 
you for having this hearing, and--but my views are--my 
questions were very similar to Mr. Smith's. You know, it just 
strikes me that as a Member of the Budget Committee, we have to 
deal with what we want and what we need and what we can afford. 
And right now, we are looking at some huge deficits.
    And just tag along with what Mr. Smith said. The 
unvarnished fact is government will be paid for. It will either 
be paid for now by current taxpayers, or it will be paid for in 
the future by our kids with interest. $7 billion is still a lot 
of money. And it seems to me before this subcommittee or the 
appropriators or anybody moves forward with this project, to 
use the words of the famous Cuban philosopher, Ricky Ricardo, 
when he would talk to Lucy, ``You have got some 'splaining to 
do.''
    This is a big--and on--and you talk about 22 colors. Well, 
that is wonderful. I mean, does any other satellite in the 
world have 22 colors? I mean, this is very expensive stuff. And 
I am not sure, Mr. Withee, that your numbers are correct about 
how much we spend versus the rest of the world, because that 
does not square with some of the information this subcommittee 
has been given. In fact, I think we are spending over 60 
percent of all of the money being spent on weather research 
today in the world. And we represent, just as a point of 
reference, less than seven percent of the world's population. 
Now I am not saying that people in Africa ought to be helping 
to pay for our satellites and the information. But it does 
strike me that for too long our friends in Europe and even in 
Japan and other developed countries in the world have sort of 
been getting a free ride on a lot of this information.
    I think this is a tough sell. And if you are going to 
expect us to override what the President of the United States 
has requested, it seems to me that you have a big selling job 
with Members of this subcommittee, with Members of the Full 
Committee. And I would hope that you would spend some time up 
here on the Hill trying to explain why we have to spend this 
much money. And when you put this in context, it is just 
astronomical.
    And I guess I am both blessed and cursed by the fact that I 
have actually been out to Boulder, and I was very impressed 
with NOAA's facilities. In some respects, we had just come from 
meetings at NIST. And we saw their labs, and then we saw the 
NOAA labs. And it was like going from the closet to the Taj 
Mahal. And I just--boy, I will tell you, I am sorry I missed 
the opening testimony. I apologize for that. We do have staff 
here. But there are going to be--a lot of questions are going 
to have to be answered before you are going to get a whole lot 
of support from some of the people, at least on this side of 
the panel, to spend $7 billion that the President has not 
requested.
    I yield back my time.
    Chairman Ehlers. I thank the gentleman for yielding back.
    The--you undoubtedly heard the bells going off. It is 
probably--I think it is pretty well known that we are very 
Pavlovian in our behavior here, the bells ring and we go vote. 
But we would like to get a few more questions in before we 
leave for the vote. And my intent is to wrap this up before we 
go vote so you do not have to wait----
    Mr. Teets. Mr. Chairman? I wonder if I could, please, just 
respond to one point that was made by Mr. Gutknecht.
    Sir, I feel the need to say unequivocally that I am in 100 
percent support of the President's 2004 budget request, not 
more than the budget request but at the budget request.
    Mr. Gutknecht. Thank you.

                       The NOAA-DOD Joint Program

    Chairman Ehlers. I thank the gentleman for his comment. Mr. 
Teets, I would just like to follow-up my previous questioning. 
And you have emphasized a couple times in your testimony that 
satellites are lasting longer than we expect. And I understand 
that is the basis of your decision or the Department of Defense 
decision to launch your polar satellites every four years, 
therefore postponing the program as a result of that, because 
it is helping the program. And incidentally we do see your 
share of the cost because it is a duo program that required 
NOAA to also reduce its expenditures in this and delaying the 
project. It--I am concerned about that. It seems to me, as a 
cooperative project, this is something that should have been 
worked out together than--rather than DOD making the decision 
and forcing the issue. But as I pointed out later, delay could 
well lead to additional costs. I am just wondering how you can 
justify what apparently, at least from what we have seen, be 
solely a DOD decision rather than a cooperative decision, which 
I think has real implications for the program.
    Mr. Teets. Well, sir, I believe in operating very much in a 
fully cooperative manner. I--as I have mentioned to you before, 
I have met on numerous occasions with Mr. Withee and with 
Admiral Lautenbacher, with Fred Gregory from NASA. And I would 
just say that all of the budget deliberations that go on 
sometimes take on a life of their own. And in this case, the 
timing was very short, and the time when we put the final 
touches on the President's 2004 budget. And it was not as fully 
coordinated as I would like to have had it be, but it happened 
as it happened. And I am dedicated to making this partnership 
work. I think it is a positive stroke for the country, and I 
think we find ourselves in a situation where we can both 
benefit, working closely together on a matter like this. And 
my--I am dedicated to making certain that as we go forward, we 
nurture this partnership and that in point of fact, we put 
together a program which we can all go shoulder-to-shoulder 
with that will result in a launch capability in December of 
2009 for this very capable polar-orbiting satellite.
    Chairman Ehlers. Well, I appreciate that comment, and I 
certainly encourage you to do that. And I also certainly do not 
want to see any further delays because of the added uncertainty 
and potentially added cost. I have been in the scientific field 
to know long enough that you can make all kinds of estimates of 
lifetimes. It is the extremely short ones that kill you, as you 
found out with the one that the light turned out quickly, as 
you said. But just a--happening to hit some orbiting debris or 
anything else, catastrophic failure is the worst kind of 
failure you can have. And I think we have to be aware of that 
and guard against that happening, because I think it has 
tremendous ramifications, not just for NOAA and weather 
forecasting, but tremendous ramifications about our military 
ability should that happen.
    And so I hope that we can proceed a pace at this point that 
the appropriations will be as scheduled for the rest of the 
project and that we will all reach a happy conclusion and 
continue to not only know what the weather is but know a lot 
more about our Earth's surface, which is useful for military 
purposes but also for climate change research, things of that 
sort.
    I want to thank you all very much for being here. It is--I 
am sorry we are being cut just a little short, but I think we 
got most of the essence. I would ask that you be willing to 
respond to written questions, because we have a few things we 
haven't covered, and we will get those to you as soon as 
possible and ask for your response. So thank you. Your 
expertise has been very valuable, and I appreciate your 
comments.
    Mr. Teets. Thank you.
    Chairman Ehlers. And with that, we stand adjourned.
    [Whereupon, at 3:23 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


    Biographies, Financial Disclosures, and Answers to Post-Hearing 
                               Questions



                    Biography for Gregory W. Withee

    Mr. Withee is the Assistant Administrator for NOAA's Satellite and 
Information Services. He leads the U.S. civil operational environmental 
satellite program which supplies the Nations weather and environmental 
satellite data; and also leads three National environmental data 
centers which archive and make accessible climate, ocean, and 
geophysical data and products.
    Mr. Withee was first employed in the private sector with the 
Lockheed Ocean Laboratory. After serving for some years as the chief 
oceanographer for the NOAH Data Buoy Office, he served as a senior 
specialist for the UN World Meteorological Organization. He then worked 
as a senior oceanographer for an applications group at the Applied 
Physics Laboratory of John Hopkins University. In 1983, after leading 
an ocean products effort for the National Weather service, he was 
appointed Special Assistant to the Administrator of NOAH for Ocean 
Service Centers. From 1986 to 1991, Mr. Withee was Director of the 
National Oceanographic Data Center. For the next six years, he served 
as Deputy Assistant Administrator for NOAA's Satellite and Information 
Service.
    Mr. Withee has received numerous awards and has been cited for 
special recognition both in Government and industry. He has received 
two Presidential Rank Awards for extraordinary performance in the 
Senior Executive Service. Mr. Withee has authored more than 100 
publications and reports and has lectured at a wide variety of 
conferences and symposiums. Mr. Withee received his undergraduate 
degree in Physics from Pomona College and a Master of Science in 
Oceanography from the Scripps Institution of Oceanography.

                   Answers to Post-Hearing Questions

Responses by Gregory W. Withee, Assistant Administrator for National 
        Environmental Satellite Data and Information Service (NESDIS), 
        National Oceanic and Atmospheric Administration

Questions submitted by Democratic Members

Q1. In response to Chairman Ehlers' question, Mr. Powner of GAO stated 
that the current 21-month delay in the NPOESS program is due to the 
funding reductions announced in 2003 and proposed for 2004 and beyond. 
Mr. Powner further stated a concern that schedule and cost buffers are 
being used this early in the program.

Q1a. Does the Administration anticipate at this time (e.g., FY05 
budget request) any further reductions in the funding path for the 
NPOESS program?

A1a. The Administration is currently developing the President's FY 2005 
Budget Request which will be presented to Congress in February 2004. At 
that time, the Administration will lay out the planned funding 
requirements for the NPOESS Program. As stated by Undersecretary Teets 
and Assistant Administrator Withee, the Departments of Defense and 
Commerce are working closely to address the program's funding 
requirements.

Q1b. What assurance can you provide to us that the current re-
baselining effort will provide a firm commitment of base funding levels 
for the NPOESS funding path for FY05 and forward?

A1b. The current re-baselining establishes a new, executable schedule 
and supporting budget, although with a delivery 21 months later than 
planned at contract award in August 2002. We believe the program is on 
a sound fiscal footing and there seems to be strong support in the 
Department of Commerce (DOC) and Department of Defense (DOD) for 
maintaining the schedule and hence the budget.
    However, the budget is reviewed each year against Administration 
targets and the enacted Congressional budget and there are many 
competing pressures. While NPOESS is extremely important, it must be 
annually judged against these competing pressures.

Q2. What is the status of the test launch program, the NPOESS 
Preparatory Project (NPP)? Will the key sensors that need to be tested 
be ready to meet the planned launch date in 2006? How are the sensor 
development, NPP launch, and NPOESS launch schedules related to one 
another? Does a delay in one part of this sequence automatically 
translate into a similar delay in the other schedules?

A2. The NPOESS Preparatory Project (NPP) is currently scheduled for 
launch in October 2006. To meet this date, the following are required:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The current status for our deliverable items meets the NPP need 
date:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    <SUP>1</SUP> These dates include between 30 and 60 days of margin 
against the required date. To create satellite integration and test 
margin, we plan to deliver the engineering development unit (EDU) 
sensors in the spring of 2005. This will allow the NPP contractor to 
perform mechanical and electrical integration much earlier than 
planned, greatly reducing risk. The flight sensors will then be 
installed for environmental test.

    The sensor developments of VIIRS, CrIS, OMPS, and ATMS for NPP are 
the first NPOESS program sensor deliveries to reduce both development 
and manufacturing risk and demonstrate orbital performance. By doing 
this early for NPP, it should greatly reduce NPOESS risk.
    The sensors are the pacing items for the NPP launch. If the NPP 
sensors slip past the required dates, this could slip the NPP launch. 
These slips in NPP, however, will not slip the NPOESS launch. NPP is 
intended to verify performance of the complete NPOESS ground and data 
processing systems. With an NPOESS ground readiness need date of 
February 2009, we have margin between the NPP launch and the NPOESS 
need date.

Q3. Has NOAA explored the possibility of negotiating a contingency 
clause with Lockheed Martin (the primary contractor for the current 
POES program) to supply an additional POES satellite(s) in the event 
that NPOESS is further delayed or that the final POES fails upon launch 
as a way to ensure there are no gaps in data delivery?

A3. Yes. NOAA has conducted a thorough analysis of the transition 
between POES and NPOESS and does not believe that an additional POES 
spacecraft can be built in time, or cost-effectively, to fill any gaps 
between the launch of the last POES (NOAA-N') and the availability of 
the first NPOESS satellite (C-1). NOAA's analysis indicates that it is 
more cost effective to fully fund the FY 2004 President's Budget 
Request and minimize any additional gaps in backup capability.
    A major concern is the availability of instruments. Several of the 
contractors completed delivery of their last POES hardware quite some 
time ago, and others have been acquired by other companies and it is 
not a certainty that they would bid on such future work.
    Even with the assumption that all of the principal POES vendors 
will be capable of responding to such a new requirement, there is a 
schedule problem. The amount of time from turn on to get delivery of 
the instruments are:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The time required to integrate and test the satellite is estimated 
to be 37 months. The time from integration to launch is estimated at 6 
months. Therefore, it would take approximately 94 months (51 + 37 + 6) 
to build and launch a NOAA-N'--well into 2011 and long after a backup 
to NOAA-N' is required, i.e., March 2008.
    In addition, this timeline is based on the assumption that the 
Delta-2 launch vehicle for which the NOAA POES spacecraft are designed 
and tested will be available in 2011 for this task. However this is an 
old launch vehicle and there are no projected launches that far out in 
time. If the Delta-2 is unavailable, a costly and time-consuming 
modification of the spacecraft to use a more modern launch vehicle 
would be necessary.

                      Biography for Peter B. Teets

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Peter B. Teets is Under Secretary of the Air Force, Washington D.C. 
Within the Air Force, Mr. Teets is responsible for all actions of the 
Air Force on behalf of the Secretary of the Air Force and is acting 
secretary in the secretary's absence. In that capacity, he oversees the 
recruiting, training and equipping of more than 710,000 people, and a 
budget of approximately $68 billion. Designated the Department of 
Defense Executive Agent for Space, Mr. Teets develops, coordinates and 
integrates plans and programs for space systems and the acquisition of 
all DOD space major defense acquisition programs. Also the Director of 
the National Reconnaissance Office, Mr. Teets is responsible for the 
acquisition and operation of all U.S. space-based reconnaissance and 
intelligence systems. This includes managing the National 
Reconnaissance Program where he reports directly to the Secretary of 
Defense and the Director of Central Intelligence.
    Mr. Teets is the retired President and Chief Operating Officer of 
Lockheed Martin Corp., a position he held from 1997 through 1999. He 
began his career with Martin Marietta, Denver, Colo., in 1963, as an 
engineer in flight control analysis. In 1970, he began managing the 
inertial guidance system to the Titan IIIC launch vehicle until 1975, 
when he became Program Manager for the company's Transtage Project and 
Director of Space Systems. Five years later, Mr. Teets became Vice 
President of Business Development for Martin Marietta Denver Aerospace; 
and in 1982, he joined its Strategic and Launch Systems Division as 
Vice President and General Manager. Following two years in these 
positions, Mr. Teets became President of Martin Marietta Denver 
Aerospace, and in 1993, President of the company's Space Group.
    After the Lockheed Martin merger in 1995 and until 1997, Mr. Teets 
served as President and Chief Operating Officer of the Information and 
Services Sector.

EDUCATION

1963  Bachelor of science degree in applied mathematics, University of 
        Colorado, Boulder

1965  Master of science degree in applied mathematics, University of 
        Colorado, Denver

1978  Master of science degree in management, Massachusetts Institute 
        of Technology, Cambridge

CAREER CHRONOLOGY

 1. 1963-1970, engineer for flight control analysis, Martin Marietta, 
Denver, Colo.

 2. 1970-1975, Manager, Titan IIIC inertial guidance system, Martin 
Marietta, Denver, Colo.

 3. 1975-1980, Program Manager, Transtage Project, and Director of 
Space Systems, Martin Marietta, Denver, Colo.

 4. 1980-1982, Vice President of Business Development, Martin Marietta 
Denver Aerospace, Denver, Colo.

 5. 1982-1985, Vice President and General Manager, Aerospace Strategic 
and Launch Systems Division, Martin Marietta Denver Aerospace, Denver, 
Colo.

 6. 1985-1993, President, Martin Marietta Denver Aerospace, Denver, 
Colo.

 7. 1993-1995, President, Martin Marietta Space Group, Bethesda, Md.

 8. 1995-1997, President and Chief Operating Officer, Lockheed Martin 
Information and Services Sector, Bethesda, Md.

 9. 1997-1999, President and Chief Operating Officer, Lockheed Martin 
Corp., Bethesda, Md.

10. 2001-present, Undersecretary of the Air Force, Washington, D.C.

AWARDS AND HONORS

Sloan Fellow

1990 Honorary Doctor of Science Degree, University of Colorado

PROFESSIONAL MEMBERSHIPS AND ASSOCIATIONS

Fellow, American Institute of Aeronautics and Astronautics

Fellow, American Astronautical Society

National Academy of Engineering

                   Answers to Post-Hearing Questions

Responses by Peter B. Teets, Under Secretary of the Air Force and 
        Department of Defense Executive Agent for Space

Test Launch Program

Q1. What is the status of the test launch program, the NPOESS 
Preparatory Project (NPP)? Will the key sensors that need to be tested 
be ready to meet the planned launch date in 2006? How are the sensor 
development, NPP launch, and NPOESS launch schedules related to one 
another? Does a delay in one part of this sequence automatically 
translate into a similar delay in the other schedules?

A1. The NPOESS Preparatory Project (NPP) is currently scheduled for 
launch in October 2006. To meet this date, the following; deliverables 
are required: from NASA--Launch vehicle; Satellite bus; Advanced 
Technology Microwave Sounder Sensor (ATMS). From NPOESS--Visible/
Infrared Imaging Radiometer Sensor (VIIRS); Cross-track IR Sounder 
(CrIS); Ozone Mapping/Profiling Sensor (OMPS); Command, Control, 
Communications; Data Processing.
    Delivery of the key sensors for NPP has been planned for early 
FY06, with 30 to 60 days of margin included against the NPP required 
delivery date. To create satellite integration and test margin, we plan 
to deliver the engineering development unit (EDU) sensors in the spring 
of 2005. Early delivery of the EDU sensors will allow the NPP 
contractor to perform mechanical and electrical integration much 
earlier than planned, greatly reducing risk. The flight sensors will 
then be installed for environmental test. The delivery of VIIRS, CrIS, 
OMPS, and ATMS for NPP will reduce both development and manufacturing 
risk, and demonstrate orbital performance. By doing this early for NPP, 
it should greatly reduce NPOESS risk.
    The sensors are the pacing items for the NPP launch. If the NPP 
sensors slip past the required dates, this could slip the NPP launch. 
Such slips would increase NPOESS schedule risks; risk reduction efforts 
necessary to validate sensors that will be flown on the first 
operational NPOESS satellite could be impacted. NPP is intended to 
verify performance of the NPOESS ground and data processing systems. 
With an NPOESS ground readiness need date of February 2009, we have 
margin between the NPP launch and the NPOESS need date.
    NPP is needed to maintain the climate continuity record between 
NASA's earth observing satellite Terra and NPOESS. With an expected end 
of life of Terra in 2006, a five-year NPP lifetime, and a requirement 
for overlap between NPP and NPOESS, there is very little margin for 
NPOESS slips. NPP slips hurt the environmental record continuity on the 
front end (Terra-to-NPP) but aid continuity on the back end (NPP-to-
NPOESS).

                     Biography for David A. Powner

U.S. General Accounting Office (GAO); Director (Acting), Information 
        Technology Management Issues

    Dave is currently responsible for a large segment of GAO's 
information technology (IT) work, including systems development and IT 
investment management reviews. He recently returned to GAO after 
spending several years with Qwest Communications where he held several 
positions, including director of internal audit responsible for 
information technology and financial audits, and director of 
information technology responsible for Qwest's digital subscriber line 
(DSL) software development efforts. Previously at GAO he has worked at 
both the Denver and Washington D.C. offices where he led reviews of 
major IT modernization efforts at Cheyenne Mountain Air Force Station, 
the National Weather Service, and the Federal Aviation Administration. 
These reviews covered many information technology areas including 
software development maturity, information security, and enterprise 
architecture. Dave has an undergraduate degree from the University of 
Denver in Business Administration and is a graduate of the Senior 
Executive Fellows program at Harvard University's John F. Kennedy 
School of Government.

                         Biography for Wes Bush

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Wes Bush was appointed President of Northrop Grumman Space 
Technology in January 2003. In this position, he holds complete general 
management responsibilities for the company's Space Technology 
business.
    Prior to the acquisition of TRW by Northrop Grumman, Mr. Bush had 
served since 2001 as President and CEO for TRW Aeronautical Systems.
    Mr. Bush joined TRW in 1987 as a systems engineer and has held a 
series of increasingly responsible roles. In 1996 he was named program 
manager of a defense satellite program for the Defense Systems 
Division, responsible for management of the satellite and ground 
segment developments, launch services, and operations and maintenance.
    He became Vice President of TRW Space & Electronic's Planning & 
Business Development in 1998, where his duties included managing the 
organization's planning, resource management, and strategic development 
initiatives.
    Beginning in 1999, Mr. Bush was Vice President and General Manager 
of the Telecommunication Programs Division. In this position he was 
responsible for managing the development and production of 
telecommunication systems and products with an emphasis on advanced 
satellite and terrestrial wireless communications.
    From 2000 to 2001, he served as Vice President and General Manager 
of TRW Ventures, an organization focused on leveraging TRW's advanced 
technologies to create new business opportunities in commercial 
markets.
    Prior to joining TRW, Mr. Bush held engineering positions with both 
the Aerospace Corporation and Comsat Labs.
    He earned a Bachelor's degree and a master of science degree in 
electrical engineering from the Massachusetts Institute of Technology. 
He also is a graduate of UCLA's Executive Management Program.
    Northrop Grumman Corporation is a $25 billion global defense 
enterprise, with worldwide headquarters in Los Angeles, Calif. Northrop 
Grumman provides technologically advanced, innovative products, 
services and solutions in defense electronics, systems integration, 
information technology, nuclear and non-nuclear shipbuilding, and space 
technology. With approximately 120,000 employees and operations in all 
50 states and 25 countries, Northrop Grumman serves U.S. and 
international military, government and commercial customers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Biography for Ronald D. McPherson

    Ronald D. McPherson became the Executive Director of the American 
Meteorological Society (AMS) January, 1999. The AMS is a nonprofit 
scientific and professional organization with a membership of over 
11,000, representing the university, governmental and private sectors 
of the atmospheric, oceanographic and related sciences.
    Prior to that he served for nearly 40 years with the National 
Weather Service, ending his career with eight years as the Director of 
the National Centers for Environmental Prediction (NCEP). His 
responsibilities there included overall management of the nine centers 
comprising NCEP, including scientific and technical leadership, budget 
issues, personnel and policy.
    Earlier, Dr. McPherson served as Deputy Director for the National 
Weather Service. The National Weather Service is responsible for 
providing weather and flood warnings and forecasts for the United 
States and its coastal and offshore waters. The Weather Service employs 
approximately 5,000 people in more than 300 locations throughout the 
United States and its territories.
    Dr. McPherson has been extensively published in scientific journals 
including Journal of Applied Meteorology, Monthly Weather Review and 
Bulletin of American Meteorological Society.
    He earned the Department of Commerce Silver Medal and the 
Presidential Rank Award as an outstanding executive. He was elected 
Fellow of the AMS in 1981.
    Dr. McPherson holds a Bachelors degree in Meteorology, a Masters 
degree in Environmental Engineering and a Ph.D. in Atmospheric Sciences 
from the University of Texas at Austin.

    The American Meteorological Society is the Nation's leading 
professional society for scientists in the atmospheric and related 
sciences. Founded in 1919, the Society promotes the development and 
dissemination of information on atmospheric, oceanic, and hydrologic 
sciences. The Society publishes nine well-respected scientific 
journals, sponsors scientific conferences and policy discussions, and 
supports public education programs across the country. Additional 
information on the AMS is available on the Internet at http://
www.ametsoc.org/ams.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
